<html>
<title> - COMPREHENSIVE TEST BAN TREATY</title>
<body><pre>[Senate Hearing 105-480]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-480

 
                     COMPREHENSIVE TEST BAN TREATY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS


                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                         Department of Defense
                          Department of Energy

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
48-165 CC                    WASHINGTON : 1998

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057011-5





                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
SLADE GORTON, Washington             ROBERT C. BYRD, West Virginia
MITCH McCONNELL, Kentucky            ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
CONRAD BURNS, Montana                HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)

                                 Staff

                             Alex W. Flint
                           W. David Gwaltney
                           Lashawnda Leftwich




                            C O N T E N T S

                              ----------                              

                          DEPARTMENT OF ENERGY

                                                                   Page

Statement of Federico Pena, Secretary of Energy, Department of 
  Energy.........................................................     1
Opening statement of Senator Pete V. Domenici....................     1
Statement of Senator Harry Reid..................................     2
    Prepared statement...........................................     2
Statement of Senator Byron L. Dorgan.............................     5
Stockpile safety and reliability.................................     6
Annual stockpile certification...................................     6
Treaty safeguards................................................     7
Annual stockpile certification...................................     9
Prepared statement of Federico Pena..............................    12
Annual certification.............................................    15
Funding for Stockpile Stewardship Program........................    15
Importance of Stockpile Stewardship Program......................    16
CTBT Treaty obligations and prohibition..........................    17
New or modified weapon design needs..............................    18
Proliferation of nuclear weapons.................................    18
Enabling legislation for the CTBT................................    19
Responsibilities of DOE..........................................    19

                         DEPARTMENT OF DEFENSE

Statement of Franklin C. Miller, Acting Assistant Secretary of 
  Defense for International Security Policy, Department of 
  Defense........................................................    21
Stockpile reductions.............................................    22
START I and future force levels..................................    22
Key CTBT principles..............................................    23
Tritium supply...................................................    23
Verification of treaty violations................................    24
Prepared statement of Franklin C. Miller.........................    24
Statement of Harold P. Smith, Jr., Assistant to the Secretary of 
  Defense for Atomic Energy (Nuclear and Chemical and Biological 
  Defense Programs), Department of Defense.......................    26
Verification of treaty violations................................    28
Prepared statement of Harold P. Smith, Jr........................    29

                          DEPARTMENT OF ENERGY

Statement of Dr. Victor H. Reis, Assistant Secretary of Energy 
  for Defense Programs, Department of Energy.....................    35
Background on program............................................    48
Stockpile stewardship--Concept and risk..........................    49
Experimental and diagnostic tools................................    50
Weapon remanufacture.............................................    51
Challenges and risks.............................................    52
Prepared statement of Victor H. Reis.............................    53
Funding for stockpile stewardship................................    57
Annual certification.............................................    57
CTBT safeguards..................................................    58
Supreme national interest clause.................................    59
CTBT safeguard C--Capability to resume underground testing.......    60
Detection capability.............................................    60
National ignition facility.......................................    60
Los Alamos Neutron Center........................................    62
Confidence in the stockpile......................................    62
Signatory countries to the CTBT..................................    64
Dual revalidation................................................    64
CTBT safeguard B--Nuclear laboratories...........................    66
Annual certification.............................................    66
Future funding for stockpile stewardship versus testing..........    67
Onsite inspection mechanism of CTBT..............................    68


                     COMPREHENSIVE TEST BAN TREATY

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 1997

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:41 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Reid, and Dorgan.

                          DEPARTMENT OF ENERGY

STATEMENT OF HON. FEDERICO PENA, SECRETARY OF ENERGY

                 OPENING STATEMENT OF PETE V. DOMENICI

    Senator Domenici. Could we have order, please?
    We are going to try in the next 2 hours or slightly less to 
have two panels of witnesses on our subject matter, the 
Comprehensive Test Ban Treaty. The first will be Hon. Federico 
Pena, Secretary of Energy.
    Then the panel following you, Mr. Secretary, will be Dr. 
Victor Reis, Assistant Secretary of Energy for Defense 
Programs; and Frank Miller, Acting Assistant Secretary of 
Defense for International Security Policy, to be accompanied by 
Dr. Harold Smith, Jr., Assistant to the Secretary of Defense 
for Atomic Energy.
    I thank you all for coming and whoever is here in the 
audience, we appreciate your presence.
    I thank the two Senators who are here on the Democratic 
side. My ranking member has exhibited as strong an interest in 
all of this as I have and I am most pleased that he can be here 
at this hearing. Frankly, as many Senators as can get a head 
start on this issue, the better off the proposal is and the 
better off we are as an Appropriations Committee.
    This is the first hearing scheduled by the Energy and Water 
Development Subcommittee of Appropriations to explore how the 
Comprehensive Test Ban Treaty, if ratified, will impact the 
appropriation process for the Nation's defense and energy 
budgets.
    I am expecting that we will determine major impacts both on 
DOE's Stockpile Stewardship and Management Program and on their 
verification programs on appropriations.
    The President on September 22, transmitted the 
Comprehensive Test Ban Treaty to the Senate for our study and 
evaluation prior to consideration of providing consent to 
ratification of the treaty. While all treaty actions require 
careful evaluation, this particular treaty presents a most 
unique set of potential benefits and risks which will require 
unusual care in our deliberations and studies.
    In the short time we have spent thus far in learning about 
it and attending other hearings on it, that last statement may 
even be an understatement.
    The CTBT is directly relevant to the power of our nuclear 
stockpile as the ultimate deterrent force for preserving our 
country's freedom and global stability.
    On a personal note, nuclear stockpile issues are the 
subject of intense interest and focus for me. I have worked at 
them, around them, and with this stockpile issue for almost 25 
years, now.
    In our hearing today, we are going to hear from the 
Secretary of Energy, Federico Pena, as our first panel, and I 
have already told you who will follow on the second one.
    Now, I yield to the ranking member and to Senator Dorgan 
for any remarks they may wish to make.

                        STATEMENT OF HARRY REID

    Senator Reid. Mr. Chairman, this hearing is extremely 
important and I am glad that you have moved forward quickly to 
establish the guidelines and direction for this, I think one of 
the most important watershed events to come from the end of the 
cold war, that is, how do we make sure that our nuclear arsenal 
is safe and reliable.
    Every president since President Eisenhower has maintained a 
nuclear arsenal to deter aggression, initially of the Soviet 
Union and later China, and it has worked.
    Mr. Chairman, I have a statement that I would ask be made 
part of the record in its entirety. I am very anxious to get to 
the witnesses and my statement I think covers what needs to be 
covered.

                           PREPARED STATEMENT

    I would ask your permission to have this made part of the 
record.
    Senator Domenici. It will be made part of the record.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

                              INTRODUCTION

    The serious consideration being given all around the world to 
implementation of a treaty banning any and all nuclear explosions is a 
watershed event accompanying the end of the Cold War. For more than 50 
years, the major nuclear powers founded their relationships on the very 
real possibility of a nuclear confrontation that might become 
uncontrollable. To prevent this catastrophe, each side established 
nuclear arsenals adequate to deter the other side from nuclear 
aggression. The moves and counter moves essential to maintaining this 
balance of deterrence required continuous modernization and replacement 
of stockpiled weapons on both sides. The testing of these new weapons 
for their respective stockpiles was, and is today, the only tried and 
true means of guaranteeing that the newly configured stockpile would be 
safe and effective, and would be perceived by the other side as 
effective, in maintaining the nuclear balance between the opposing 
superpowers.
    Compliance with the Comprehensive Test Ban Treaty (CTBT) will deny 
confidence, formerly attained through testing, for the production and 
stockpiling of new nuclear weapon designs. This loss of confidence is 
believed adequate to inhibit new weapons development by both sides, 
effectively ending continuous stockpile improvements through 
modernization and replacement. Although a prohibition of any and all 
nuclear explosions cannot guarantee a prohibition of new weapons 
development (it only prohibits the testing of newly developed weapons), 
it will inhibit such development, and thereby will promote 
stabilization of existing nuclear arsenals.
    Implementation of a Comprehensive Test Ban Treaty could promote 
confidence between former adversaries that cooperation without 
confrontation is possible. Such confidence could lead to further 
reductions in nuclear arsenals. The international example of refraining 
from nuclear testing, along with reductions in strategic stockpiles, 
could reduce incentives for nonnuclear states to develop their own 
nuclear explosives capabilities.
    The likely cessation of unconstrained growth of nuclear weapons 
stockpiles and reduction of proliferation incentives among nonnuclear 
nations are benefits that are enabled by a Comprehensive Test Ban 
Treaty. A cost of these benefits is an unmeasurable reduction of 
confidence in the safety and reliability of our enduring stockpile. 
This cost arises because our past practices of testing for reliability, 
and of replacement of aging, unsafe weapons with new, tested designs 
will no longer be possible. It is essential that adequate confidence in 
stockpile safety and reliability be maintained through means other than 
testing because these weapons will continue to be the foundation of our 
strategic national security.
    Advice and consent of the United States Senate regarding the 
Comprehensive Test Ban Treaty will generate a broad debate of its 
benefits and costs. As a part of that debate, it is important to 
recognize what the treaty provides, and what it does not provide.
    The CTBT prohibits any and all nuclear explosions for any purpose, 
and thereby reduces confidence in stockpile safety and reliability 
unless some other means is found to maintain that confidence.
    The CTBT does not prevent new nuclear weapons development; it only 
inhibits that activity. One of our earliest designs was used without 
testing, so that it is evident that weapons development can proceed 
without testing. However, the President of the United States has stated 
that the National Weapons Laboratories are prohibited from undertaking 
new weapons design activities. Moreover, United States weapons are 
highly sophisticated systems that perform at the very boundary of 
feasibility. It would be foolhardy in the extreme for the United States 
to attempt to incorporate a new design in its delivery systems without 
confirmatory testing. However, it needs to be recognized that other 
nations might risk the development of a weapon without testing. In this 
same spirit, the CTBT does not guarantee against modernization of 
existing stockpiles; it only makes such practice highly unlikely 
because new designs can not be tested for performance and safety. 
Again, the United States stockpile consists of highly sophisticated 
designs tailored to fit the existing delivery systems. Modernization of 
that stockpile without nuclear testing is not feasible.
    The CTBT provides no guarantee of a total cessation of nuclear 
testing because compliance verification is very uncertain for all very 
low yield tests (less than about 100 tons) and for higher yield 
``decoupled'' explosions. At the same time, it is possible for a 
signatory nation to execute a very high yield ``unattended'' explosion 
in a clandestine operation that could not be attributed to its 
originator. Whereas United States policy demands that it adhere to the 
letter and the spirit of international agreements that it is a party 
to, other signatory nations might not conduct their affairs with the 
same level of fidelity. It is important to recognize that it is 
technically possible to conduct a nuclear explosion that might not be 
detected or attributed with confidence.
    The CTBT does not prevent nuclear proliferation; it only inhibits 
proliferation by possibly reducing proliferation incentives and by 
inhibiting or preventing development testing.
    The Senate debate of the CTBT risks and benefits will address each 
of these issues. The following brief remarks will highlight what I 
believe to be the core elements of a few of these issues.
    maintaining safety and reliability of the u.s. nuclear stockpile
    The nuclear weapons stockpile has been the foundation of U.S. 
national security for more than 50 years. It will likely remain so for 
the indefinite future. Although the Cold War has ended, there are still 
enormous stores of nuclear weapons in Russia, a country whose political 
and economic future remains uncertain. At the same time, China is a 
significant nuclear power with national interests that will not always 
be compatible with our own. For these and other reasons, the President 
has said, `` * * * I consider the maintenance of a safe and reliable 
nuclear stockpile to be a supreme national interest of the United 
States.''
    The advent of a ban on nuclear testing was accompanied by the 
development of a plan to retain confidence in our nuclear stockpile for 
the indefinite future without nuclear testing. This plan relies on 
significant advances in scientific understanding and computer 
simulation of weapons performance to predict with confidence the state 
and character of our stockpile without testing. Its success depends 
critically on dramatic increases in computational performance and on 
dramatic increases in the resolution with which nonnuclear experiments 
can be measured.
    The core issues of this so-called Stockpile Stewardship Program are 
the investments in computers and codes for advances in numerical 
simulation, and the investments in new experimental facilities to 
develop the data upon which the simulations will rely.
    This year, the fiscal year 1998 appropriation for the Stockpile 
Stewardship Program was about 4.2 billion dollars, exceeding the 
Administration's request by about 200 million dollars. Subsequently, 
the Department of Energy, working with the Department of Defense and 
the National Weapons Laboratories, concluded that the stewardship 
program will require about 4.5 billion dollars per year for ten years, 
or 500 million dollars more per year than requested for fiscal year 
1998.
    The explanation for the differences between the original 
Administration request, the appropriation, and the subsequent 
determination of required funding is that the developers and executors 
of the stewardship plan are still learning about program requirements 
and their costs. This is a reasonable and believable explanation. 
Nevertheless, there is no guarantee that we have learned all we need to 
know to predict with confidence the exact content, schedule, and cost 
of the Stockpile Stewardship Program. In fact, it is more likely than 
not that we still have much to learn.
    One of the ``safeguards upon which the CTBT is conditioned mandates 
the stockpile stewardship program to ensure confidence in the safety 
and reliability of our nuclear stockpile.'' It is important that the 
Administration and the Congress recognize that the stewardship program 
is breaking new ground, ``going where none have gone before'', and we 
must be prepared and committed to providing the necessary resources for 
its success.
    The Senate deliberations on the CTBT will doubtless explore the 
level of uncertainty in the stockpile stewardship plan, and will 
attempt to determine the levels of commitment to program success on the 
part of both the Congress and the Administration.

                             TEST READINESS

    Another of the CTBT safeguards mandates the maintenance of the 
basic capability to resume nuclear testing should the United States 
withdraw from the treaty. Such withdrawal might be necessary if a 
nation ignores or violates the treaty, and, in so doing, disrupts the 
strategic balance in ways that might only be corrected through 
additions or replacements to our own stockpile.
    Another safeguard acknowledges that the President, in consultation 
with Congress, is prepared to withdraw from the treaty in deference to 
our supreme national interest in maintaining a safe and reliable 
stockpile. This option could be activated if the Stockpile Stewardship 
Program concluded that it was unable to certify high confidence in the 
safety or reliability of a nuclear weapon type that is determined to be 
critical to maintaining our nuclear deterrent. This safeguard is 
rendered impotent if we do not faithfully ensure our readiness to 
resume testing if and when necessary.
    I believe that a critical issue arises in test readiness. Should 
the United States identify a safety or reliability problem with a 
stockpile weapon type that prevents high confidence in the stockpile 
deterrent value, it could withdraw from the treaty under the ``supreme 
national interests'' clause. Withdrawal under these terms would permit 
the recovery of stockpile confidence by nuclear testing. Upon 
withdrawal, it might be concluded by another nation that the United 
States stockpile is ineffective. Therefore, during the period of time 
between treaty withdrawal and stockpile remedy through testing, an 
opponent might conclude that the United States is vulnerable to nuclear 
extortion or to nuclear attack. It is unacceptable to extend that 
window of real or perceived vulnerability by inadequately defining or 
funding a test readiness program.
    During the Senate consideration of the CTBT, I am going to 
stimulate the development of a plan for test readiness that will ensure 
the absolute minimum delay between a decision to resume testing, and 
the actual resumption of testing.

                        COMPLIANCE VERIFICATION

    It is self evident that verification of compliance with the CTBT is 
of paramount interest to all the signatory nations. Accordingly, a very 
comprehensive treaty verification effort has been mounted as a part of 
the treaty development. The International Monitoring System (IMS) 
addresses all the known local and remote signatures that would indicate 
that a nuclear explosion has occurred. A prototype data repository, 
called the International Data Center (IDC) has been developed to 
accumulate and integrate the data from the worldwide measurement sites 
of the IMS.
    Whereas the IMS and IDC will provide formidable capability to 
detect a nuclear explosion, the system is not infallible. Very low 
yield explosions can be conducted anywhere without assured detection, 
and some geographic locations are better than others for clandestine 
testing in violation of the treaty. At the same time, there are evasive 
measures that permit much higher yield explosions without assured 
detection by elements of the IMS. Finally, it is possible for a nation 
to conduct a clandestine operation leading to an unattended nuclear 
detonation that could not be attributed to the source nation. In this 
case, all would know that a treaty violation occurred, but none would 
know which nation was responsible.
    Whereas it is reasonable to assume that the strategic balance might 
not suffer from a single undetected test by one of the nuclear 
superpowers, such a test by an emerging nuclear capable state could 
provide that nation with confidence adequate to upset a local or 
regional balance of power.
    The inability to verify with confidence that signatory nations are 
complying with the terms of the treaty is a serious deficiency. Such 
compliance uncertainty might be considered a fatal flaw. This 
deficiency would certainly make the treaty unacceptable if undetectable 
violations could lead to a disruption of nuclear deterrence. Both of 
these concerns must be explored during the coming debates.

                           CONCLUDING REMARKS

    A Comprehensive Test Ban treaty would indeed be a watershed event 
deriving from the termination of the Cold War. Nevertheless, the CTBT 
does not provide all the things its proponents claim for it. It does 
assuredly prohibit all nuclear explosions for any purpose, but it does 
not appear to be conclusively verifiable under all conditions and for 
all prohibited activities.
    A CTBT will necessarily reduce our confidence in the safety and 
reliability of our nuclear deterrent, but the developing Stockpile 
Stewardship Program shows promise of maintaining adequately high 
confidence for the indefinite future.
    Nevertheless, the program is still developing, so its costs and 
risks are not known presently, and it is likely that their 
understanding will continue to evolve over the life of the program. 
This means that a dedicated Federal commitment will be necessary over 
the long haul if the program is to succeed.
    Maintaining readiness to resume testing is a central and compelling 
ingredient of implementing a CTBT. This readiness provides a hedge 
against stewardship failure and against a treaty breakout by another 
nation. The period between a decision to resume testing and actual test 
execution could be a period of real or perceived vulnerability, and is 
consequently a period of extreme danger. That window of real or 
perceived vulnerability needs to be made as small as possible.
    Implementation of a Comprehensive Test Ban Treaty would be a 
remarkable achievement that offers significant promise of strategic 
nuclear stability. It could be a critical milestone along the path of 
nuclear disarmament. But there are significant uncertainties in its 
consequences, in our ability to manage and respond to those 
consequences, and in the fidelity of assured compliance with the terms 
of the treaty. These uncertainties and their associated issues will be 
the subject of intense debate by the Senate as we move toward a policy 
decision that will define an appropriate balance between the treaty's 
costs, its risks, and its promised benefits.

                      STATEMENT OF BYRON L. DORGAN

    Senator Domenici. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I think this hearing is an 
excellent hearing. I appreciate your leadership and look 
forward to hearing our witnesses. I would simply say that I 
support the Comprehensive Test Ban Treaty. I would hope that we 
could see rather swift Senate ratification of that.
    I do have a Commerce Committee hearing at the same time, so 
I will have to be in and out. Thank you so much.

                       Statement of Federico Pena

    Senator Domenici. Thank you, Senator.
    Would you please proceed, Mr. Secretary. You know our time 
constraints and we know that you have a lot of things to do. 
Your remarks will be handled however you like. You have a 
written statement and it will be made a part of the record as 
if read. You may either give it or parcel it out, whichever you 
prefer.
    Secretary Pena. Thank you very much, Mr. Chairman. Let me 
also salute you and congratulate you for having the foresight 
to have such an early hearing on such a very important matter. 
I also want to thank the members of the subcommittee who are 
here this afternoon.
    Mr. Chairman, I do have a fuller set of remarks which I 
would like to formally submit for the record.
    Senator Domenici. They will be made part of the record.
    Secretary Pena. Let me, if I may, present some abbreviated 
remarks. I will try to follow the general guideline you gave in 
opening the hearing. But I believe there are some significant 
points that I do want to make and I would be very happy to try 
to answer whatever questions you may have.

                    STOCKPILE SAFETY AND RELIABILITY

    Mr. Chairman, since becoming the Secretary of Energy, I 
have made the safety and reliability of our Nation's nuclear 
stockpile a top priority. In my confirmation hearing, I stated 
that I could not imagine any responsibility more serious than 
certifying to the President on an annual basis that our nuclear 
stockpile was safe and reliable.
    Since my confirmation in March, I have visited each of the 
Department's three weapons laboratories and have personally 
engaged each of the weapons laboratory directors in discussions 
about the strength and adequacy of stockpile stewardship. I 
have also met with experts both within and outside of the 
Department and I am pleased to report: One, that there is 
strong consensus that stockpile stewardship is the right 
program to address the challenges of maintaining our nuclear 
deterrent without underground nuclear testing; two, that the 
program is properly sized and funded for the out-years; and, 
three, that with the President's six safeguards, we can enter 
into the Comprehensive Test Ban Treaty [CTBT] with confidence 
that the safety and reliability of our nuclear deterrent can be 
maintained.

                     ANNUAL STOCKPILE CERTIFICATION

    These recent months of analysis and interagency review have 
allowed us to complete the technical assessments that form the 
basis for our second annual certification that the stockpile 
remains safe and reliable and that there is no need to return 
to underground nuclear testing at this time.
    Secretary Cohen and I will soon make this certification to 
the President. As part of this process, I have personally 
spoken to each of the weapons laboratory directors and to the 
commander in chief of the Strategic Command to insure that they 
are confident in their assessment--and they are--of the safety 
and reliability of the stockpile.
    The quest to end underground nuclear testing and to 
legislate a CTBT began decades ago with Presidents Eisenhower 
and Kennedy. With the end of the cold war, we finally have an 
opportunity to achieve this bipartisan goal.
    The transmittal of the treaty by President Clinton to the 
Senate for its advice and consent to ratification last month 
represents the culmination of many years of effort on the part 
of the U.S. Government agencies, the national laboratories, and 
the Congress.
    There continues to be overwhelming public support for such 
a treaty, and for good reason. This treaty provides a 
significant benefit to our national security. It will 
contribute to the prevention of nuclear proliferation and the 
process of further nuclear disarmament.
    Even with these contributions, we recognize that the global 
community continues to face difficult security challenges. To 
meet the challenges, a credible nuclear deterrent, the 
foundation of our U.S. national security, must be maintained.
    As the President has stated, the United States must and 
will retain strategic nuclear forces sufficient to deter any 
future hostile foreign leadership with access to strategic 
nuclear forces from acting against our vital interests.
    In this regard, the President said, ``I consider the 
maintenance of a safe and reliable nuclear stockpile to be a 
supreme national interest of the United States.''
    Mr. Chairman, it has been more than 5 years since our last 
underground test and, as the Secretary of Defense and I will 
soon certify to the President, the stockpile is both safe and 
reliable today. Our job now is to continue to maintain the 
safety and reliability of the deterrent under a CTBT. Why do we 
think we can meet this challenge and what are we doing to 
manage the risks?

                           TREATY SAFEGUARDS

    In August 1995, when the President first announced that the 
United States would pursue a zero-yield CTBT, he declared that 
U.S. adherence would be predicated upon six safeguards. I am 
here because the Department of Energy plays a vital role in 
each of those six safeguards.
    Let me briefly highlight those for you.
    Safeguard A requires the conduct of a Science-Based 
Stockpile Stewardship Program. President Clinton directed the 
Department of Energy to develop stockpile stewardship more than 
4 years ago, and he has repeatedly asked for the sustained 
bipartisan support of Congress for this program. We have made 
enormous strides in this program over the last several years.
    I have visited our laboratories to see first hand the 
progress of the Stockpile Stewardship Program. I am pleased to 
report that it is working. We are successfully addressing 
several stockpile warhead issues by using a combination of 
analysis, new experimental data, archived test and 
manufacturing data, and, most importantly, the collective 
judgment of our weapon design laboratories. These successes, 
using the experimental and testing tools available today, 
provide confidence that the even more powerful computing and 
testing tools being developed now will allow us to solve future 
stockpile problems without nuclear testing.
    Safeguard B requires the maintenance of modern nuclear 
laboratory facilities and programs in theoretical and 
exploratory nuclear technology. A number of activities being 
conducted as part of the Stockpile Stewardship Program are 
designed to help us carry out our responsibilities under this 
safeguard.
    For example, in May, I participated in the groundbreaking 
ceremony for the national ignition facility at Lawrence 
Livermore National Laboratory. The NIF is designed to produce, 
for the first time in a laboratory setting, conditions of 
temperature and density of matter close to those that occur in 
the detonation of nuclear weapons. The ability to study the 
behavior of matter and energy under these conditions is key to 
understanding the basic physics of nuclear weapons and 
predicting their performance without underground nuclear 
testing.
    Another central component of our program is the accelerated 
strategic computing initiative, called ASCI. It provides the 
leading-edge, high-end simulation capabilities needed to meet 
weapon assessment and certification requirements without 
nuclear testing. I believe that with the sustained, bipartisan 
support of the administration and this Congress, the new 
experimental facilities and programs will expand and enhance 
the scientific and engineering base for stockpile stewardship. 
In addition, they will assure that we can continue to attract 
and retain the high quality personnel needed to make the sound 
scientific and technical judgments on the safety and 
reliability of the stockpile in the absence of underground 
nuclear testing.
    Safeguard C requires the maintenance of a basic capability 
to resume underground testing. We are meeting this requirement 
through a number of important activities at the Nevada test 
site, including the conduct of subcritical experiments. I have 
visited the Nevada test site. I want to thank Senator Reid for 
his hospitality in helping me through that visit in August 
because it has been over a decade since a Secretary of Energy 
last visited the Nevada test site.
    While I was there, I spoke to the scientists who are 
responsible for the successful completion of our two 
subcritical experiments. These experiments, a key element of 
stockpile stewardship, will help us improve our basic knowledge 
of the properties of plutonium.
    In addition, consistent with this safeguard, we are 
maintaining the capability at the test site to resume nuclear 
testing if directed by the President.
    The President's inclusion of safeguards D and E recognizes 
the importance of continuing research and development in 
monitoring and verification to the success of the treaty. The 
Department of Energy CTBT research program is further 
developing the necessary core monitoring technologies to 
increase confidence in verifiability. The research program 
addresses all of the CTBT international monitoring system 
technology areas as well as technologies for on-site inspection 
and confidence building measures.
    Safeguard F, the supreme national interest clause, 
specifies that if the President is informed by the Secretaries 
of Energy and Defense, advised by the Nuclear Weapons Council, 
the directors of the weapons laboratories, and the commander of 
the Strategic Command, that a high level of confidence in the 
safety or reliability of a weapon type critical to the nuclear 
deterrent could no longer be certified, the President, in 
consultation with the Congress, would be prepared to withdraw 
from the Comprehensive Test Ban Treaty in order to conduct 
whatever nuclear testing might be required.
    To determine the overall safety and reliability of the 
stockpile, the President directed the establishment of a 
rigorous annual certification process. As I noted, we expect to 
complete the second of these annual certifications very soon.
    Senator Domenici. Mr. Secretary, I am going to take a 
telephone call. You can proceed.
    Senator Reid, would you chair while I am gone. I will be 
back shortly. It won't take me but 2 minutes.
    Secretary Pena. Thank you, Mr. Chairman.

                     ANNUAL STOCKPILE CERTIFICATION

    Mr. Chairman and members of the subcommittee, I was going 
to refer to a chart that I have here before us. But given the 
nature of the time for this hearing, perhaps I will not go 
through it in detail.
    The purpose for presenting this chart to you--and I believe 
you have copies before you--is to give you a sense of the 
thoroughness and the reaffirmation of the process that we use 
in order to allow both the Secretary of Defense and the 
Secretary of Energy to certify to the President that, in fact, 
our weapons are safe and reliable.

[GRAPHIC] [TIFF OMITTED] TTREATY.000

    Let me just give you a quick summary to give you a sense of 
how we are able to make this certification with confidence.
    We start at the top, with the Nuclear Weapons Council, 
which initiates the process. If you look at the chart, you will 
see that on the left-hand side we have DOD making all of its 
military inputs. The services task the project officers group 
and they give their input in terms of concerns they may have.
    On the Department of Energy side, we have our laboratory 
directors who also input their advice.
    The importance of the working group is that they make an 
assessment for each class of weapon and develop a report for 
each class of weapon. I have been shown these reports. They 
then go through DOE, the Joint Chiefs of Staff, the Office of 
the Secretary of Defense, and STRATCOM for review. From there 
they go to the Standing and Safety Committee of the Nuclear 
Weapons Council, then to the Nuclear Weapons Council, and then 
to me and to the Secretary of Defense upon which we decide 
whether we want to make the certification to the President.
    The point that I want to make here is that, while we do 
this collaboratively between the Department of Defense and the 
Department of Energy, we also have independent reviews. For 
example, the commander in chief of the Strategic Command, 
General Habiger, has his own advisory group, former laboratory 
directors, and others who advise him in reviewing the strategic 
advisory group report.
    Similarly, on the right side of the chart, in terms of DOE, 
I also get independent letters from each of the laboratory 
directors giving me their best judgment about the safety and 
reliability of the stockpile. Based on these independent 
reviews, the Secretary of Defense and the Secretary of Energy 
then jointly send a letter to the President indicating our 
confidence in the reliability and safety of the stockpile.
    I wanted to review that for you to give you a sense of the 
thoroughness and the way in which we proceed. It is simply not 
a ratification of what others have suggested.

                            CLOSING REMARKS

    In conclusion, Mr. Chairman, let me state that the 
President has made the Comprehensive Test Ban Treaty one of his 
highest national security priorities, and the President is 
committed to working with the Congress on stockpile 
stewardship. The administration's continuing support for 
stockpile stewardship underscores that our nuclear forces will 
continue to serve as a deterrent against aggression and 
coercion, a hedge against an uncertain future, a guarantee of 
our security commitments to our allies, and a discouragement to 
those who would contemplate developing or otherwise acquiring 
their own nuclear weapons.
    When the President made the United States the first 
signatory of the Comprehensive Test Ban Treaty at the U.N. 
General Assembly last year, he demonstrated that the United 
States is committed to being a leader in this area. He signed 
the treaty with the very same pen that President Kennedy used 
because he thought it was important to show that we were 
passing the torch.
    We are passing that very same torch with a new generation 
of engineers who will be working with our current engineers and 
scientists who will prepare themselves for the future. It is 
because we believe that this treaty is fundamentally in the 
national security interest of the United States that we also 
ask for your support.
    Millions of Americans, perhaps more than ever before, long 
for the peace of mind that comes with knowing that our world is 
safe from either accidental or intentional nuclear disaster. By 
constraining nuclear and nonnuclear weapons States from 
developing more advanced weapon types, the treaty serves our 
nonproliferation and disarmament goals and moves us all closer 
to achieving this peace of mind.
    Mr. Chairman, thank you very much for allowing me to make 
my opening statement. I am very pleased now to respond to any 
questions from you or Senator Reid.
    [The statement follows:]

             Prepared Statement of Secretary Federico Pena

    Good afternoon Mr. Chairman and members of the Subcommittee. It is 
a pleasure to appear before you this afternoon to discuss the 
Comprehensive Test Ban Treaty (CTBT) and how the Department of Energy's 
Stockpile Stewardship program allows us to maintain the safety and 
reliability of our nation's nuclear stockpile.
    Since becoming the Secretary of Energy, I have made the safety and 
reliability of our nation's nuclear stockpile a top priority. In my 
confirmation hearing, I stated that I cannot imagine any responsibility 
more serious than certifying to the President on an annual basis 
whether or not our nuclear stockpile is both safe and reliable.
    Since my confirmation in March, I have visited each of the 
Department's three weapons laboratories, and have personally engaged 
each of the weapons laboratory directors in discussions about the 
strength and adequacy of Stockpile Stewardship. I have also met with 
other experts both within and outside of the Department, and I am 
pleased to report that there is a strong consensus that Stockpile 
Stewardship is the right program to address the challenges of 
maintaining our nuclear deterrent without underground nuclear testing; 
that the program is properly sized and funded for the outyears; and 
that, with the President's six safeguards, we can enter into the 
Comprehensive Test Ban Treaty with confidence that the safety and 
reliability of our nuclear deterrent can be maintained.
    These recent months of analysis and interagency review have also 
allowed us to complete the technical assessments that form the basis 
for our second annual certification that the stockpile remains safe and 
reliable. I expect that Secretary Cohen and I will soon certify to the 
President that the stockpile is safe and reliable and that there is no 
need to resume underground nuclear testing at this time. As part of 
this certification process, I have spoken to each of the weapons 
laboratory directors, and to the Commander-in-Chief of Strategic 
Command to ensure that they are confident in their assessment--and they 
are--of the safety and reliability of the stockpile.
    The quest to end all nuclear weapons test explosions began decades 
ago with Presidents Eisenhower and Kennedy. With the end of the Cold 
War, we finally have the opportunity to achieve this bipartisan goal.
    The transmittal of the Treaty by President Clinton to the Senate 
for its advice and consent to ratification last month represents the 
culmination of many years of effort on the part of United States 
government agencies, the National Laboratories, and the Congress. There 
continues to be overwhelming public support for such a treaty, and for 
good reason. This treaty provides a significant benefit to the national 
security of the United States. It will contribute to the prevention of 
nuclear proliferation and the process of further nuclear disarmament.
    We recognize that the global community continues to face difficult 
security challenges. To meet the challenges, a credible nuclear 
deterrent--the foundation of U.S. national security--must be 
maintained. As the President has stated, ``the United States must and 
will retain strategic nuclear forces sufficient to deter any future 
hostile foreign leadership with access to strategic nuclear forces from 
acting against our vital interests * * * in this regard * * * I 
consider the maintenance of a safe and reliable nuclear stockpile to be 
a supreme national interest of the United States.''
    It has been more than five years since our last underground test 
and, as Secretary Cohen and I will soon certify to the President, the 
stockpile is both safe and reliable today. Our job now is to continue 
to maintain the safety and reliability of the deterrent under a CTBT. 
Why do we think we can meet this challenge, and what are we doing to 
manage the risks?
    In August of 1995, when President Clinton first announced that the 
United States would pursue a zero-yield CTBT, he declared that U.S. 
adherence to a CTBT would be predicated upon six safeguards:
    (A) The conduct of a Science-Based Stockpile Stewardship program--
for which there must be sustained bipartisan support from Congress--to 
ensure a high level of confidence in the safety and reliability of our 
nuclear weapons stockpile;
    (B) The maintenance of modern nuclear laboratory facilities and 
programs in theoretical and exploratory nuclear technology;
    (C) The maintenance of a basic capability to resume nuclear test 
activities prohibited by the CTBT should the United States cease to be 
bound to adhere to the Treaty;
    (D) A continued comprehensive research and development program for 
treaty verification and monitoring operations;
    (E) The continued development of a broad range of intelligence 
gathering and analytical capabilities; and
    (F) The understanding that if the President is informed by the 
Secretaries of Defense and Energy as advised by the Nuclear Weapons 
Council, the Directors of the nuclear weapons laboratories, and 
Commander of U.S. Strategic Command that a high level of confidence in 
the safety and reliability of a nuclear weapon type which the two 
secretaries consider critical to our nuclear deterrent could no longer 
be certified, the President, in consultation with the Congress, would 
be prepared to withdraw from CTBT under the supreme national interest 
clause.
    I am here today because the Department of Energy plays a vital role 
in each of these six safeguards. And I am here because I consider the 
stewardship of our nation's nuclear stockpile to be my highest 
responsibility. I have emphasized the significance of this 
responsibility with each of the directors of our nuclear weapons 
laboratories and I will continue to stress the Department's 
responsibility to uphold the six safeguards that the President 
outlined. I would now like to briefly highlight our role in each of 
these six safeguards.

                              SAFEGUARD A

    Safeguard A requires the conduct of a Science-Based Stockpile 
Stewardship program. President Clinton directed the Department of 
Energy to develop this program more than four years ago. We have made 
enormous strides in this program over the last several years. The 
program has been designed to combine laboratory experimentation with 
advanced computations in lieu of underground nuclear testing to ensure 
high confidence in the safety and reliability of the stockpile.
    I have visited our three nuclear weapons laboratories to see 
firsthand the progress of the Stockpile Stewardship program. I am 
pleased to report that Stockpile Stewardship is working. We are 
successfully addressing several stockpile warhead issues by using a 
combination of analysis, new experimental data, archived test and 
manufacturing data, and most importantly, the collective judgment of 
our weapon design laboratories. These successes, using the experimental 
and testing tools available today, provides confidence that those even 
more powerful computing and testing tools being developed now will 
allow us to solve future stockpile problems without nuclear testing.
    Our stewardship program is also designed so that the day-to-day 
needs of the stockpile are met in a cost efficient and environmentally 
responsible manner. The production plants at Savannah River, Pantex, 
Kansas City, and Oak Ridge are producing critical limited life 
components, like tritium reservoirs, and making the necessary repairs 
to support the enduring nuclear weapons stockpile.

                              SAFEGUARD B

    Safeguard B requires the maintenance of modern nuclear laboratory 
facilities and programs in theoretical and exploratory nuclear 
technology. A number of activities being conducted as part of the 
Stockpile Stewardship program are designed to help us carry out our 
responsibilities under this safeguard. In May, I participated in the 
groundbreaking ceremony for the National Ignition Facility at Lawrence 
Livermore National Laboratory. NIF is designed to produce, for the 
first time in a laboratory setting, conditions of temperature and 
density of matter close to those that occur in the detonation of 
nuclear weapons. The ability to study the behavior of matter and energy 
under these conditions is key to understanding the basic physics of 
nuclear weapons and predicting their performance without underground 
nuclear testing.
    Another central component of our program is the Accelerated 
Strategic Computing Initiative. ASCI provides the leading-edge, high-
end simulation capabilities needed to meet weapon assessment and 
certification requirements without nuclear testing. The national 
laboratories are focused on providing the application codes and related 
science needed to address weapon safety, reliability, and performance. 
They are also developing improved tools and methodologies to utilize 
this unprecedented volume of data.
    Even at this early stage in their development, advanced ASCI codes 
are providing unprecedented capabilities to our weapons program. For 
example, we have reduced the time it takes to complete one simulation 
from 74 days to 7 hours. We are not only doing the same things faster, 
we are performing calculations and simulations that we once only 
imagined possible.
    I believe that with the sustained, bipartisan support of the 
Administration and the Congress, the new experimental facilities and 
programs will expand and enhance the scientific and engineering base 
for Stockpile Stewardship, and assure that we can continue to attract 
and retain the high quality personnel needed to make the sound 
scientific and technical judgments on the safety and reliability of the 
stockpile in the absence of underground nuclear testing.

                              SAFEGUARD C

    Safeguard C requires the maintenance of a basic capability to 
resume underground testing. We are meeting this requirement through a 
number of important activities at the Nevada Test Site, including the 
conduct of subcritical experiments. I visited the Nevada Test Site in 
August and spoke to the scientists responsible for the successful 
completion of our subcritical experiments. These experiments--a key 
element of Stockpile Stewardship--will help us improve our basic 
knowledge of the properties of plutonium. In addition, consistent with 
this safeguard, we are maintaining the capability at the Test Site to 
resume nuclear testing, if directed by the President.
    My visit in August is the first that a Secretary of Energy has made 
to the Test Site in more than a decade. I was impressed by the 
dedication and the talent of the scientists and engineers who are 
responsible for conducting the subcritical experiments.

                           SAFEGUARDS D AND E

    The President's inclusion of Safeguards D and E recognizes the 
importance of continuing research and development in monitoring and 
verification to the success of the Treaty. The Department of Energy's 
CTBT research program is further developing the necessary core 
monitoring technologies to increase confidence in verifiability. The 
research program addresses all of the CTBT International Monitoring 
System (IMS) technology areas--seismic, infrasound, radionuclide, and 
hydroacoustic--as well as technologies for on-site inspection and 
confidence building measures. For example, to provide for CTBT 
radionuclide regional monitoring, we have developed an automated ultra-
sensitive near real-time radionuclide detection and analysis system. 
These technologies meet IMS specifications, and are available 
commercially.
    In addition, Department of Energy research programs are helping to 
improve U.S. National Technical Means related to CTBT monitoring. For 
example, the Department is also conducting research and development for 
satellite-based detection systems.

                              SAFEGUARD F

    Safeguard F specifies that if the President is informed by the 
Secretaries of Energy and Defense, advised by the Nuclear Weapons 
Council, the directors of the weapons laboratories, and the Commander-
in-Chief of Strategic Command that a high-level of confidence in the 
safety or reliability of a weapon type critical to the nuclear 
deterrent could no longer be certified, the President, in consultation 
with the Congress, would be prepared to withdraw from the CTBT under 
the Supreme National Interest Clause in order to conduct whatever 
nuclear testing might be required.
    To determine the overall safety and reliability of the stockpile, 
the President directed the establishment of a rigorous, annual 
certification process. As I noted, we expect to complete the second of 
these annual certifications soon. I would like to take a moment to 
explain how this process works. As you can see, it is a comprehensive 
and thorough procedure.
    The certification process requires that the weapons design 
laboratories and the Department of Defense review all weapons types--
both active and inactive. From this review, the laboratory directors, 
the Nuclear Weapons Council, and the Commander-in-Chief of Strategic 
Command each independently advise the Secretaries of Energy and Defense 
on the results. Based upon these results, we determine whether or not 
to certify to the President that there is no need to return to 
underground nuclear testing.
    The rigor and thoroughness of this procedure ensures that, from the 
level of the technicians working with the weapons on a day-to-day 
basis, to the designers who know the inner workings of the weapons, to 
Secretary Cohen and myself, every level of authority is appropriately 
informed of and accountable for the safety and reliability of the 
weapons stockpile.
    And let me stress that if I am advised by the nuclear weapons 
laboratory directors that there is a problem with the stockpile that is 
critical to our nuclear deterrent and that we are unable to correct 
without returning to underground nuclear testing, I will not hesitate 
to advise the President of such.

                               CONCLUSION

    President Clinton has made the CTBT one of his highest national 
security priorities and is committed to working with the Congress on 
the Stockpile Stewardship program. At the same time, the 
Administration's continuing support for Stockpile Stewardship 
underscores that our nuclear forces will continue to serve as a 
deterrent against aggression and coercion, a hedge against an uncertain 
future, a guarantee of our security commitment to allies, and a 
discouragement to those who would contemplate developing or otherwise 
acquiring their own nuclear weapons.
    When President Clinton made the United States the first signatory 
of the Comprehensive Test Ban Treaty at the United Nations General 
Assembly last year, he demonstrated that the United States is committed 
to being the leader in this arena. He signed the Treaty with the very 
same pen that President Kennedy used to bring the Limited Test Ban 
Treaty to life. A symbolic gesture, but a meaningful one. The gesture 
symbolized the passing of a torch from one generation to the next.
    At our weapons laboratories right now, the torch is being passed. A 
generation of scientists and engineers who created the awesome power 
behind the mushroom cloud are passing the torch to a generation of 
scientists and engineers, who may never know its shadow. To this new 
generation of scientists and engineers, the CTBT, and the stewardship 
program that underpins it, is our commitment to the national security 
that they work so very hard every day to protect.
    It is because we believe that this Treaty is fundamentally in the 
national security interest of the United States that we ask your 
support. Millions of Americans, perhaps more than ever before, long for 
the peace of mind that comes with knowing that our world is safe from 
either accidental or intentional nuclear disaster. By constraining not 
only nuclear weapons development by non-nuclear weapons states, but 
also the development of more advanced weapon types by nuclear weapon 
states, the Treaty serves our nonproliferation and disarmament goals, 
and moves us closer to achieving this peace of mind.

                          Annual certification

    Senator Domenici. Senator Reid, do you have any questions?
    Senator Reid. Yes, thank you.
    Mr. Secretary, with the certification process there is no 
congressional involvement other than appropriating the 
necessary money. Is that true?
    Secretary Pena. That's correct, Senator.
    Senator Reid. How much time is there from beginning to end 
of the certification process?
    Secretary Pena. The first certification--and I must speak 
from what I have been informed since it was conducted by my 
predecessor, then Acting Secretary Curtis--took at least 1 
year. It was the first time that the annual certification had 
occurred. In fact, it took a little over 1 year.
    Since that time, we have made very significant progress in 
doing the second certification. And, in fact, as respects the 
process of the second certification, the Nuclear Weapons 
Council has already acted on the information provided to it. It 
has now been transmitted to both myself and the Secretary of 
Defense and we hope very soon to make the final judgment about 
the second annual certification.

               FUNDING FOR STOCKPILE STEWARDSHIP PROGRAM

    Senator Reid. It is my understanding that the 
administration believes the stockpile can be maintained without 
testing as we have known it for about $4.5 billion a year for 
the next 10 years. So that is $4.5 billion times 10.
    Is that something that you agree with?
    Secretary Pena. I do, Senator. If I could just amplify that 
a bit, as you know, when the Stockpile Stewardship Program was 
first designed, it was contemplated that about $4 billion per 
year would be needed.
    We have observed in the last several years of the program 
that additional needs were presented to the team responsible 
for the Stockpile Stewardship Program and also that some 
additional issues had been funded in previous years--for 
example, emergency preparedness--which were not directly 
related to stockpile stewardship.
    For those and other reasons, we have now agreed that for 
fiscal year 1999 we will formally submit to the Congress an 
amount of $4.5 billion for stockpile stewardship. It will then 
serve as the baseline for the out-years. And we will formally 
submit that early next year as part of our formal budget 
presentation to the Congress.
    Senator Reid. As I think you have indicated and I want to 
make sure this is right, the $4.5 billion does cover all the 
known requirements for maintaining a safe and reliable 
stockpile, is that right?
    Secretary Pena. That's correct, Senator.
    Senator Reid. Also, your certifying is dependent on 
information you get from our laboratories and other such 
information, is that not true?
    Secretary Pena. From a number of sources, that's correct: 
Our laboratories, the Nuclear Weapons Council, the STRATCOM, 
and then whatever questions and information I gather when I 
visit the labs, when I visit the test site, and other forms of 
information.
    Senator Reid. There is no fat in this $4.5 billion, then? 
This is what the administration is determined is the amount of 
money needed to certify safety and reliability for the 
stockpile?
    Secretary Pena. That's correct, Senator. This is a very 
precise budget. We have spent many, many hours, not only with 
our laboratory directors but with obviously the DOE team, with 
the Department of Defense, with OMB and others to arrive at the 
$4.5 billion amount.
    Senator Reid. The last question I would ask orally is this, 
and I would ask permission to submit some other questions in 
writing. We, as appropriators, need to get $4.5 billion for you 
to certify safety and reliability of this arsenal. This is not 
a number that you have given us that has fat in it so that we 
can come back with $4.1 billion and you will be able to do your 
job. So, it is $4.5 billion to do your job, then, and nothing 
less. Is that true?
    Secretary Pena. That's correct, Senator.
    Senator Reid. Thank you, Mr. Chairman.

              IMPORTANCE OF STOCKPILE STEWARDSHIP PROGRAM

    Senator Domenici. Thank you very much, Senator.
    Mr. Secretary and other members of the administration who 
are here as proponents of the treaty, I assume you know all of 
this. But I just wanted to make sure that I told you this.
    If you want to hear at least one serious, lengthy 
discussion against the treaty, you all ought to get the 
testimony of Dr. Jim Schlesinger who testified before the 
Committee on Governmental Affairs, which has jurisdiction over 
much of this on the authorizing side.
    Incidentally, an interesting observation was made by Dr. 
Schlesinger for some of you who are more technical than I and 
perhaps more technical than the Secretary. He said, ``Don't 
misunderstand me. Even if we were permitted to do nuclear 
testing, if you asked me for my recommendation, I would also 
say you ought to also have stockpile stewardship anyway.''
    So it is interesting, his observation of what this program 
will do.
    My second observation, Mr. Secretary--and these are among 
the early hearings, so I think we ought to put some of these 
issues out--is clearly Dr. Schlesinger's arguments and the 
arguments that many will make on the same side do not concern 
themselves with the next 4 years or even the next 10 years. 
They are talking about 15, 20, and 25 years out.
    I am not so sure that I want to say it is that far out. 
But, nonetheless, the point of it is, the concern is that we 
are locked into the treaty in perpetuity short of our pulling 
ourselves out. I guess from the standpoint of some experts, the 
fact that you could maintain a valid stockpile without testing 
at some time is an issue that will find itself in these 
discussions on this treaty without any question.
    I want to just ask about two issues.

                CTBT TREATY OBLIGATIONS AND PROHIBITION

    I understand that the treaty obligations only prohibit the 
conducting of nuclear explosions. I do not believe that the 
CTBT is a nuclear disarmament treaty.
    I believe you said that. But would you agree with that?
    Secretary Pena. Senator, if I understand the nature of the 
question, you are correct. What is prohibited is nuclear 
explosions either for military purposes or peaceful purposes. 
However, there are other forms of energy releases which are 
permitted under the CTBT and there is a history in the 
negotiations which allow certain things. For example, the 
national ignition facility [NIF] is accepted as being 
consistent with the Comprehensive Test Ban Treaty.
    Senator Domenici. I am going to get to another question in 
1 minute. But I was making an observation that the treaty only 
prohibits the conduct of nuclear explosions. I believe that it 
is not a nuclear disarmament treaty. Is that correct?
    Secretary Pena. That is correct, Senator. I misunderstood 
your question.
    Senator Domenici. I think the President, I note in sending 
this treaty up, was very clear. There are a lot of ways this 
treaty has been expressed, even by the President in various 
speeches, which we have noted. But when he sent it up, he said 
that the language does not imply that the treaty prohibits the 
development of new types of nuclear weapons or the improvement 
of existing weapons. It does recognize that the treaty will 
have the effect of constraining in some way such activities.

                  NEW OR MODIFIED WEAPON DESIGN NEEDS

    Now I want to ask you this question. Does the treaty take 
away the rights of any country, including ours, to build or 
design new nuclear weapons or to modify existing nuclear 
weapons?
    Secretary Pena. No, sir.
    Senator Domenici. Would the treaty, if it were ratified, 
have any relevance to the recent decision to modify the B-61 
bomb to have an earth penetrating capability?
    Secretary Pena. We believe it does not, Senator.
    Senator Domenici. The effectiveness of this treaty in 
constraining the development of nuclear weapons by rogue States 
is a discussion piece. Many are talking about what is the 
impact on the potential of rogue States having nuclear bombs.
    Now from what I understand, the United States did not need 
a test for one of the designs used in World War II, and the 
earliest U.S. weapons were designed with computer tools far 
less sophisticated than any modern personal computer of today.
    Now I am not a historian, but I am told that is the case. 
Perhaps Dr. Smith can confirm that when he takes the witness 
stand.

                    PROLIFERATION OF NUCLEAR WEAPONS

    In the Governmental Affairs hearing on Monday, both 
Secretary Schlesinger and Dr. Barker questioned whether the 
CTBT would limit actions of rogue States, like Iraq, Iran, 
Libya, or North Korea, to develop their own weapons or to use 
testing that suited their purposes.
    Now what assurances do we have that the existence of this 
new treaty will constrain development of nuclear capabilities 
by a rogue nation and, thus, effectively curb proliferation of 
nuclear weapons?
    Secretary Pena. Senator, that is a very good question. By 
the way, let me say that I have had two conversations with Dr. 
Schlesinger about these matters. So we have, I think, had a 
very constructive discussion about it.
    We strongly believe that the Comprehensive Test Ban Treaty, 
in the way that it has verifiability provisions, in the way 
that it puts forth a rather extensive monitoring system 
throughout the globe, in the way in which it allows information 
to be presented to the Executive Council by which a country 
which allegedly has conducted a test inconsistent with the 
treaty, effectively allows us to deter nations from conducting 
the types of tests that are necessary to develop sophisticated 
nuclear weapons.
    I believe that the experts who will talk to you in a 
classified setting will perhaps share that there may be some 
very basic types of weapons that may not need the kind of 
testing that we are concerned about. But for very sophisticated 
weapons, we believe no country can develop those unless they 
have the ability to do underground testing.
    Because this treaty, if ratified and in effect by the 
nations of the world, would prohibit those kinds of tests, we 
believe that effectively it prevents and deters and certainly 
discourages other countries from even beginning to consider the 
kind of testing necessary for the development of very 
sophisticated nuclear weapons. In that sense, it is a very 
effective deterrent to the proliferation of nuclear weapons 
throughout the world.
    Senator Domenici. I believe, Senator Reid, you asked 
whether or not there was anything that the Congress had to do 
other than to ratify this treaty as it pertains to this treaty.
    Senator Reid. And appropriate the money.
    Senator Domenici. And appropriate the money, yes. I might 
say, obviously, the Senator is correct and the response that 
you gave is correct.

                   ENABLING LEGISLATION FOR THE CTBT

    But it does seem that in order to make sure that this 
treaty is supported, we may have to get enabling legislation 
passed that creates some assurances with reference to how we 
are going to conduct ourselves with reference to supporting 
what this treaty needs. I assume you are looking at some 
possible enabling legislation and you will be open to 
discussing that with various committees?
    Secretary Pena. That's correct, Mr. Chairman. There are a 
number of enabling pieces of legislation which would be, I 
think, appropriate for final passage.
    But if I might, I believe the question that Senator Reid 
asked me was particularly about this process. He asked, as I 
walked through this chart, if the Congress was particularly 
involved in this process [indicating], and I answered no as 
respect to this process.
    But, obviously, the Congress is involved in many other 
ways.
    Senator Domenici. I was out of the room and returned in the 
middle of that discussion. I apologize for my 
misinterpretation. But I think essentially we understand each 
other.
    Before I move on to some other witnesses, I want to make a 
couple of comments to you.

                        RESPONSIBILITIES OF DOE

    Mr. Secretary, when you were assigned, designated by the 
President to be the Secretary of Energy, we had some rather 
lengthy meetings. I believe my best advice was that the success 
of the Department of Energy for any prolonged period of time 
here in the Congress would probably rely almost exclusively on 
how you conducted yourself with reference to that part of the 
Department of Energy that has to do with maintaining the 
nuclear arsenal.
    I believe I suggested to you that the most questionable 
aspects about the Department of Energy among many Senators was 
whether or not it would appropriately handle, year by year, the 
requirements of maintaining this nuclear arsenal.
    I was very pleased that you listened attentively and that 
on a couple of occasions thereafter you concurred. I want to 
compliment you.
    This is not to say that you don't have many other powerful 
functions in the Department. I think when you have one of the 
powerful hands with reference to nuclear bombs and nuclear 
weapons maintenance, I assume you end up thinking it is a very 
important part of your mission.
    I do want to compliment you on how much time you have 
designated to it and how diligently you have gone about 
learning the job and, equally as important thus far, the kind 
of people you are surrounding yourself with. I think we talked 
about that, too.
    We cannot have people with three or four missions in life 
talking about maintaining the stockpile. They have to be 
preoccupied with and worried about it and it has to be very 
predominant in their thinking.
    While we have not been able to approve all of your 
designees, I think we are going to. We have six of them waiting 
up here.
    Secretary Pena. Last night, Senator, five were approved.
    Senator Domenici. And I think the sixth is going to be 
approved now.
    So thank you very much. You don't have to stay around for 
the rest of the hearing. I know that you have much to do.
    We are going to proceed with the next panel.
    Secretary Pena. Thank you very much, Mr. Chairman.
    Thank you, Senator Reid.
    Senator Domenici. Thank you.
    Senator Reid. Thank you, Mr. Secretary.



                         DEPARTMENT OF DEFENSE

STATEMENT OF FRANKLIN C. MILLER, ACTING ASSISTANT 
            SECRETARY OF DEFENSE FOR INTERNATIONAL 
            SECURITY POLICY

    Senator Domenici. Our next panel is made up of Vic Reis, 
Dr. Smith, and Mr. Miller. Whether it is the Defense Department 
supporting the DOE nuclear programs or the DOE supporting 
Defense, in any event, you are all friends today.
    Dr. Reis. Yes; we are all friends today--and it is really 
more than just today, sir.
    Senator Domenici. We will begin the second panel now. We 
will have questions about two issues that are going to require 
some closed sessions which we will do afterwards. We will just 
ask you to go with us to the closed session room. It won't take 
us very long.
    We are going to start now with Mr. Miller. Dr. Smith, you 
should go second. Dr. Reis, if you don't mind, you will go 
third.
    First, I want Mr. Miller to review the current U.S. nuclear 
weapons requirements. Then I want you to explain how those 
might change, what our stockpile will be if Russia ratifies 
START II, whether the tritium reserve requirements might change 
and the status of dealerting proposals, and consideration of 
changes in the makeup of the TRIAD.
    I think you are aware of that. Then, when I get to Dr. 
Smith, I will tell you what I am hopeful you will present to 
us.
    Mr. Miller.

                    STATEMENT OF FRANKLIN C. MILLER

    Mr. Miller. Thank you, Senator Domenici, Senator Reid.
    I am honored to have this opportunity to appear before you 
to discuss the confidence in the safety and reliability of our 
stockpile without nuclear explosive tests.
    With your permission, Mr. Chairman, I will begin with a 
brief historical perspective.
    Since the end of the Second World War, U.S. nuclear weapons 
have deterred major aggression threatening the United States 
and our allies. It was that deterrent against the backdrop of 
the cold war which broke the historic and periodic pattern of 
total conventional war. It is a remarkable fact that, for 
almost one-half century, the United States and its allies faced 
the U.S.S.R. and its coerced auxiliaries armed to the greatest 
extent which huge sacrifice would afford and yet did not fight 
a large-scale war.
    We successfully persevered long enough to allow Soviet 
communism to collapse of its own internal weaknesses.
    Some had argued that the danger of nuclear weapons was so 
great that the risk of possessing them outweighed the benefits. 
But I don't think we agree. Nuclear deterrence helped buy us 
time, time for democracy and diplomacy to contain communism, 
time for the internal forces of upheaval and decay to rend the 
Soviet Union and the Warsaw Pact and bring about the end of the 
cold war. I don't think anybody doubts that our nuclear 
deterrent played an important role in all of this.
    But the cold war is now over and the U.S. nuclear posture 
reflects this. I think history will make clear that that 
posture and our policy anticipated this historic development.
    Nuclear deterrence requirements and the plans designed to 
implement them are the result of an intense, collaborative 
process between the Office of the Secretary of Defense, the 
joint staff, and the U.S. Strategic Command.
    Working from broad national guidance, my staff, the joint 
staff, and the Strategic Command staff develop the targeting 
requirements which underpin U.S. nuclear deterrence policy. The 
type of delivery vehicles and the type of warheads carried by 
those delivery vehicles are derived directly from those 
targeting requirements.
    The Navy and the Air Force then assume primary 
responsibility for the health and safety of the delivery 
systems, while my colleagues, Dr. Smith and Dr. Reis, assume 
primary responsibility for the health and safety of the nuclear 
stockpile itself.

                          STOCKPILE REDUCTIONS

    As you point out, Senator Domenici, we are engaged in an 
arms control process. Over the past 10 years, but particularly 
since the end of the cold war, we have significantly reduced 
our nuclear weapons arsenal. We have done so on the basis of an 
analysis, a careful analysis, of the changes in the world and 
the consequent changes that our deterrence posture requires.
    We have determined that many categories of weapons are no 
longer needed and we eliminated those categories.
    All of this does not mean that nuclear weapons have no role 
in our future deterrent posture, in our future national 
security posture. In 1994, the administration's nuclear posture 
review reaffirmed the role of nuclear deterrence in our 
national security policy. But while we continue to explore the 
new possibilities for increased stability and future arms 
reduction treaties, we also plan to deploy a TRIAD of strategic 
nuclear delivery systems and a very limited arsenal of 
nonstrategic nuclear forces, insuring a survivable and 
effective deterrent force.

                    START I and future force levels

    Our current policy, in fact, the law of the land as 
mandated by the Congress, is that we maintain our forces at 
START I levels until START II is ratified by the Russian Duma 
and enters into force. At that point, we will proceed down to 
3,500 to 3,000 nuclear warheads. But we will maintain a TRIAD.
    We are examining, as the committee, knows, the START III 
requirements. We have worked a basic framework with the Russian 
government at Helsinki this spring, and that would further 
reduce strategic nuclear warheads to an active arsenal of 
between 2,000 and 2,500 weapons. Obviously and clearly, the 
requirements that we have for tritium will shrink, depending on 
the entry into force of START II and the successful negotiation 
and entry into force of START III.
    But our current policy, again, as mandated by law, is to 
maintain START I levels until the Duma ratifies START II. Our 
policy is that we will not begin active negotiations of START 
III until the Duma ratifies START II.
    The CTBT is an important element of our approach to 
national security in the post-cold war world. The United States 
took a leading role in the creation of the treaty. President 
Clinton was the first head of State to sign it and we look 
forward in the near future to receiving the Senate's advice and 
consent to the treaty.

                          KEY CTBT PRINCIPLES

    The treaty is in the national security interests of the 
United States and it will constrain nuclear and nonnuclear 
weapons States from developing more advanced weapons 
capabilities. Nevertheless, under the CTBT, certain key 
principles will remain unchanged. Because nuclear weapons will 
continue to play a role in our national security strategy, the 
deterrent must remain credible.
    The warheads and the systems that carry them must be safe, 
reliable, and effective, and the quality, reliability, and 
effectiveness of our forces, including command, control, and 
communications links and the people who operate them, are among 
our top priorities in the Department of Defense.
    The safeguards which Secretary Pena alluded to and 
discussed, in fact, are structured to maintain our nuclear 
stockpile and insure our continued security under the CTBT.
    In the interest of brevity, Mr. Chairman, I will not go 
through all of the safeguards because Secretary Pena spoke to 
them. Of course, safeguard A does mandate the establishment of 
a science-based Stockpile Stewardship Program which is 
absolutely essential to the safety and reliability of the 
stockpile under the CTBT.
    Under the Stockpile Management Program, under the 
Stewardship Program, we may, in fact, in the future have to 
modify nuclear weapons and their delivery systems as, in the 
future, parts reach the end of their design life. These 
modifications are not prohibited by the CTBT. In fact, only 
nuclear weapon test explosions are prohibited.
    While there is no current need to produce nuclear warhead 
designs, administration policy requires that the Department of 
Energy maintain that capability to respond to potential future 
requirements.
    DOE must maintain the capability to refabricate and certify 
weapons types in the enduring stockpile.

                             TRITIUM SUPPLY

    Mr. Chairman, you mentioned tritium. We in the Department 
of Defense are particularly interested in assuring the 
continuity of the tritium supply and we await with great 
anticipation a decision from the Department of Energy in the 
near future on its preferred approach to insuring the tritium 
production supply.
    I will not discuss safeguard F as that has already been 
discussed by Secretary Pena.

                   VERIFICATION OF TREATY VIOLATIONS

    Another CTBT matter of extreme importance is the 
verifiability of the treaty. We recognize that there are 
enormous monitoring challenges presented by the treaty. It is 
wider in its scope than those imposed by any previous nuclear 
test related treaty. But we believe that our existing and 
future programs will provide us the capability to do so.
    There are, of course, conceivable CTBT evasion scenarios. 
But the administration believes the treaty is effectively 
verifiable because of the wide range of resources that we have. 
We have the means to assess whether the treaty is deterring the 
conduct of nuclear explosions and we believe that, in terms of 
numbers and yields of tests, that we would know if any nation 
were carrying out actions which could undermine U.S. security 
interests.

                           PREPARED STATEMENT

    The administration's judgment that the CTBT is effectively 
verifiable also reflects the belief that U.S. nuclear 
deterrence would not be undermined by the numbers and yields of 
possible nuclear tests that the United States might fail to 
detect under the treaty.
    Mr. Chairman, this concludes my prepared statement.
    [The statement follows:]

                Prepared Statement of Franklin C. Miller

    Mr. Chairman and members of the Subcommittee, I am honored to have 
this opportunity to appear before you today as this committee considers 
the important question of how the United States will ensure continued 
confidence in the safety and reliability of our nuclear stockpile 
without nuclear explosive tests.
    With the Chairman's permission, I will begin by providing a brief 
historical perspective. Since the end of World War II, U.S. nuclear 
weapons have deterred major aggression threatening the U.S. and its 
allies. It was the U.S. nuclear deterrent which, against the backdrop 
of the Cold War, broke the historic and periodic pattern of total 
conventional war. It is a remarkable fact that for almost half a 
century, the U.S. and its allies faced the U.S.S.R. and its coerced 
auxiliaries, armed to the greatest extent huge sacrifice would afford, 
and yet did not fight a large-scale war. We successfully persevered 
long enough to allow Soviet Communism to collapse of its own internal 
weakness.
    Some argued that the danger of a nuclear war was so great that the 
risk of possessing these weapons far outweighed their benefits. I do 
not agree. Nuclear deterrence helped buy us time, time for democracy 
and diplomacy to contain Communism; time for internal forces of 
upheaval and decay to rend the Soviet Union and the Warsaw Pact and 
bring about the end of the Cold War. Can anyone really doubt that our 
nuclear forces played an important role in this? But the Cold War is 
over now and the U.S. nuclear posture reflects this. Indeed, history 
will make clear that U.S. nuclear policy and posture anticipated this 
historic development.
    Nuclear deterrence requirements--and the plans designed to 
implement them--are the result of an intense collaborative process 
between the Office of the Secretary of Defense, the Joint Staff, and 
the U.S. Strategic Command. Working from broad national guidance, my 
staff, the Joint Staff, and the STRATCOM staff develop the targeting 
requirements which underpin U.S. nuclear deterrence policy. The type of 
delivery vehicles and the type of warheads carried by those delivery 
vehicles are derived directly from those targeting requirements. The 
Navy and the Air Force then assume primary responsibility for the 
health and safety of the delivery systems, while my colleagues, Dr. 
Smith and Dr. Reis assume primary responsibility for the health and 
safety of the nuclear stockpile itself.
    Over the past 10 years, but particularly since the last year of the 
Cold War, we have significantly reduced our nuclear weapons arsenal. We 
have done so based on careful examination of the changes in the world, 
and the consequent changes in our deterrence requirements. We 
determined that many categories of nuclear weapons were non-essential 
to our national security and have taken them out of the arsenal and 
eliminated them. We halted nuclear weapons systems development 
programs. But all of this does not mean that nuclear weapons have no 
role in our current or future security posture. In September 1994, the 
Administration's Nuclear Posture Review reaffirmed the importance of 
nuclear deterrence. The NPR recognized that the strategic environment 
has been important role in this? But the Cold War is over now and the 
U.S. nuclear posture reflects this. Indeed, history will make clear 
that U.S. nuclear policy and posture anticipated this historic 
development.
    Nuclear deterrence requirements--and the plans designed to 
implement them--are the result of an intense collaborative process 
between the Office of the Secretary of Defense, the Joint Staff, and 
the U.S. Strategic Command. Working from broad national guidance, my 
staff, the Joint Staff, and the STRATCOM staff develop the targeting 
requirements which underpin U.S. nuclear deterrence policy. The type of 
delivery vehicles and the type of warheads carried by those delivery 
vehicles are derived directly from those targeting requirements. The 
Navy and the Air Force then assume primary responsibility for the 
health and safety of the delivery systems, while my colleagues, Dr. 
Smith and Dr. Reis assume primary responsibility for the health and 
safety of the nuclear stockpile itself.
    Over the past 10 years, but particularly since the last year of the 
Cold War, we have significantly reduced our nuclear weapons arsenal. We 
have done so based on careful examination of the changes in the world, 
and the consequent changes in our deterrence requirements. We 
determined that many categories of nuclear weapons were non-essential 
to our national security and have taken them out of the arsenal and 
eliminated them. We halted nuclear weapons systems development 
programs. But all of this does not mean that nuclear weapons have no 
role in our current or future security posture. In September 1994, the 
Administration's Nuclear Posture Review reaffirmed the importance of 
nuclear deterrence. The NPR recognized that the strategic environment 
has been transformed. Conventional forces have assumed a larger share 
of our security posture. Nonetheless, nuclear weapons continue to play 
a critical role in deterring aggression against the U.S., our forces 
and our allies. While we continue to explore new possibilities for 
increased stability and future arms reduction treaties, we also plan to 
continue to deploy a triad of strategic nuclear delivery systems, and a 
very limited arsenal of non-strategic nuclear forces, ensuring a 
survivable and effective deterrent force.
    The positive changes in the international environment are far from 
irreversible. And there are a range of new potential threats. One 
cannot survey the list of rogue states with potential WMD programs and 
conclude otherwise. The knowledge that the U.S. has a powerful and 
ready nuclear capability is, I believe, a significant deterrent to 
proliferators to even contemplate the use of WMD.
    The CTBT is an important element of the Administration's approach 
to nuclear security in the post-Cold War world. The United States took 
a leading role in the creation of this treaty. President Clinton was 
the first head of state to sign it and we look forward in the near 
future to receiving the Senate's advice and consent to the Treaty. The 
Treaty is in the national security interests of the United States. It 
will constrain nuclear and non-nuclear weapons states from developing 
more advanced nuclear weapons capabilities.
    Nevertheless, under a CTBT, certain key principles will remain 
unchanged. Because nuclear weapons will continue to play a role in our 
national security strategy for the foreseeable future, the Nation's 
nuclear deterrent must remain credible. Weapons systems and their 
warheads must be safe, reliable and effective. The quality, 
reliability, and effectiveness of our forces, including the command, 
control, and communications system, and the people who operate them are 
among our top priorities in the Department of Defense.
    Under our national security strategy requiring a nuclear deterrent, 
the Administration's CTBT safeguards are structured to maintain our 
nuclear stockpile and ensure our continued security under a CTBT.
    Safeguard A mandated the establishment of a Science-Based Stockpile 
Stewardship program to insure a high level of confidence in the safety 
and reliability of the stockpile. To this end, the Department of Energy 
Stockpile Stewardship and Management Plan (SSMP) is a comprehensive 
program designed to meet that requirement. The Department of Defense 
has worked closely with DOE in developing this plan. DOE Assistant 
Secretary Reis will discuss the program in more detail.
    Under the SSMP, we must maintain the capability to certify weapon 
types in the enduring stockpile. This means we may have to modify 
nuclear weapons and their delivery systems in the future as parts reach 
the end of their design life, wear out, and are no longer in 
production. These modifications are not prohibited by the CTBT, only 
nuclear weapon test explosions are prohibited. We will require that the 
stockpile continue to remain safe, secure and reliable into the future.
    While there is no current need to produce new nuclear warhead 
designs, Administration policy requires that DOE maintain the 
capability to respond to potential future requirements. DOE must 
demonstrate the capability to refabricate and certify weapons types in 
the enduring stockpile. It must also maintain the capability to design, 
fabricate and certify new nuclear warheads.
    A critical element of stewardship is tritium. If ``new'' tritium is 
not available sometime near the middle of the next decade, the U.S. 
could be forced to make unilateral reductions in deployed forces, or to 
otherwise modify our deterrent posture for lack of technical and 
material support. We anticipate and eagerly await a decision from DOE 
in the very near future on its preferred approach to producing tritium 
that will meet our future stockpile requirements.
    Under Safeguard F, associated with the CTBT, President Clinton 
directed the Secretaries of Defense and Energy to certify to the 
President whether the Nation's nuclear stockpile remains safe and 
reliable without the need for nuclear explosive tests. The 
certification is based on an assessment by the Nation's chief nuclear 
managers, operators, and scientists (i.e., the joint Nuclear Weapons 
Council, the Commander-in-Chief of the Strategic Command, and the 
Directors of the nuclear weapons laboratories). If our experts advised 
us they could no longer certify the safety and reliability of a weapon 
type critical to our national deterrent without testing, the 
Secretaries would inform the President, who would be prepared, in 
consultation with Congress, to withdraw from the Treaty under the 
supreme national interest clause and conduct appropriate nuclear tests 
required to fix the problem. We consider this possibility to be remote 
given a properly supported and executed stockpile stewardship and 
management program.
    Another CTBT matter of extreme importance is the verifiability of 
the Treaty. We believe the Treaty is verifiable but recognize that the 
monitoring challenges presented by its wide scope exceed those imposed 
by any previous nuclear test-related treaty. One of the President's 
conditions for the Treaty is to continue a comprehensive research and 
development program to improve our treaty monitoring capabilities and 
operations. Therefore, our current capability to monitor nuclear 
explosions will undergo significant improvement over the next several 
years to meet the monitoring challenges.
    There are, of course, conceivable CTBT evasion scenarios. However, 
the Administration believes the Treaty is effectively verifiable 
because the U.S. has a wide range of resources (e.g., National 
Intelligence Means, the totality of information available in public and 
private channels, and the mechanisms established by the Treaty) for 
addressing compliance concerns and imposing sanctions in cases of 
noncompliance. Thus, we will have the means to assess whether the 
Treaty is deterring the conduct of a series of nuclear explosions that, 
in terms of the numbers and yields of tests, could undermine U.S. 
security interests. These verification means would enable us to take 
prompt and effective counteraction.
    For the authoritative estimate of U.S. monitoring capabilities with 
respect to the CTBT, I refer you to the recently completed National 
Intelligence Estimate, ``Monitoring the Comprehensive Test Ban Treaty 
Over The Next 10 Years.''
    Thus, the Administration's judgment that the CTBT is effectively 
verifiable also reflects the belief that U.S. nuclear deterrence would 
not be undermined by the numbers and yields of possible nuclear tests 
that the United States might fail to detect under the Treaty.
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to take your questions now or for the record.



STATEMENT OF HAROLD P. SMITH, JR., ASSISTANT TO THE 
            SECRETARY OF DEFENSE FOR ATOMIC ENERGY 
            (NUCLEAR AND CHEMICAL AND BIOLOGICAL 
            DEFENSE PROGRAMS)

    Senator Domenici. Thank you very much.
    Now, I would like Dr. Smith to explain how the DOD develops 
specific criteria. How do we decide which warheads with which 
capabilities are necessary?
    I want him to explain what the President meant when he said 
we will maintain our nuclear deterrent. Does that mean we can 
do without some designs if problems come up? If so, which ones 
do we need and which ones do we not need? Or do we have a 
management structure that can make that kind of decision?
    Dr. Smith.
    Dr. Smith. Thank you, Mr. Chairman, Senator Cochran, 
Senator Reid. For the record, Mr. Chairman, I would like to 
note that the Junior in my name goes with Smith, not with the 
Junior Assistant to the Secretary. With a name like ``Smith, 
one needs all of the identification that one can obtain. 
[Laughter.]
    Dr. Smith. Mr. Chairman, I would like to submit my written 
testimony for the record and address the questions that you 
just directed to me.
    Senator Domenici. It will be accepted.
    Dr. Smith. Thank you, sir.
    When Dr. Reis and I took office in 1993, we did not know it 
but we strongly suspected that the United States had just 
conducted its last nuclear test. Starting with that point, Dr. 
Reis and I have jointly and collegially, built the program that 
currently is before you now.
    We started with concepts: That is, we knew that there were 
problems associated with not testing, and we knew that there 
were solutions, whether they be fast computers or particularly 
new facilities. We had to develop a plan to apply those 
solutions to the various problems. And, of course, we are now 
to the point where we have actually developed a program--that 
is, resources are being placed against those plans to solve the 
problems that come up.
    You might say in the beginning, in 1993, Dr. Reis and I had 
to guess what this program would cost. Later on, we had to 
estimate what it would cost. And now I think we are to the 
point where we can calculate what it will cost.
    All of this is captured in the vehicle called the Green 
Book, which is, in fact, a clear, detailed program plan 
developing by DOE under the auspices of the Nuclear Weapons 
Council. I think we did remarkably well. The initial guesses 
were about $4 billion per year. The current budget, which 
Secretary Pena mentioned, is about $4.5 billion a year. To have 
been within 12 percent in this brave new world of no nuclear 
testing I think is quite a remarkable accomplishment. I give my 
colleague, Dr. Reis, the greater part of the credit for 
developing that program.
    Now our job is to program scarce and competing resources 
against the very demanding requirements of a world with nuclear 
arsenals but no nuclear tests. The funds for the DOE and DOD 
nuclear weapons activities are derived from a large, common 
defense account, fondly known as 050.
    In 1988, fortunately, Congress created the Nuclear Weapons 
Council and authorized that it develop nuclear weapons 
stockpile options, evaluate the costs of those options, and 
coordinate budget matters between the two Departments.
    I think the Congress is to be congratulated. The NWC, the 
Nuclear Weapons Council, is ideally constituted to apply these 
resources to the tasks in a prioritized manner.
    It is my pleasure to chair the standing committee that 
supports the Nuclear Weapons Council. It has been meeting 
monthly for many, many months. We recently decided that it was 
essential that we reexamine from stem to stern the nuclear 
requirements, eventually leading to the DOE program.
    Mr. Miller, my colleague, only last month reviewed 
carefully the policy by which we set these requirements. In the 
ensuing months, the Joint Chiefs of Staff will convert that 
policy once again to requirements, and General Habiger, as 
Commander of STRATCOM, will convert those to actual war plans, 
eventually leading, of course, to the DOE program that Dr. Reis 
could discuss in detail.
    We must insure that adequate funds are provided to both 
Departments to have a safe, reliable, and effective nuclear 
deterrent. Further, these costs must be balanced against a wide 
assortment of national defense priorities. The Nuclear Weapons 
Council will work through the established, deliberative 
procedures to insure that the nuclear programs compete 
effectively against other important and high priority programs 
for funding adequate to meet the broad requirements of national 
security.
    Senator Reid, the chairman had asked if I could address the 
manner by which we come to the requirements. I have given you 
the procedures and in closed session, I will be happy to go 
into more detail.
    I can say in this session that for each arm of the TRIAD, 
there are two separate warheads, so that we can face systemic 
failure of one type of warhead on each leg of the TRIAD and yet 
still maintain that TRIAD. I will go into greater detail, if 
you would like, in the closed session.
    If I may, I would like to also discuss----
    Senator Cochran [presiding]. I am serving as the chairman 
in the absence of Senator Domenici, our chairman.
    Dr. Smith. You can always tell a Democrat. Thank you, 
Senator.
    Mr. Cochran, would you like me to discuss----
    Senator Cochran. I would like for you to answer the 
questions that Senator Domenici outlined that he would like to 
have answered.
    Senator Reid. We are going to have a closed session, Thad, 
a little bit later. He said that some of them he cannot answer 
here.
    Senator Cochran. Yes, I heard that.

                   VERIFICATION OF TREATY VIOLATIONS

    Dr. Smith. I would like then briefly to go to the 
verification of the CTBT, another important question before 
this committee.
    First of all, there is nothing theoretical about our 
capability to verify nuclear explosions. We, the United States, 
have applied many resources for many years to just this 
problem. It is not perfect. There are some low yields which we 
would not detect. I will leave to my colleague, Dr. Reis, if 
you so desire, to discuss what the impact would be of not 
detecting such low-yield devices.
    But we do have a high level of confidence that we will 
detect rather modest nuclear explosions and, more than that, 
anyone who should choose to have a nuclear explosion, to 
conduct a nuclear test, would have to live in a world in which 
the CTB and the signatories of the CTB would be well aware that 
such a test had been conducted.
    In short, there is a form of deterrence here.
    There are four different approaches to verifying nuclear 
explosions. First, there is our own intelligence capability. 
Second, the treaty itself allows for onsite inspections, which 
is a new arm of how we verify whether or not a nuclear 
explosion has taken place. Third, there are bilateral 
agreements, including Russia, France, United Kingdom, and we 
think next month we will have a similar agreement with the 
Kazakhs. Finally, there are open sources, and these are not to 
be taken lightly. Universities, laboratories, oil exploration 
all have the kinds of instrumentation which can detect in one 
form or another nuclear explosions.
    The technologies involved here are legion. We have netted 
seismic arrays. We have seismic stations. We have an array of 
detectors. We have low frequency sound detection. We have 
hydroacoustics. And, although not part of the treaty, our own 
intelligence community provides sensors that include optical, 
gamma ray, x ray, neutron, electromagnetic pulse. These are 
part of our national technical means. They are not part of the 
CTB. But they are all overlapping and they are all 
complementary.
    So the challenge is can we maintain an arsenal without 
testing and can we verify compliance if there should be a test. 
In my opinion, we should accept that challenge. The odds are 
favorable and the benefits are legion.
    Thank you very much, Mr. Chairman. I await your further 
questions.
    [The statement follows:]

               Prepared Statement of Harold P. Smith, Jr.

    Mr. Chairman and members of the Subcommittee, I am honored to have 
this opportunity to appear before you today. As the principal advisor 
to the Secretary of Defense on matters relating to the nuclear weapons 
stockpile my remarks today will focus on the Stockpile Stewardship and 
Management Program (SSMP), the role of the Nuclear Weapons Council for 
which I am the Executive Secretary and how the Departments of Defense 
and Energy may continue to ensure high confidence in our Nation's 
nuclear weapons stockpile within the constraints imposed by a 
Comprehensive Test Ban.
    Nuclear weapons will continue to be an essential element of 
national security strategy, and the maintenance of a safe and reliable 
nuclear stockpile remains a supreme national interest of the United 
States. The Department of Energy's Stockpile Stewardship and Management 
Program was created to provide the tools, infrastructure, and personnel 
necessary to ensure a high level of confidence in the stockpile.
    In the past, nuclear testing was the sine qua non for confidence in 
the Nation's stockpile. The challenge facing the Departments of Defense 
and Energy is to maintain a high level of confidence indefinitely, in a 
cost effective manner, without nuclear testing. The SSMP was developed 
with the support of the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff to meet this challenge. It is no coincidence that 
these three organizations (DOE, DOD, and JCS) also provide the 
principal representatives to the joint organization responsible for the 
task of developing nuclear weapons stockpile options and the costs of 
such options the congressionally established Nuclear Weapons Council 
(NWC).
    More than any other deliberative group, the NWC is the most 
authoritative body concerned with the overall management of the nuclear 
stockpile. As an interdepartmental organization, the NWC is supported 
by a wide range of disciplines: security and safety experts, policy 
makers, managers, maintainers, and operators. Membership of the NWC 
consists of the Under Secretary of Defense (Acquisition and Technology) 
who chairs the Council, the Vice Chairman of the Joint Chiefs of Staff, 
and a representative of the Department of Energy as designated by the 
Secretary of Energy. Today, the DOE member is Deputy Secretary Moler. 
The council is supported by the flag and general officer Standing and 
Safety Committee, which I chair.
    The activities of the NWC reflect the monumental scope of the SSMP 
and the efforts put forth by both Departments to implement an effective 
and efficient program. As you know, the enabling legislation for the 
Nuclear Weapons Council charges the Council with responsibility for 
developing costs for various stockpile options and states that the 
Council will be responsible for:
    (1) Preparing the Nuclear Weapons Stockpile Memorandum.
    (2) Developing nuclear weapons stockpile options costs.
    (3) Coordinating programming and budget matters pertaining to 
nuclear weapons programs between the Department of Defense and the 
Department of Energy.
    (4) Identifying various options for cost-effective schedules for 
nuclear weapons production.
    (5) Considering safety, security, and control issues for existing 
weapons and for proposed new weapon program starts.
    (6) Ensuring that adequate consideration is given to design, 
performance, and cost tradeoffs for all proposed new nuclear weapon 
programs.
    (7) Providing broad guidance regarding priorities for research on 
nuclear weapons.
    (8) Coordinating and approving activities conducted by the 
Department of Energy for the study, development, production, and 
retirement of nuclear warheads, including concept definition studies, 
feasibility studies, engineering development, hardware component 
fabrication, warhead production, and warhead retirement.
    (9) Preparing comments on annual proposals for budget levels for 
research on nuclear weapons and transmitting those comments to the 
Secretary of Defense and the Secretary of Energy before the preparation 
of the annual budget requests by the Secretaries of those Departments.
    The Council's primary focus is to provide the guidance necessary 
for both Departments to maintain a safe, secure, and reliable nuclear 
weapons stockpile while at the same time ensure the efficient and 
effective operation of the supporting infrastructure. I would like to 
provide one example of how the process can work to the benefit of all.
    The President established the current Annual Certification process 
in August 1995 to ascertain on a yearly basis whether the stockpile 
remains safe and reliable under a comprehensive test ban. Since then, 
the Departments of Defense and Energy, the Commander of Strategic 
Command, the Directors of the National Laboratories, the Services, and 
Joint Staff have worked diligently to implement a timely and meaningful 
process. The Chairman of the Joint Chiefs of Staff specifically 
required that the process be both credible and enduring.
    Over the course of the last two years, those most involved in 
implementing the new Annual Certification process have developed a well 
thought out approach. In 1996, the NWC completed its first report to 
the President on stockpile certification. The second annual report has 
been approved by the Secretary of Defense, and will be signed by both 
Secretaries for transmission to the President soon. As a result of the 
close cooperation, I am confident that the current process meets the 
requirements stated by both the Chairman and the President and that 
they will be able to certify again this year, as last, that there is no 
need to return to underground nuclear testing.
    The NWC and the NWC Standing and Safety Committee have striven 
diligently as both Departments and the Services adjusted their 
strategies, requirements, and capabilities to fit a post Cold War 
world. Some of the highlights include:
  --September 1991: Production of several planned new weapons halted by 
        Presidential initiative.
  --September 1992: Last underground test.
  --July 1993: Test moratorium extended.
  --October 1993: Interagency Task Force Report, ``Plan for Stockpile 
        Stewardship Under a Test Ban''.
  --November 1993: Stockpile Stewardship established.
  --May 1995: First Stockpile Stewardship and Management Program Plan.
  --February 1996 fiscal year 1996 SSMP Released First ``Green Book'' 
        and Initial matching of costs to tasks.
  --October 1997: Fiscal year 1997 SSMP Draft Second Green Book.
    Allow me to now present two brief success stories from the past 
year which illustrate the kind of effectiveness that exemplifies the 
NWC process.
    The first involves the retirement of the B53 bomb. Mr. Chairman, I 
told you of this program when I testified before your Subcommittee 
earlier this year so I will only briefly touch upon it here. Because it 
was designed almost 40 years ago, the B53 did not meet modern nuclear 
safety standards. The system that replaced it, the B61-11, is a modern 
system that meets current standards for safety, security, and use 
control. Due in large part to active participation from the 
organizations represented by the NWC, the replacement program was 
implemented in a remarkably short time only 16 months from initial 
verbal authorization to delivery of the first retrofit kits. The drive 
to replace the B53 made a significant contribution to the safety and 
effectiveness of the enduring stockpile and is an outstanding example 
of enlightened stockpile management.
    I particularly want to emphasize that the B61-11 is a non-nuclear 
modification of the previously fielded B61-7. The two weapons contain 
the same physics package, so there are no requirements for nuclear 
testing.
    Secondly, the NWC coordinated the initiative for resuming 
subcritical experiments at the Nevada Test Site earlier this year. 
These experiments are necessary to study the performance of nuclear 
materials in an aging stockpile. They do not involve a nuclear yield or 
a nuclear explosion. Hence, they are not prohibited by a Comprehensive 
Test Ban. The NWC reviewed the technical merit of these experiments and 
recommended they proceed. The data derived from these experiments are 
essential if we are to maintain our nuclear deterrent into the future 
without the benefit of nuclear testing. Experiments such as these are 
crucial to retaining a cadre of weapons scientists at the national 
laboratories and an important aspect of a dynamic program of stockpile 
stewardship.
    Initiatives such as these illustrate the fact that the nuclear 
weapons program has evolved significantly since the end of the Cold 
War. The relationship between the Department of Defense and the 
Department of Energy, which I have described as one of customer and 
supplier, continues to evolve in response to these monumental changes. 
The good news is that despite the changes, the Council remains a 
dynamic, authoritative and deliberative body.
    Mr. Chairman, in your letter of invitation, you asked us to address 
nuclear weapons requirements and how these requirements are set. Let me 
say briefly that requirements stem from our national policy. The broad 
outlines of that policy have been in place for years, but in 1994, 
President Clinton's Nuclear Posture Review recognized that while the 
strategic environment had been transformed, nuclear weapons would 
continue to play a critical role in deterring aggression against the 
U.S., its overseas forces, and our allies and friends.
    Having reaffirmed our policy of a continued nuclear deterrent, the 
Office of the Secretary of Defense and the Joint Staff develop the 
strategy needed to support that policy. The military Commanders in 
Chief, including General Habiger, Commander of Strategic Command, 
develop the employment plans to support that strategy. Nuclear weapons 
numbers and types evolve from those plans. The President then completes 
the process by approving these weapon numbers and types in the annual 
Nuclear Weapons Stockpile Memorandum.
    General Habiger and I have spoken on many occasions about the 
adequacy of our current stockpile and I will leave it to him to comment 
in more detail. While we must maintain the capability to certify weapon 
types in the enduring stockpile, for my part, I see no current need to 
produce new-design nuclear weapons. Of course we will have to modify 
nuclear weapons and their delivery systems in the future as parts reach 
the end of their design life, wear out, and are no longer in 
production. These modifications do not involve the nuclear warhead and 
are not affected by the proposed CTBT.
    I would now like to address the other issue which has been raised 
by this committee, that is, our ability to verify test ban treaty 
compliance by others.
    I would like to state at the outset that a technical monitoring 
system will always operate down to some limit greater than zero-yield. 
The U.S. has sought a practical, proven, cost-effective approach which 
will provide an acceptable level of confidence, a deterrent to 
violations and an interlocking web of constraints that promotes 
effective verification.
    The challenges of monitoring a global ban on nuclear testing exceed 
those imposed by any previous nuclear-test related treaty. The United 
States has a long history in the practical application of monitoring 
technologies. To meet the new challenges, the United States will use a 
wide assortment of resources that include our national intelligence 
means, all the information available to the intelligence community, 
from both technical and non-technical sources and from public and 
private channels.
    Since the detection of the Soviet Union's first nuclear test in 
1949, the United States has maintained and has continued to develop a 
robust monitoring network of sensors and analytical techniques. Today, 
the United States maintains seismic and hydroacoustic sensors for the 
detection of explosions underground and in the ocean, air sampling 
sensors for detection of nuclear explosions in the atmosphere and 
detection of effluents from underground nuclear testing, and sensors 
onboard satellites for explosions in the atmosphere and space.
    The verification regime called for in the Treaty includes an 
International Monitoring System (IMS), composed of global networks of 
seismic, hydroacoustic, infrasound and radionuclide sensors, a global 
communications network infrastructure to collect the data from these 
systems and an International Data Center (IDC) to receive and process 
these data and provide both data and analysis results to all Parties of 
the Treaty.
    The quality of these international networks are expected to meet 
U.S. national standards. This system is designed to provide high 
quality detection of signals from an underground, underwater or 
atmospheric nuclear explosion to a level well below one kiloton when no 
evasive action is taken. For example, the seismic and hydroacoustic 
networks are expected to detect non-evasive tests of less than one 
kiloton in the northern hemisphere.
    Although each of the international sensor networks has been 
designed to be operated independently, the combined capability of the 
IMS is enhanced by the complementarity of the several international 
sensor networks. When one sensor network detects a signal, other 
networks look for corroborating patterns. The international system and 
the U.S. national systems are also complementary. For example, the 
established U.S. national systems tend to be focused on monitoring 
areas which have in the past been of greatest concern to the United 
States, while the international systems provide a more balanced global 
coverage.
    The result is a layered, synergistic approach to U.S. monitoring 
where treaty and national mechanisms combine to improve our overall 
capability for monitoring nuclear testing worldwide.
    The International Monitoring System is being implemented by a 
Preparatory Commission which began work earlier this year in Vienna, 
Austria. The U.S. is working with the Commission to establish a 
rigorous environment in which this equipment would operate. A number of 
sites which were originally established as part of the United States 
monitoring system will be incorporated into the new international 
system. The most complete international system is the seismic network, 
with 34 of the 50 primary detection stations already in place and 
transmitting data to the prototype International Data Center.
    The Department of Defense has in place an agreement with the 
Russian Federation to cooperate with the development and installation 
of IMS seismic array facilities in that country and agreements with 
several other countries are pending. Current plans call for the IMS 
networks to be operational within about three years.
    At the center of the international verification regime is the 
technically advanced International Data Center (IDC). This center must 
detect and locate tens of thousands of events on an annual basis with 
an unprecedented level of sensitivity and accuracy. The United States 
has taken a leading role in the development of the International Data 
Center and the prototype is currently operating in Arlington, Virginia. 
The United States will work with the Preparatory Commission to 
transition this facility to Vienna, Austria over the next three years. 
The same data processing technology is also being incorporated into the 
U.S. systems to handle and analyze data from our national systems.
    Both the Department of Defense and the Department of Energy have 
development programs to provide the required technical support to the 
monitoring and compliance systems which will be used by the United 
States. Both Departments will respond positively to the treaty 
Safeguard requiring a continuation of the comprehensive research and 
development program to improve out treaty monitoring capabilities and 
operations. In this regard, I would like to acknowledge the unique 
contribution that the Department of Energy's national laboratories have 
made to U.S. verification capabilities, especially in the fields of 
seismic sensors and on-site inspection technologies.
    There are, however, evasion measures a potential violator could 
employ to evade detection of a nuclear explosion or to obscure his 
identity as the party responsible for the explosion. Because of this, 
the U.S. will have difficulty monitoring very low-yield tests in all 
environments with high confidence. Such evasive measures have been and 
will continue to be carefully studied. It should be noted that the CTBT 
establishes some mechanisms to provide information about ambiguous 
events that we would not have otherwise. Moreover, if a significant gap 
or weaknesses in the overall compliance regime is identified in the 
future, further improvements in sensor capabilities would be programmed 
and implemented.
    In closing, our current capability to monitor nuclear explosions 
will undergo significant improvements over the next several years to 
meet the challenges of a global nuclear test ban. The United States 
will have at its disposal a wide range of resources, including those of 
our national systems, and those from the treaty monitoring mechanisms, 
for addressing compliance concerns. The United States will therefore 
have the means to assess whether U.S. national security interests are 
being damaged by potential compliance concerns.
    It is therefore our judgment that a global nuclear test ban is 
effectively verifiable with the means provided by our intelligence 
capabilities, together with the Treaty's verification regime, and our 
diplomatic efforts.
    In conclusion, the loss of testing changes the way the national 
laboratories, the Department of Energy, and the Department of Defense 
will establish confidence. We are in the process of transitioning from 
an empirical system based on nuclear tests to a science based program 
that will enhance our understanding of nuclear weapons processes, and 
our ability to model them. In the United States, we have been preparing 
for this transition for over five years. We are the vanguard of the 
world's effort to reduce the threat of nuclear proliferation while we 
ensure our Nation's security.
    The Department of Energy has a comprehensive program designed to 
ensure that our weapons remain safe and reliable in the absence of 
nuclear testing. The Department of Defense endorses this program. For 
its part, the Department of Defense will be actively involved in 
defining SSMP program elements and priorities. We look forward to 
working closely with the Department of Energy to effectively manage 
program responsibilities in the years to come.
    We also strongly support the principle that if the SSMP does not 
meet its objectives and the DOD and DOE cannot certify the reliability 
of a critical element of our deterrent without nuclear testing, the 
United States would give the most serious consideration to exercising 
its right under the Test Ban Treaty to withdraw from the treaty under 
the ``supreme national interest'' clause (Safeguard F) for the purpose 
of conducting such necessary tests. The President regards that 
possibility as remote, given a properly supported and executed 
stewardship program. But to be successful, we need the support of not 
only the Administration, but also bipartisan support from the Congress.
    In short, today and for the future, assuming the SSMP program is 
adequately funded and successfully executed, my confidence in the 
safety and reliability of our nuclear deterrent force will remain 
strong. The Stockpile Stewardship and Management program is designed to 
provide the tools to maintain this confidence well into the future.




                          DEPARTMENT OF ENERGY

STATEMENT OF DR. VICTOR H. REIS, ASSISTANT SECRETARY OF 
            ENERGY FOR DEFENSE PROGRAMS
    Senator Domenici [presiding]. Thank you.
    Dr. Reis, before you start, I want to pay tribute to you. I 
think, while there have been many collaborators, obviously 
without your vision we would not be where we are on the 
science-based stockpile stewardship. And while it still has a 
way to go before it is implemented, obviously, and a way to go 
before we know how effective it is or will have been, I very 
much think what you have done is something very significant for 
the Nation and I want to congratulate you on that.
    Senator Reid. Senator Domenici, that was very nice of you 
to do that. I think that is very like you. Not only is it 
important what he has done for our country, but for the world.
    Senator Domenici. Thank you very much.
    Dr. Reis, would you proceed.
    Dr. Reis. Thank you, Senator Domenici, and thank you as 
well, Senator Reid, for your kind comments. Again, thank you 
also for the opportunity to testify before you today on the 
Stockpile Stewardship Program. This is a program that is 
fundamental to our national security under a comprehensive test 
ban. I would like to begin with a brief history of stockpile 
stewardship, tell you what it is, give you its current status, 
and then, of course, when we are in closed session, we will 
answer any of your questions.
    In addition to my written testimony, I would like to 
provide the subcommittee with a recently published overview on 
the program and, if you wish, submit it for the record. I think 
you have copies of that.
    Senator Domenici. Thank you.
    [The information follows:]

                     Stockpile Stewardship Program

                         OVERVIEW AND PROGRESS

                                PREFACE

    In the early 1990's, as part of its continuing world leadership 
role in the arms control arena, the U.S. halted production of new 
nuclear warheads and conducted its last nuclear explosive test. Thus 
ended an era in which the U.S. modernized its nuclear weapons stockpile 
by continually replacing aging systems with new systems and in which 
nuclear testing served as the ultimate arbiter of the safety, 
reliability, and performance of the nation's nuclear weapons stockpile.
    With the decision to cease production of new nuclear warheads and 
end nuclear testing, the nation now faces the challenge of maintaining 
its existing nuclear weapons stockpile with other tools and different 
kinds of tests. To meet this challenge, the Department of Energy has 
developed a Stockpile Stewardship Program. The strategy and key 
components of this new approach are described in the May 1995 DOE 
report ``The Stockpile Stewardship and Management Program: Maintaining 
Confidence in the Safety and Reliability of the Enduring U.S. Nuclear 
Weapon Stockpile.'' This overview and progress report updates the 1995 
report and describes the program accomplishments to date.
    Since the genesis of the Stockpile Stewardship Program in 1992, 
significant progress has been made. A Record of Decision on the 
Programmatic Environmental Impact Statement was issued in December 
1996, establishing the architecture for the future U.S. weapons 
complex. An implementation plan for the Stockpile Stewardship Program 
(the Green Book) has been developed and is already in its second annual 
revision. The Presidentially mandated first Annual Certification of the 
stockpile was completed in February 1997, and many new capabilities and 
facilities for the Stockpile Stewardship Program are well under way. 
The Dual-Axis Radiographic Hydrodynamic Test Facility is under 
construction, and the groundbreaking ceremony for the National Ignition 
Facility has taken place. Industry has begun delivering the advanced 
computers required for the Accelerated Strategic Computing Initiative, 
and record-breaking teraops (one trillion operations per second) 
operation has already been demonstrated. The first and second 
subcritical experiments, ``Rebound'' and ``Holog,'' were successfully 
completed at the Nevada Test Site on July 2 and September 18, 1997, 
respectively. A life extension process for the enduring stockpile is 
being developed, and the dismantlement of U.S. nuclear warheads retired 
from the stockpile is continuing. The assets of the Stockpile 
Stewardship Program were applied to a modification of the B61 bomb, and 
we are on track to restore the nation's capability to produce tritium.
    As experience is gained in assessing the safety and reliability of 
the enduring U.S. nuclear stockpile without nuclear testing, key 
program strategies of the Stockpile Stewardship Program have evolved 
and become better focused. In this report, an overview of the current 
program is presented along with the highlights of the Department of 
Energy's accomplishments and progress to date.
    Maintaining the U.S. nuclear weapons stockpile in this new era will 
continue to challenge our best capabilities. The Stockpile Stewardship 
Program must be implemented promptly and fully. In particular, new 
facilities and capabilities must be developed and validated while 
personnel with nuclear-test experience are still available. In 
addition, we will continue to rely on peer review between the three 
weapons laboratories as a key element of the Stockpile Stewardship 
Program. Despite the wide-ranging challenges and risks, we are 
confident that this program provides the framework and capabilities for 
success.
                                            Victor H. Reis,
      Assistant Secretary for Defense Programs, U.S. Department of 
                                                            Energy.

               PREPARED STATEMENT FROM PRESIDENT CLINTON

                       SUPREME NATIONAL INTEREST

    As part of our national security strategy, the United States must 
and will retain strategic nuclear forces sufficient to deter any future 
hostile foreign leadership with access to strategic nuclear forces. In 
this regard, I consider the maintenance of a safe and reliable nuclear 
stockpile to be a supreme national interest of the United States.
    I am assured by the Secretary of Energy and the Directors of our 
nuclear weapons labs that we can meet the challenge of maintaining our 
nuclear deterrent under a Comprehensive Test Ban Treaty through a 
science-based stockpile stewardship program without nuclear testing.
                                         President Clinton,
                                                   August 11, 1995.


          ADDRESSING STOCKPILE STEWARDSHIP PROGRAM CHALLENGES

    Over the past five years, the Department of Energy's Stockpile 
Stewardship Program has evolved from a vision for the future to an 
implemented plan of action. While the program's fundamental objective 
is unchanged from previous years--that is, to maintain high confidence 
in the safety, reliability, and performance of the U.S. nuclear weapons 
stockpile--the conditions under which this objective must be 
accomplished have changed greatly since the early 1990's. The 
Department of Energy (DOE) is meeting and will continue to meet an 
unprecedented challenge--namely, to maintain high confidence in the 
safety, reliability, and performance of the nation's nuclear weapon 
stockpile by using nonnuclear experiments and computer simulations in 
lieu of underground nuclear testing.
  --No nuclear testing.--The Comprehensive Test Ban Treaty (CTBT), 
        which was signed by the President in September 1996 and 
        submitted to the Senate for ratification on September 23, 1997, 
        prohibits nuclear testing unless the involved State Party 
        invokes the ``supreme national interest'' clause and withdraws 
        from the treaty. Currently, there is high confidence in the 
        safety, reliability, and performance of the nuclear warheads in 
        the enduring stockpile. This confidence is based on 
        understanding gained from 50 years experience and more than 
        1,000 nuclear tests, including the results of approximately 150 
        nuclear tests of modern weapon types during the last 20 years. 
        The President has expressed his confidence in the ability of 
        the Department of Energy to maintain the U.S. nuclear deterrent 
        without nuclear testing. In response, the DOE's nuclear weapons 
        stewards have directed their combined energies to developing 
        new nonnuclear experimental facilities (National Ignition 
        Facility [NIF], Dual-Axis Radiographic Hydrodynamic Test 
        Facility [DARHT]), a world-class computational capability to 
        enable simulation of complex nuclear explosions, and the 
        conduct of subcritical experiments at the Nevada Test Site.
  --Tritium production.--The United States has not produced tritium for 
        nuclear warheads since 1988 and will require a new tritium 
        production source possibly as early as 2005. A dual-track 
        approach using a commercial light water reactor and accelerator 
        production of tritium is being vigorously pursued.
  --An aging stockpile.--Nuclear warheads are not static objects. 
        Materials change over time (e.g., radioactive decay, 
        embrittlement, corrosion). Some of these changes do not 
        adversely affect warhead safety, reliability, or performance; 
        but others may, and some are yet unknown. With the average age 
        of the stockpile now being 14 years--older than ever before--it 
        is expected that new problems will arise. In addition, a number 
        of warheads are approaching the end of their originally 
        anticipated deployment period. To meet this challenge, each of 
        the stockpiled warheads is undergoing a thorough assessment to 
        determine vulnerabilities and to establish refurbishment 
        schedules that will ensure stockpile life extension.
  --An aging cadre of stockpile stewards.--Many of the scientists and 
        engineers with actual weapons design, production, and test 
        experience have already retired, and most of those remaining 
        are within ten years of retirement. A new generation of weapons 
        scientists and engineers must be trained and their competence 
        validated before the current generation leaves the workforce. 
        Knowledge preservation programs are underway that include 
        video-recording the experiences of senior designers as well as 
        the mentoring of new stockpile stewards. The senior designers 
        are also reviewing archived nuclear weapon test data and 
        showing the future stewards how to interpret and extract useful 
        information previously not needed when nuclear tests were 
        conducted.
  --A smaller less diverse stockpile.--The nation's stockpile now has 
        fewer warheads and fewer warhead types than at any time since 
        the 1960's. Thus, the U.S. nuclear deterrent is more 
        susceptible to common process and common component failures. A 
        new annual certification process and an enhanced surveillance 
        process have been initiated to ensure that potential problems 
        are found before the safety and reliability of the stockpile is 
        degraded.
  --No requirements for new-design nuclear warhead production.--Without 
        new production programs, warheads will remain in the stockpile 
        well beyond their anticipated lifetimes and beyond the 
        Department of Energy's base of experience. Without requirements 
        for new warheads, existing warheads will be refurbished and 
        modified to extend their lifetimes. To address this challenge, 
        the capability is being maintained to design and fabricate 
        replacement warhead parts, as well as to design replacement 
        warheads for existing stockpiled weapons.
  --A reconfigured production complex.--The production complex of the 
        Cold War years is being downsized and consolidated. The future 
        capability-based complex, with its reduced capacity, will not 
        be configured for high-rate production programs. Thus, improved 
        manufacturing processes, including the integration of system 
        design, component design, and process development, will be 
        needed to achieve timely production at a reduced cost. To 
        address this challenge, a Programmatic Environmental Impact 
        Statement was developed that specifies significant reductions 
        in the size of the DOE nuclear weapons complex and the 
        development of an agile, capability-based manufacturing 
        enterprise that will use advanced design and production 
        techniques to respond to both normal and contingency 
        requirements.
    The focus of the Stockpile Stewardship Program (SSP) is the U.S. 
nuclear stockpile. All elements of the program are directed at ensuring 
the safety, reliability, and performance of this stockpile. As stated 
in the above responses to each program challenge and as described in 
more detail throughout this document, we will develop the fundamental 
understanding needed to ensure the ability to anticipate and fix 
problems and to deal with future unknowns before they affect stockpile 
safety or reliability.
    At the heart of the Stockpile Stewardship Program is the issue of 
confidence. Confidence in the weapons is achieved through the effective 
management of the system that maintains the weapons and the expert 
judgment of the people who assess them. The ultimate measure of success 
for the Stockpile Stewardship Program is to certify that the stockpile 
remains safe and reliable without a recommendation to the President 
that nuclear testing is required.
    The first annual certification of the nuclear weapons stockpile has 
been completed, and both the Department of Defense (DOD) and DOE have 
concluded that the stockpile is safe and reliable and that there is no 
need to conduct a nuclear test. The second annual certification process 
is currently underway and is on schedule.

               STOCKPILE STEWARDSHIP PROGRAM INTEGRATION

    A distinguishing feature of the Stockpile Stewardship Program is 
its integration. As depicted below, the Stockpile Stewardship Program 
(SSP) has three major elements: Surveillance, Manufacturing and 
Operations; Scientific and Experimental Integration; and, Strategic 
Computing and Simulation.
    Stockpile Surveillance, Manufacturing and Operations focuses on 
activities that extend the life of the current stockpile, including 
surveillance, maintenance, refurbishment, assessment, and annual 
certification of the warheads. The Scientific and Experimental 
Integration effort involves developing advanced theoretical, 
computational, and experimental methods that will enable the continuing 
assessment and certification of warheads in the enduring stockpile 
without nuclear testing. The Strategic Computing and Simulation effort 
supports both Surveillance, Manufacturing and Operations and Scientific 
and Experimental Integration and includes computation, experimentation, 
and modeling as well as archiving and analysis of past nuclear test 
data.
    All of the Stockpile Stewardship Program elements are seamless and 
continual, with no clear ending of one phase before the beginning of 
another. Assessment and certification pervade all activities, from 
surveillance through manufacturing. Likewise, computational modeling 
and prediction are integral to every activity, from the assessments of 
aging-related changes, to the design and certification of replacement 
components, to projections of stockpile life extension.
    Not only are the laboratories and plants working closely together, 
particularly for surveillance and manufacturing, but the activities 
under each program are tightly interconnected. High-performance 
networks linking the advanced computers, coupled with other tools, are 
essential elements of this effective integration. In addition, the 
Department of Energy's laboratories and plants work closely with the 
Department of Defense to make sure that the enduring U.S. nuclear 
stockpile meets national security requirements.

                STOCKPILE STEWARDSHIP PROGRAM STRATEGIES

    The goals of the Stockpile Stewardship Program (SSP) will be 
achieved through an integrated surveillance, assessment, certification, 
design, and manufacturing process. These activities have remained 
constant; however, the integrating strategies have evolved as the 
program has matured. For example, the Stockpile Life Extension Process 
(SLEP) has been developed as a formal integrated activity through which 
the Department of Energy, laboratories, plants, and military services 
evaluate, plan, and schedule the specific refurbishment actions to be 
conducted on each weapon system. The accelerated and greatly expanded 
use of strategic computing and simulation tools is the fundamental 
innovation of this evolution. Today, the program is characterized by 
three integrated strategies or phases of stockpile stewardship.
  --Surveillance: predicting and detecting problems.--Defects and 
        aging-related changes must be identified before they can 
        degrade warhead safety, reliability, or performance. To the 
        extent possible, we must predict--relying on experiments 
        coupled with computer modeling and simulation--the occurrence 
        and impact of changes, both those that have been dealt with 
        previously in stockpile warheads and changes that have not been 
        encountered.
  --Assessment and Certification: analyzing and evaluating effects of 
        changes on warhead safety and performance.--The effects of 
        identified and predicted age- and environment-related changes 
        in stockpile warheads must be assessed, utilizing in large 
        measure advanced numerical simulations and models to determine 
        whether the changes adversely affect safety, reliability, or 
        performance. Determinations as to whether the degradation is 
        severe enough to require the replacement or rebuilding of 
        warhead components or even entire weapons must be made. 
        Evaluation and certification of new materials, new fabrication 
        techniques, and new manufacturing processes are essential to 
        make sure they are functionally equivalent to the originals.
  --Design and Manufacturing: refurbishing stockpile warheads and 
        certifying new parts, materials, and processes.--Periodically 
        replacements must be made for limited-lifetime components 
        (e.g., tritium reservoirs, neutron generators), and other 
        warhead parts must be rebuilt or manufactured to replace those 
        that have experienced or are predicted to experience 
        detrimental aging-related changes. The new components must be 
        certified so that defects that degrade warhead safety, 
        performance, or reliability are not introduced into the 
        stockpile. Advanced simulation and modeling and extensive use 
        of archived data are critical to maintaining confidence in the 
        rebuilt or remanufactured parts.

Predicting and Detecting Problems: Surveillance
    Stockpile surveillance has been a major component of the U.S. 
nuclear weapons program ever since the first weapons were put into the 
stockpile. Approximately 14,000 weapons have been examined and 
subjected to a variety of nonnuclear laboratory experiments and flight 
tests since 1958. In cases where these nonnuclear tests could not 
provide conclusive answers, nuclear tests of stockpile warheads or 
warhead components were conducted.
    Problems requiring corrective action have arisen in nuclear and 
nonnuclear warhead components. All of the warhead types in the enduring 
U.S. stockpile have had repairs or retrofits, and several have required 
repairs to the nuclear package.
    Without the replacement of older warheads with new warheads, the 
stockpile will age beyond the experience base. The Department of Energy 
has never before had large numbers of 30-, 40-, or 50-year-old warheads 
in the stockpile. (The average age of a stockpile warhead has always 
been less than 13 years.) As a result, new types of aging-related 
changes and problems in these older warheads are expected to be 
encountered.
    To succeed in this new reality, new surveillance methods and 
predictive capabilities are needed so that the full range of problems 
that may arise in the enduring stockpile can be detected. There is also 
a need to predict and identify aging-related changes and to understand 
the significance of these changes and their effect on warhead safety 
and performance. Some changes have little or no effect, whereas others 
can make a major difference.
    Defects occur throughout the lifetime of a warhead. Typically in 
complex manufactured systems, initial defects associated with design or 
fabrication form a large fraction of all defects found. With a high 
sampling rate during the early years, these defects can be detected and 
corrected. During middle age, the defect rate typically declines to a 
lower but nonzero level. As a system ages and components deteriorate, 
the defect rate climbs. The U.S. nuclear stockpile has followed the 
pattern of these first two stages. We have limited experience with the 
third stage and must develop the capability to predict when it will be 
reached.
    The goal of enhanced surveillance is to predict or detect the 
precursors and onset of aging-related defects before they jeopardize 
warhead safety, reliability, or performance. Predictive modeling and 
simulation are central to this activity. With sufficient lead time, the 
necessary redesigns, refurbishments, and recertifications can be made 
efficiently and cost effectively within the capabilities and capacity 
of the downsized production complex.
    An enhanced surveillance process has been established to develop 
the technologies and methods as well as the fundamental understanding 
of materials properties and weapons science to significantly improve 
detection and predictive capabilities. The major activities to be 
pursued are:
  --Testing and researching the aging-related behavior of existing 
        stockpile materials, components, and systems, including those 
        from retired warheads.
  --Developing improved computational models of materials aging and 
        materials performance.
  --Developing and conducting high-fidelity (i.e., enhanced data 
        acquisition) nonnuclear flight tests to examine the behavior of 
        nearly all actual warhead components in realistic environments. 
        (Historically, most flight tests, for example, did not include 
        realistic simulation of the nuclear package.)
  --Developing techniques for advanced analysis of existing 
        surveillance data, including complex numerical models and 
        simulations as well as improved access to and analysis of 
        archived data.
    As these enhanced surveillance technologies and methods are 
prototyped and validated, they will be integrated into the core 
stockpile surveillance process. Improved predictions of component 
lifetimes, made possible through enhanced surveillance, are key to the 
strategy for extending indefinitely the life of stockpile warheads.
Analyzing and Evaluating: Assessment and Certification
    Data and test results must be analyzed, assessed, and evaluated 
before conclusions can be drawn as to the safety, reliability, or 
performance of stockpile warheads. The Assessment and Certification 
Processes are designed to:
  --Develop an ability to predict and understand the lifetime and 
        aging-related changes that occur in every warhead component.
  --Identify and understand significant changes, variables, and 
        processes in terms of warhead safety, reliability, and 
        performance.
  --Validate new experimental and computational tools.
  --Validate new manufacturing processes and materials to ensure that 
        rebuilt components and warheads are equivalent to the 
        originals.
  --Develop and demonstrate the judgment of the next generation of 
        weapons scientists and engineers.
    The science and engineering of nuclear explosives are extremely 
complex. There are many parameters and unknowns that greatly influence 
the performance of nuclear warheads. Some of these have, in the past, 
been identified only in nuclear test failures. Even when nuclear 
testing was permitted, the weapons scientists and engineers were never 
able to test nuclear warheads to a statistical certainty. In addition, 
various testing constraints (e.g., the Threshold Test Ban Treaty) 
required extrapolations to evaluate full-warhead performance and safety 
characteristics. The key to accurate extrapolations, then as now, is 
the expert judgment of the weapons scientists.
    Now more than ever before, confidence in the accuracy of the 
judgment of the weapons scientists and engineers and confidence in the 
safety and reliability of the U.S. nuclear stockpile are closely 
linked. In the past, a weapon steward's judgment was developed and 
validated through nuclear testing and new warhead development. The 
Stockpile Stewardship Program is developing other means for honing and 
demonstrating the expert judgment of the next generation of stockpile 
stewards.
    This is being accomplished through the integrated management of 
computational simulation, applied scientific research, and nonnuclear 
experiments. In particular, experiments are being designed that test 
and expand the boundaries of our understanding. There are many areas of 
warhead operation that cannot be adequately addressed with existing 
tools and the current knowledge base of the weapons scientists and 
engineers. To close these gaps, the Stockpile Stewardship Program is 
making significant investments in enhanced computational capabilities 
and advanced facilities for above ground experiments.
    Of particular concern is the assessment challenge posed by the 
unrecognized problem--the ``unknown unknown.'' The Department of Energy 
must have rigorous computational and experimental processes that not 
only confirm and extend what is known and expected but also to discover 
gaps in our current understanding. This ability to fill in the gaps is 
especially important in those areas where previously nuclear testing 
would have been used to bound the margins of our concerns. Therefore, 
an aggressive verification and validation process for both the tools 
and the results is needed.
    The Stockpile Stewardship Program provides for demonstration-based 
assessment and certification of warhead safety and reliability. In the 
absence of nuclear testing, different experiments and tools must be 
relied on to obtain data relevant to nuclear warhead performance. A 
suite of enhanced capabilities that are needed to fill in the knowledge 
gaps and provide data relevant to various stockpile concerns has been 
identified (see chart below). Advanced experimental facilities will 
provide high-resolution data on the stages of the nuclear explosion--
primary implosion, boost, primary-to-secondary coupling, weapon 
effects, etc. Wherever possible, the goal is to obtain data 
experimentally by more than one method.

                 CAPABILITIES NEEDED TO ENSURE HIGH CONFIDENCE IN WARHEAD SAFETY AND RELIABILITY                
----------------------------------------------------------------------------------------------------------------
                                              Computer              Subcritical               Pulsed            
               Weapon physics                simulation    DARHT    experiments     NIF       power      LANSCE 
----------------------------------------------------------------------------------------------------------------
Improved physical modes....................           X          X           X           X          X          X
Early implosion............................           X          X           X   .........  .........          X
Preboost...................................           X          X           X           X          X          X
Boost......................................           X  .........  ...........          X  .........  .........
Primary-secondary coupling.................           X  .........  ...........          X          X  .........
Secondary implosion........................           X  .........  ...........          X          X  .........
Weapon performance.........................           X  .........  ...........  .........  .........  .........
----------------------------------------------------------------------------------------------------------------

    Under the Stockpile Stewardship Program, computational modeling and 
numerical simulation provide the critical integration of theory, 
existing data, new experimental results, and predictions into results 
that can be verified and validated. Advanced computational capabilities 
(application codes, computing platforms, and various tools and 
techniques) are being developed under the Accelerated Strategic 
Computing Initiative and incorporated into ongoing stockpile 
computational activities. The weapons scientists and engineers will be 
focused on numerical simulations and experiments. The goal is to 
combine past nuclear test data, computational modeling, and new data 
from current and advanced experimental facilities to fill in knowledge 
gaps and extend the fundamental understanding in all vital areas.
    To assess the aging-related changes that occur in the nuclear and 
nonnuclear warhead components, complex three-dimensional computational 
simulations that are beyond current computational capabilities are 
needed. Through the Accelerated Strategic Computing Initiative, the 
enhanced capabilities are being developed. For example, increases of 
more than ten-thousandfold in computational speed, network capacity, 
and data storage are planned to provide simulations of weapon safety, 
reliability, and performance. These efforts are closely linked to 
experiments to validate new and evolving computer models and to provide 
improved physics.
    These new capabilities will be used in addition to the experimental 
and computational capabilities developed during the nuclear testing 
era. However, because these older tools were designed to complement 
nuclear testing, they are not, in and of themselves, sufficient in the 
absence of nuclear testing. As new facilities and capabilities come on 
line and are validated, their data will be incorporated into our 
assessments. This transition period should take several more years.
    Peer review is a key component of stockpile stewardship. Because 
assessment and certification of stockpile safety, reliability, and 
performance rely heavily on expert judgment, it is essential that the 
assessment process be vetted and validated. Peer review, both formal 
and informal, takes place among the three weapons laboratories. In 
addition, periodic independent reviews by outside experts help provide 
confidence in the credibility of the laboratories' assessments and in 
the process by which the assessments are made.
Refurbishing and Recertifying: Design and Manufacturing
    Nuclear warheads are not static objects. They contain radioactive 
materials that decay and organic materials that decompose with time. 
Some materials, like tritium, decay predictably and must be replaced 
every few years throughout the warhead's lifetime. In addition, 
radioactive decay produces changes in the radioactive materials 
themselves and in adjacent materials. For example, plastics and other 
organic materials change with age and exposure to heat and radiation. 
Many of the metals used in nuclear warheads are chemically reactive and 
are damaged by long-term storage and exposure to radiation. As a 
result, all warhead parts must be considered limited-lifetime 
components, and all warheads in the enduring stockpile will require 
periodic refurbishment and remanufacturing.
    With an improved understanding of the effects of aging on warhead 
safety, reliability, and performance, developed through the enhanced 
surveillance and assessment efforts, the Department of Energy will be 
able to take a proactive approach to refurbishment. The goal is to 
replace or fix components systematically, before aging-related changes 
jeopardize warhead safety or performance.
    The Stockpile Life Extension Process (shown graphically on the next 
page) provides the framework for research and development activities 
and production planning. To retain confidence in warhead safety, 
security, and performance, the SLEP risk management strategy addresses 
three categories of potential refurbishment actions: musts--correct 
known degradations; shoulds--prevent foreseeable degradations; coulds--
enhance safety or security. A number of specific life extension options 
are being defined for each warhead type, allowing the laboratories, 
plants, and the Department of Defense to anticipate and plan for future 
maintenance and refurbishment requirements. The schedule guides 
stockpile-related research and development--at the laboratories to 
design and certify replacement components and validate new materials 
and at the plants to develop and certify new manufacturing processes.
    A new approach to manufacturing is being implemented to fit the 
capacity of the downsized and consolidated production complex and make 
full use of its capabilities. Through the Advanced Design and 
Production Technology (ADAPT) initiative, the laboratories and plants 
are working together to:
  --Integrate product and process design through the concurrent design 
        and development of replacement components and the processes 
        used to manufacture them.
  --Develop and qualify new manufacturing processes that produce high 
        production yields, are more efficient, and meet modern 
        environmental, safety, and health requirements.
  --Develop and characterize improved materials that are functionally 
        equivalent to the originals.
  --Develop agile manufacturing technologies that allow the production 
        complex to gear up rapidly to produce different weapon 
        components.
  --Identify, certify, and maximize the use of commercial parts and 
        processes.
    The Department of Energy will continue to meet the day-to-day 
production requirements for limited-lifetime component exchanges and 
other replacement components while also continuing to implement the 
Advanced Design and Production Technology initiative. For example, 
tritium-containing components must be replaced every few years, and 
various other parts are needed to reassemble warheads that are removed 
from the stockpile for routine surveillance and inspection.
Simulation and Modeling: Strategic Computing and Simulation
    Strategic Computing and Simulation is focused on achieving 
capabilities needed to support the Comprehensive Test Ban Treaty and to 
implement the Stockpile Stewardship Plan. Currently, there are five 
major thrusts:
  --Accelerated Strategic Computing Initiative (ASCI)
  --Stockpile Computing
  --Distanced Computing and Distributed Computing for Weapon Simulation 
        (DisCom2)
  --Numeric Environment for Weapon Simulations (NEWS)
  --Validation and Verification (V&V)
    ASCI provides the leading-edge, high-end simulation capabilities 
needed to meet weapon assessment and certification requirements without 
nuclear testing. To accomplish this, ASCI integrates the resources of 
the national laboratories, computer manufacturers, and academia.
    The national laboratories are focused to provide the application 
codes and related science needed to address weapon safety, reliability, 
and performance without nuclear testing. They are also developing 
improved tools and methodologies to utilize this unprecedented volume 
of data. This involves research and development in the areas of 
security, extremely high bandwidth transmission, extremely high data 
rate speeds, and high-fidelity, high-density visualization of dynamic 
data flows. Even at this early stage in their development, advanced 
ASCI simulation codes are providing unprecedented capabilities to the 
weapons program. We are not only doing the same things faster, but 
performing calculations and simulations that were impossible to 
contemplate before.
    The computer manufacturers are developing the technology and 
systems needed to operate at 1, 3, 10, 30, and 100 trillion operations 
per second. This technology is being developed at about twice the rate 
of commercial advances. ASCI has been highly successful in meeting its 
milestones and providing highly effective new tools to support 
stockpile stewardship.
    This unprecedented computational power is also being made available 
to the university community through the Academic Strategic Alliances 
Initiative. Five universities have received initial research awards to 
investigate projects in such areas as turbulence and shock physics, 
astrophysical thermonuclear flashes, and numerical simulation of 
accidental explosions. This research will have stockpile stewardship, 
basic science, and civilian applications.
    Stockpile Computing provides weapons designers and analysts with 
computer center operations, model development, and code maintenance 
services necessary to support the current Stockpile Stewardship Program 
(SSP) activities. In particular, Stockpile Computing supports the 
surveillance, maintenance, refurbishment, assessment, and certification 
of the existing nuclear weapons stockpile by incremental upgrades to 
models and computing systems, and infusion of ASCI-proven technologies 
into routine SSP operations.
    Stockpile Stewardship utilizes a diverse and distributed complex of 
facilities to maintain the safety, reliability, and performance of the 
nation's nuclear weapons. DisCom2 develops and provides the technology 
needed to deploy an integrated environment that permits the weapons 
laboratories and production plants to access computing (from desktop to 
teraops) across thousands of miles. For example, DisCom2 provides for 
rapid, secure, and verified transmission of engineering design and 
change information between laboratory scientists and production plant 
engineers, enabling teams to work on a common problem in real time, 
simultaneously, with effective visualization and the ability to make 
adjustments at a distance.
    There is a critical need to upgrade the information architecture at 
the laboratories to make effective use of ASCI teraops computers. NEWS 
will provide a local computational environment for large numbers of 
designers and analysts to use high-end simulation capabilities to 
simultaneously address time-urgent stockpile issues. NEWS upgrades to 
data archive, network, off-line processor, and visualization 
capabilities link ASCI computational resources to designers' and 
analysts' desktops to allow efficient and productive access to limited 
teraops computer resources.
    In addition to replacing and enhancing previous test-based 
capabilities, there is also a need to demonstrate that the new tools 
are providing the correct results. V&V provides the tools, 
methodologies, and data to ensure that the high-end simulation 
capabilities accurately model physical phenomena. The Department of 
Energy will be able to demonstrate in many cases that the complex 
simulations for national security reasons are reliable, that is, have 
been verified and validated. Reliability is established by external use 
of comparable codes, applications, and other methods by the oil 
industry, the academic astrophysics community, and others.
Confidence in the System: Integrated Program Management
    The Stockpile Stewardship Program is an integrated set of 
activities performed by an integrated complex of laboratories and 
plants. The technical challenges involved, combined with the downsizing 
of the production complex and the consolidation of activities at the 
laboratories, create the need for seamless, effective, and efficient 
program management. Indeed, program management lies at the heart of the 
new paradigm for stockpile stewardship.
    The laboratories and plants are collaborating with each other and 
with U.S. industry to develop tritium production technologies as well 
as enhanced surveillance, advanced manufacturing, and computational 
simulation and modeling capabilities. Once the capabilities are 
developed and validated, integration and collaboration will continue as 
surveillance results are evaluated, replacement parts and manufacturing 
processes are designed concurrently, and refurbished warheads and 
components are certified.
    An essential element of maintaining confidence in the stockpile--
and in the system that maintains the stockpile--is the informed and 
vigorous interactions that take place among the laboratories, the 
Department of Energy, and the Department of Defense and its advisory 
groups. These include:
  --Peer review.--In scientific research, peer interaction and review 
        are essential for maintaining excellence and providing 
        confidence in the quality of the work. In the absence of 
        nuclear testing, the need for peer review in stockpile 
        stewardship is greater than ever before. Vital peer 
        interactions take place through integrated and collaborative 
        activities among the laboratories and through formal reviews of 
        independent activities.
  --Dual revalidation.--This formal review process was developed in 
        consultation with the Department of Defense. Teams from the 
        three weapons laboratories, Los Alamos, Livermore, and Sandia--
        New Mexico and California--independently evaluate the safety 
        and reliability of each warhead. The teams independently review 
        existing calculations and experiments pertaining to the 
        warhead, evaluate relevant stockpile surveillance results and 
        predictive analyses, and perform separate experimental and 
        calculational activities to investigate issues of concern and 
        improve the baseline of understanding. Dual revalidation will 
        be applied to all stockpile warheads, beginning with the W76. 
        The W76 Dual Revalidation is expected to be 2 to 3 years in 
        duration. Upon completion, the DOE and DOD will select the next 
        weapon system for dual revalidation.
  --Stockpile Life Extension Process (SLEP).--The Stockpile Life 
        Extension Process addresses the need to extend the lifetime of 
        existing warheads. It is designed to balance the concern that 
        aging-related changes will degrade warhead safety or 
        reliability against the concern that stockpile modifications 
        may introduce new uncertainties. Life extension options have 
        been defined for each warhead type in the stockpile. These 
        refurbishments also provide the opportunity, when the warheads 
        are disassembled, to make modifications to improve safety, 
        reliability, or longevity. All stockpile life extension 
        activities are closely coordinated with the Department of 
        Defense before they are initiated.
  --Annual certification.--The Secretary of Energy and Secretary of 
        Defense formally certify to the President that nuclear testing 
        is not required to assure that the U.S. nuclear stockpile is 
        safe and reliable. This certification is based on rigorous 
        technical analyses that lead to formal concurrence by the 
        Nuclear Weapons Council, the Directors of the three nuclear 
        weapons laboratories, and the Commander in Chief of the U.S. 
        Strategic Command.
    Other important interactions take place between the Department of 
Defense and the Department of Energy on issues related to stockpile 
safety and security. In addition, the Nuclear Weapons Council carries 
out executive decisions on stockpile actions. The Nuclear Weapons 
Council, which is supported by a highly specialized staff of military 
officers, members of the Office of the Secretary of Defense, and the 
Department of Energy's Assistant Secretary for Defense Programs, also 
reviews and coordinates the Department of Energy's stockpile plans.

             STOCKPILE STEWARDSHIP PROGRAM ACCOMPLISHMENTS

    More than five years have passed since the last U.S. nuclear test 
and more than six years since the last new warhead entered the U.S. 
stockpile. The decision to end nuclear testing and the absence of 
requirements for production of new warhead designs significantly 
changed the way in which the U.S. maintains the safety and reliability 
of its nuclear weapons stockpile. As the accomplishments highlighted 
below illustrate, much progress has been made in the development and 
successful implementation of the Stockpile Stewardship Program (SSP).
Program Architecture: The PEIS
    Beginning in May 1995, the Department of Energy held a series of 
open-to-the-public meetings as part of the process for preparing the 
Programmatic Environmental Impact Statement (PEIS) for the Stockpile 
Stewardship Program. Meetings were held at each laboratory and plant 
site and in Washington, D.C. The comments, questions, and discussions 
arising from these meetings provided extremely useful input for 
refining the program.
    The Record of Decision for the PEIS was signed by the Secretary of 
Energy on December 19, 1996. This document formally defines the 
architecture of the weapons complex for the Stockpile Stewardship 
Program. It covers the future capabilities required of the three 
weapons laboratories, the four plants, and the Nevada Test Site. It 
calls for construction of several advanced experimental facilities at 
the laboratories, for downsizing production capabilities in place, and 
for reestablishing some manufacturing capabilities at the laboratories.
    The weapons complex outlined in the PEIS is consistent with the 
reduced U.S. nuclear weapons stockpile under current and projected 
START options. It also supports the U.S. nuclear weapons policy of 
``lead plus hedge,'' as set forth in the Nuclear Posture Review 
(conducted by the Department of Defense and approved by the President 
in September 1994). With this complex, the U.S. will be able to 
maintain a reduced nuclear arsenal while sustaining the capabilities 
needed to reverse course (in terms of stockpile size, nuclear testing, 
and new-design warhead production), should future circumstances 
dictate.
Implementation Plan: The Green Book
    The laboratories and plants have worked with the Department of 
Energy to develop a detailed implementation strategy for the Stockpile 
Stewardship Program. This strategy is presented in The Stockpile 
Stewardship and Management Plan, often referred to as the Green Book. 
Specific roles and responsibilities have been defined and unique 
facilities and capabilities identified. As the program has evolved, the 
strategy has been revised and modified. With an up-to-date and detailed 
implementation plan, jointly prepared and agreed to by the plants and 
laboratories, we will be able to execute the Stockpile Stewardship 
Program efficiently and cost effectively without gaps in necessary 
capabilities.

Administration and Congressional Support: The Budget

    As the President has stated, ``In order for this program to 
succeed, both the Administration and the Congress must provide 
sustained bipartisan support for the stockpile stewardship program over 
the next decade and beyond. I am committed to working with the Congress 
to ensure this support.'' The President's 1999 budget request will 
include a five-year plan that meets this commitment. With such 
budgetary support, the Department of Energy is maintaining confidence 
in the stockpile while proceeding with the design and construction of 
vital new experimental facilities and with the acquisition of the next-
generation supercomputers required for the Stockpile Stewardship 
Program.

Confidence in the Stockpile: The Annual Certification

    A primary responsibility of the Department of Energy is to certify 
the safety and reliability of the nation's nuclear weapons stockpile. 
Stockpile safety and reliability issues are continually assessed by the 
Department of Energy and the Los Alamos, Livermore, and Sandia 
laboratories. As part of the Stockpile Stewardship Program, a formal 
annual certification process has been established. This process 
incorporates technical evaluations from DOE and DOD, the Directors of 
the laboratories, and advice from the Commander in Chief of the 
Strategic Command, the laboratories' Directors, and the Nuclear Weapons 
Council. The certification that the stockpile is safe and reliable 
relies on the expert judgment of these senior officials. The first 
Annual Certification was completed on February 7, 1997. In their letter 
to the President, the Secretary of Defense and Secretary of Energy 
stated that they judge the stockpile to be safe and reliable and that 
there is no need to conduct an underground nuclear test. The second 
annual certification process is under way and on schedule.

                            NEW CAPABILITIES

    Major strides in the development and application of new 
capabilities to improve stockpile stewardship have been made. Data and 
information from these new capabilities will be integrated with data 
from experiments in existing facilities and from past experiments and 
nuclear tests. Restoration of tritium production is essential and the 
development of all the new experimental facilities and capabilities are 
needed to provide confidence in the safety, reliability, and 
performance of the U.S. nuclear stockpile, now and in the future.
Decisions: DARHT, NIF, Subcritical Experiments, and Tritium Production
    Important decisions were reached regarding two vital new 
experimental facilities, subcritical experiments, and tritium 
production.
  --DARHT.--The Environmental Impact Statement for the Dual-Axis 
        Radiographic Hydrodynamic Test (DARHT) Facility was completed, 
        and construction is under way at Los Alamos. When completed, 
        DARHT will be the nation's most advanced facility for 
        hydrodynamic experiments. These experiments are essential for 
        validating the implosion performance of primaries.
  --NIF.--Lawrence Livermore was selected as the site for the National 
        Ignition Facility (NIF). Engineering design work is under way, 
        and ground was broken for construction on May 29, 1997. This 
        immense laser facility will provide a means for experimentally 
        studying primary boosting. It will also provide important data 
        for assessing secondary performance and weapon effects and for 
        improving and validating new physics models and computer codes.
    The Department of Energy is also investigating the feasibility of 
follow-on facilities that may provide additional capabilities to verify 
and validate the improved simulation models discussed above. To assist 
in the evaluation of primaries, the Advanced Hydrotest Facility (AHF) 
is being studied to provide improved understanding of the effects of 
aging and weaponization features. AHF would expand multipulse, 
multiaxis radiographic capabilities well beyond those planned for 
DARHT. To assist in the evaluation of secondaries, a proposed follow-on 
pulsed-power facility is being studied to extend the range of 
capabilities for large-scale radiation flow measurements in complex 
geometries. This builds upon the recent and significant advances in 
pulsed power resulting from modification of an existing accelerator 
facility at Sandia National Laboratories. Research on the technology 
for these facilities is in progress.
  --Subcritical Experiments.--In April 1997, the Secretary of Energy 
        announced a schedule for subcritical experiments, an essential 
        component of the Stockpile Stewardship Program. The first and 
        second subcritical experiments, ``Rebound'' and ``Holog,'' were 
        successfully completed at the Nevada Test Site on July 2 and 
        September 18, 1997, respectively. These experiments are 
        providing valuable scientific information about the behavior of 
        nuclear materials during the implosion phase of warhead 
        operation. This information is needed to accurately predict the 
        performance of stockpile warheads as they age.
  --Tritium.--The Department of Energy is pursuing a dual-track 
        production strategy for the most promising tritium supply 
        alternatives: (1) to initiate the purchase of an existing 
        commercial reactor (operating or partially complete) or 
        irradiation services with an option to purchase the reactor for 
        conversion to a defense facility and (2) to design, build, and 
        test critical components of an accelerator system for tritium 
        production. By late 1998, the Department of Energy plans to 
        select one of the tracks to serve as the primary source of 
        tritium. The other alternative, if feasible, would be developed 
        as a backup tritium source.
      Substantial progress has been made for both alternatives since 
        the announcement of the dual-track strategy.
      For the Commercial Light Water Reactor Project track: (1) 
        completed and certified the design of Tritium Producing 
        Burnable Absorber Rods, fabricated thirty-two rods, and placed 
        them in the Watts Bar commercial reactor for an 18-month 
        irradiation cycle, (2) the Conceptual Design Report for the 
        Tritium Extraction Facility was completed, independently 
        validated, and issued, and (3) prepared and issued a Request 
        for Proposals from nuclear utilities to sell the Department of 
        Energy a reactor or irradiation services for tritium 
        production. Proposals have been received and are being 
        considered.
      For the Accelerator Production of Tritium Project track: (1) the 
        Conceptual Design Report was completed, independently 
        validated, and issued; (2) high-power density irradiation of 
        target/blanket materials was completed; (3) superconducting 
        radio-frequency linear accelerator technology was adopted; and, 
        (4) implementation of a modular approach that allows production 
        flexibility should future tritium requirements change was 
        initiated.

Strategic Computing and Simulation Advances: Entering the Teraops Era

    Industry has begun delivering the advanced new computers required 
for ASCI. ASCI's goal is to develop the complex three-dimensional 
models of weapons operation needed to make the integrated simulations 
that will provide a digital proxy for nuclear testing as well as 
provide capabilities needed to address aging and other emerging issues. 
Intel Corp. and Sandia National Laboratories are working in partnership 
on the ASCI Red machine, in which thousands of Pentium processors are 
linked together using a technique known as massively parallel 
processing. In December 1996, the machine demonstrated record-breaking 
teraop operation, performing one trillion operations in a second, which 
made headlines around the world. The system will eventually be made up 
of more than 9,000 processors and will be able to operate at 1.4 
teraops.
    IBM and Lawrence Livermore National Laboratory are developing the 
ASCI Blue Pacific machine. Los Alamos National Laboratory and SGI/Cray 
are developing the ASCI Blue Mountain machine. Both systems are 
intended to achieve benchmark performance at or above 3 trillion 
operations per second. At this early stage in their development, 
advanced ASCI weapons simulation codes are providing unprecedented 
capabilities to the weapons scientists and engineers. For example, 
coupled three-dimensional thermal-chemical-hydrodynamic calculations of 
weapon safety (for example, a weapon in a fire) are now possible. As a 
practical matter, some standard weapons-related calculations have been 
performed one hundred times faster than before. Through this 
initiative, the time it took to run one simulation was reduced from 74 
days to 7 hours.
    In July 1997, Secretary Pena announced research awards to five 
major U.S. universities--Stanford University, California Institute of 
Technology, the University of Chicago, the University of Utah at Salt 
Lake, and the University of Illinois at Urbana/Champaign. These 
universities will collaborate with the Los Alamos, Lawrence Livermore, 
and Sandia National Laboratories on challenging projects that will 
drive the advancement of large-scale computational modeling.
             meeting the day-to-day needs of the stockpile
    The Department of Energy has continued to maintain the U.S. nuclear 
weapons stockpile. Problems in the stockpile have arisen since the 
cessation of nuclear testing. Some of these problems are similar to 
those for which, in the past, nuclear tests were conducted to 
investigate or resolve. However, using the stockpile stewardship 
approach, we are drawing on test-related expertise and on emerging new 
capabilities to evaluate and resolve these problems.
Dual Revalidation: The W76
    The W76 dual revalidation is prototyping this formal process for 
certifying a warhead's conformance with its military characteristics, 
and obtaining a thorough baseline condition of the weapon. Two separate 
teams of experts from the weapons laboratories are independently 
assessing the warhead and combining new computational and experimental 
investigations with stockpile surveillance results, predictive 
analyses, and data from past nuclear and nonnuclear tests.
Stockpile Life Extension Process: The W87
    The W87 life extension process incorporates changes to enhance the 
structural integrity of the warhead. Engineering development is 
proceeding and includes above ground experiments high-fidelity flight 
testing. The effect of the proposed design changes on the warhead's 
performance is being assessed using the latest computational models, 
supported by the existing nuclear and nonnuclear test database and 
laboratory experiments. Experience gained in the W87 refurbishment will 
guide future life extension activities for other stockpile warheads.
New Process Qualification: Gas Reservoirs at Kansas City
    Production of tritium gas reservoirs was moved from the Rocky Flats 
Plant to the Kansas City Plant. Kansas City is now responsible for 
manufacturing gas reservoirs for all warheads in the enduring 
stockpile. Development and qualification of the production processes 
are under way. This past year, the gas reservoir production programs 
for two warhead systems--the W76 and the W80--were qualified.
    Qualification of this critical production capability demonstrates 
that the risks inherent in consolidating and downsizing the production 
complex can be successfully managed and mitigated.
New Production Capability: Neutron Generators at Sandia
    The production responsibility for neutron generators has been 
successfully transferred from the Pinellas Plant to Sandia-New Mexico. 
The new production facility was dedicated in July 1996, and 
approximately 364 units will be recertified in 1997. This new facility 
will support both production requirements and research and development 
for new extended-life neutron generators. In support of Sandia 
production efforts, Los Alamos has developed the capability for tritium 
loading the targets needed for the neutron tubes.
New Production Capability: Nonnuclear
    Under the Nonnuclear Reconfiguration Initiative, a number of 
production responsibilities have been transferred from the Mound, 
Pinellas, and Rocky Flats plants to Los Alamos National Laboratory in 
addition to the Neutron Tube Target Loading assignment. The production 
responsibility for detonators has been successfully transferred and the 
capability is being installed. Los Alamos also has responsibility for 
producing beryllium components and nonnuclear pit parts.
Limited Pit Production Capability at Los Alamos
    The responsibility for pit surveillance and pit manufacture has 
been transferred from the Rocky Flats Plant to Los Alamos. A pit 
surveillance capability has been established and pit evaluation was 
initiated this year. Limited pit manufacturing will now be done at Los 
Alamos. The first demonstration W88 replacement pit is scheduled to be 
produced in 1998.
Weapon Dismantlement
    Dismantlement of the Cold War arsenal is being carried out as the 
Department of Energy continues to develop the enhanced capabilities and 
facilities needed to support the enduring U.S. stockpile. As a result 
of the START I treaty and separate Presidential decisions, thousands of 
weapons have been removed from the U.S. stockpile and are slated for 
dismantlement. More than 1,000 weapons were dismantled in 1996, and 
nearly 500 weapons will be dismantled in 1997.
Successful Application of the SSP Model: The B61 Mod 11
    Replacement of the B53 with the B61 Mod 11 has improved the 
inherent safety of the U.S. stockpile. The B53 gravity bomb was the 
oldest weapon in the stockpile and was produced before modern safety 
features were developed. By modifying a small fraction of the existing 
B61 Mod 7 bombs, the Department of Defense can retire the B53 from the 
stockpile while still meeting its mission requirements.
    Conversion of B61 Mod 7's to Mod 11's requires replacement of the 
radar nose and center case with a one-piece hardened steel nose and 
replacement of the parachute in the bomb's tail assembly with steel 
ballast parts and a drag flare to change the flight characteristics of 
the weapon. The Department of Energy authorized these changes in 
December 1995. The tail case subassembly retrofit was assigned to 
Kansas City and the nose case replacement to the Oak Ridge Y-12 Plant. 
A very tight schedule called for delivery of the first conversion kit 
one year later, in December 1996.
    Teams from Los Alamos, Sandia-New Mexico, and the production plants 
addressed and defined appropriate qualification tests and analyses for 
certifying the acceptability of the modified bomb and its new delivery 
conditions. A number of successful flight tests confirmed that the 
modified warhead will perform as expected and can be deployed as a 
replacement for the B53.
    Because of the tight schedule and an already heavy workload in its 
machining facilities, Kansas City procured a number of parts for the 
tail case subassembly from commercial vendors. Assembly of the modified 
tail case was done at Kansas City. The first conversion kit was 
delivered ahead of schedule, in November 1996.
    The accelerated schedule presented challenges to the Oak Ridge Y-12 
Plant as well, particularly because a number of critical operations had 
to be restarted from an extended stand-down. Numerous issues related to 
the replacement nose case had to be resolved during production. The 
first conversion kit of the replacement nose case was shipped in mid-
December 1996, two weeks ahead of schedule.
    The conversion of B61 Mod 7's to Mod 11's successfully demonstrated 
many aspects of the Stockpile Stewardship Program. Integration of 
design and production engineering was a key factor in meeting the tight 
schedule. Teamwork between the laboratories and the plants and between 
the plants and commercial vendors allowed the Department of Energy to 
deliver the modified warhead in under a year (as opposed to two to 
three years for a retrofit under the old paradigm). In years past, the 
Department of Energy would likely have conducted at least one nuclear 
test to validate the modified bomb. However, because nuclear-test- and 
design-experienced people and all necessary computer analysis and other 
required data were available at both the plants and the laboratories, 
the B61 Mod 11 could be certified and put into the stockpile without a 
nuclear test.
    With the successful completion of the B61 Mod 11, the Department of 
Energy has gained experience and confidence in the Stockpile 
Stewardship Program. This project confirmed the value of the new 
approach to manufacturing. In particular, it confirmed the feasibility 
of stockpile modernization via retrofitting and life extension of 
existing warheads. It also showcased the Department of Energy's ability 
to respond rapidly across the entire weapons complex to an important 
stockpile issue.

                               CONCLUSION

    Under the Stockpile Stewardship Program, the Department of Energy's 
goal is unchanged from previous years--namely, to provide high 
confidence in the safety, reliability, and performance of the U.S. 
nuclear warhead stockpile. Absent nuclear testing, the tools have 
changed significantly--stockpile confidence will now rely on nonnuclear 
demonstration-based assessments of warhead safety, reliability, and 
performance. New experimental and computational capabilities are being 
developed. With these tools, the Department of Energy must be able to 
mitigate the loss of critical expertise that will result from the 
retirement of nuclear-test- and design-experienced weapons scientists 
and engineers. In the coming years, we will validate these new tools, 
integrate the information they provide with the suite of weapons-
related data and models, and train the next generation of stockpile 
stewards.
    As previously described, taking full advantage of the capabilities 
of the Stockpile Stewardship Program, the aged B53 bomb was replaced 
with a modified B61 equipped with modern safety features, and several 
other weapons system problems that would have previously required a 
nuclear test were resolved. These major achievements and the related 
progress being made to develop nonnuclear experimental facilities and 
enhanced computational capabilities provide ample evidence that the 
Stockpile Stewardship Program will be successful and will enable the 
Department of Energy to continue to maintain high confidence in the 
safety, reliability, and performance of the enduring U.S. nuclear 
deterrent.

                         BACKGROUND ON PROGRAM

    Dr. Reis. The Stockpile Stewardship Program began in July 
1993 when President Clinton announced that he would continue 
the moratorium on nuclear weapons testing and seek a 
Comprehensive Test Ban Treaty [CTBT] for nuclear weapons, a 
goal that has been sought since President Eisenhower. In August 
1995, President Clinton announced his intention to seek a zero 
yield CTBT and he included as part of his announcement six 
safeguards that would accompany the treaty.
    The first of these was that we would conduct a science-
based Stockpile Stewardship Program. The Senate START II 
ratification text in January 1996 also commits the United 
States to a robust Stockpile Stewardship Program.
    President Clinton signed the CTBT in September 1996 and on 
September 22 of this year he submitted it to the Senate for 
approval. As part of that submission, the administration 
committed to fund stockpile stewardship at about $4.5 billion 
in fiscal year 1999 and to use the fiscal year 1999 as a 
baseline for future funding. This does not include funding for 
construction of a new tritium production source. Thus, 
stockpile stewardship, which is essential to maintain our 
nuclear deterrent, also underpins the Nation's nuclear arms 
control policy.
    As President Clinton stated in August 1995,

    I am assured by the Secretary of Energy and the Directors 
of our nuclear weapons laboratories that we can meet the 
challenge of maintaining our nuclear deterrent under a 
Comprehensive Test Ban Treaty through a science-based Stockpile 
Stewardship Program without nuclear testing.

    Thus, Mr. Chairman, within the U.S. national security 
framework, the specific task of stockpile stewardship is to 
maintain high confidence in the safety, reliability, and 
performance of our nuclear stockpile indefinitely and without 
nuclear testing. Part of this task is to maintain the 
capability to return to testing and production of new weapons 
if so directed by the President and the Congress.

                STOCKPILE STEWARDSHIP--CONCEPT AND RISKS

    So what is the program, what are the risks involved, and 
how do we plan to mitigate those risks?
    The stockpile stewardship concept is simple. Each year, 
representative samples of each weapon type are returned from 
the active forces to the plants and labs, disassembled, 
examined, tested and analyzed for defects--much as you would go 
for an annual physical or take your car to a local automobile 
mechanic. If any defects are found, their effect on 
performance, safety, and reliability is assessed and if that 
effect is deemed significant, the defective part is 
remanufactured and replaced. It's like the battery or spark 
plugs in your car. Some parts we know will require replacement 
and these are replaced at regular intervals. That's it. Sounds 
simple enough.
    Unfortunately, while a modern nuclear weapon has about as 
many parts as a modern automobile, it is much more complicated. 
Many of the parts of a nuclear weapon are made from very 
special materials--plutonium, highly enriched uranium, 
tritium--which radioactively decay and change both their 
properties and the properties of other materials within the 
weapon.
    Nuclear weapons are designed and manufactured to 
extraordinarily rigid standards, both to enable huge amounts of 
explosive energy to be packaged in relatively small containers 
and to maintain phenomenal safety standards. A nuclear weapon 
less than the size of a small desk can have the explosive power 
to completely destroy a modern city. And yet, it must be able 
to survive the worst kind of accident you can think of with 
less than a one in a million chance of exploding. This level of 
performance and safety must be maintained throughout the 
weapon's lifetime, even as it ages and changes.
    While we can expect the aging will cause the defect rate to 
rise, just as it does with both humans and cars, we cannot go 
out and buy a new warhead model. There is no new warhead 
production and some of the old factories are out of business. 
Moreover, the weapons designers who have had the experience 
with nuclear explosive testing are also aging. In about 10 
years, most of them will have been retired. This means that 
about the same time the weapons reach the end of their design 
life, we will no longer have anyone on the job with direct test 
experience.
    Despite these challenges, people from the weapons 
laboratories, the production plants, and the Federal 
establishment involved in stockpile stewardship have testified 
and will so testify that we can do the stockpile stewardship 
job. We believe we can maintain the safety and reliability of 
the nuclear weapons in the stockpile indefinitely without 
underground testing and keep the risks to manageable levels.
    How do we expect to do this? First of all, we start from a 
solid position. The current stockpile has been well tested, is 
in very good shape, and is well understood. We have an 
extensive database on each of these weapons and we have a cadre 
of experienced designers, engineers, scientists and technicians 
that can, with confidence, certify the safety and reliability 
of the current stockpile.
    Now since we cannot do a complete test of a nuclear 
explosion, we conceptually divide the explosion into each of 
its parts and test and analyze each of these separately, much 
as you would test the ignition system, the cooling system, and 
the brakes of your car. Then we put the whole thing together 
into a computer calculation, a simulation to see if the 
resulting performance is within specification. Each part of the 
simulation must predict the results of each of the separate 
tests and where they exist must be consistent with data from 
previous underground nuclear tests. Let me give you some very 
simplified examples of how this works.
    Some of the processes are relatively straight forward to 
simulate. The first part of the nuclear explosion sequence is 
to send the right electrical signal to the right place at the 
right time. We can test this exactly by flight testing actual 
weapons with inert mockups of nuclear components. We can do a 
good job of testing the first part of the nuclear explosion, 
the implosion of the plutonium pit. But we do not use actual 
plutonium. It would go off if we did. Then we can measure a 
number of important features by taking x-ray pictures during 
critical parts of the experiment. We can then compare these 
pictures with calculations and previous actual underground 
nuclear test results.

                   EXPERIMENTAL AND DIAGNOSTIC TOOLS

    But current radiographic systems will not be sufficient to 
measure the effects of potential defects in aged pits, so we 
are building a new x-ray machine, the dual-axis radiographic 
hydrodynamic test [DARHT], which will look at the shape and 
size of an imploding pit model from two different directions 
and with much better resolution.
    Beyond obtaining x-ray pictures of imploding pit models, 
however, we will no longer experimentally simulate a nuclear 
explosion, but instead, will use experimental facilities to 
obtain conditions that occur during such an explosion and then 
use the results of these experiments to check computer 
calculations. For example, we are investigating the way old 
plutonium behaves when subjected to high pressures of an 
implosion to subcritical tests at the Nevada test site, and we 
expect to be able to generate conditions of temperature and 
pressure of nuclear explosions with lasers at the national 
ignition facility. These and other experimental facilities that 
are online, under construction, or in the planning stage, will 
give us a set of tools sufficient to investigate and help 
understand anticipated problems in the stockpile.
    As I mentioned previously, the experimental information is 
tied to the assessment process through computation or, more 
precisely, numerical simulation. But we know that the level of 
computation needed to effectively simulate effects of aging or 
a remanufactured part is much, much greater than that which is 
currently available. So we have begun a computational 
development program, the accelerated strategic computing 
initiative in parallel with the experimental program. There is 
no point in doing elegant experiments if you cannot interpret 
the results in terms of nuclear weapon safety and reliability, 
and there is no point in doing simulations if the computer 
codes cannot be grounded in reality. You need both as well as 
returning to the archives to match the new techniques with the 
data from the underground nuclear tests.
    It is this troika of computer simulation, experiments, and 
previous nuclear test data that provides us a complete tool box 
for the assessment process. Building this assessment tool box 
in time to train the new cadre of scientists and engineers is 
critical to the Stockpile Stewardship Program.

                          WEAPON REMANUFACTURE

    This leaves remanufacture. We know now we will have to 
remanufacture and replace some parts and are already doing so. 
We know that eventually we will have to replace just about 
every part in just about every weapon. That is the whole idea 
of stockpile life extension. But to create these new parts, we 
cannot rely on the cold war production complex that has 
produced some tens of thousands of nuclear weapons. We are 
establishing a production complex that is much more flexible 
and much more environmentally sensitive than the production 
complex it replaces.
    We must use every applicable modern manufacturing 
technique, the best that U.S. industry can offer. We must 
understand the details of the manufacturing processes with 
sufficient precision so as not to introduce new defects into a 
remanufactured system. The key here is model based 
manufacturing, similar to that which created the Boeing 777 and 
being applied today by much of U.S. industry. Thus, around one-
half of the stewardship program is devoted to producing current 
replacement parts and to planning and modernizing our 
production complex to match the new job. We envision a complex 
that is approximately one-fifth the size of the cold war 
complex but one that can return to higher levels of production 
if the need ever arises.
    While we do not expect to need additional supplies of 
enriched uranium and plutonium, there is one nuclear material 
which we know we have to produce--tritium, a radioactive 
isotope of hydrogen that is required for every modern nuclear 
weapon.
    Tritium decays fairly rapidly. Approximately 5 percent is 
transformed to helium every year. The last tritium that was 
produced in the United States was in 1988. With the end of the 
cold war and with the reduction of numbers of nuclear weapons, 
we have had large amounts of excess tritium. This excess has 
been used to make up for the decayed tritium in the current 
stockpile. But eventually this will run out. Based upon our 
current estimates, we must produce tritium by the year 2005 to 
support a START I nuclear stockpile. After a number of years of 
analysis and changing requirements, we are down to two 
approaches for making tritium--using an existing commercial 
light water reactor or using a newly developed accelerator. The 
DOE will select a primary source for tritium production as soon 
as possible in fiscal year 1998.
    So, in a nutshell, that is stockpile stewardship--
maintaining the stockpile without testing, surveillance, 
assessment, remanufacture, tritium, labs, plants--a program 
that must develop a new generation of technical experts before 
the current generation expires.

                          CHALLENGES AND RISKS

    Why do we think we can manage this challenge and what can 
we do to manage the risks?
    First, let me reiterate that we start from a solid base. 
The current stockpile is well tested and well understood. The 
designers and engineers who built them are available and active 
and, indeed, they are the ones who are creating the Stockpile 
Stewardship Program. They are the ones who are working on the 
stockpile now and are helping to train their successors.
    Second, we have laid out a plan for the Stockpile 
Stewardship Program--weapon by weapon, part by part--that 
projects the tasks that are required to maintain the stockpile 
over the next 10 years and beyond. We have concurrence on this 
program from the Department of Defense and the Joint Chiefs and 
the administration has committed to fund this program and all 
its parts.
    Third, as one of the conditions for ratification, Safeguard 
F, the President requires us to annually certify to him 
directly the safety, reliability, and the performance of each 
weapon type. This is done by the Secretary of Defense and the 
Secretary of Energy on the advice of the Nuclear Weapons 
Council, the directors of the nuclear weapons laboratories, and 
the commander in chief of the Strategic Command. As you recall, 
Secretary Pena went through that with you in some detail.
    Fourth, we have a backup, safeguard C requires us to 
maintain the Nevada test site in a state of readiness, and the 
subcritical and other experiments conducted there help keep the 
people sharp and ready.
    Fifth, safeguard B states that the ratification is 
conditioned on maintaining the vitality of the nuclear weapons 
laboratories--Los Alamos, Lawrence Livermore, and Sandia 
National Laboratories. Mr. Chairman, those labs are among the 
best in the world and, in my opinion, they are the best in the 
world. And they are better now than they were 4 years ago 
because of the enthusiasm and vigor with which they are 
attacking the Stockpile Stewardship Program. History tells us 
that great labs need great missions and stewardship is just 
such a mission. Our DOE labs will get even better because they 
will attract the kind of people who are drawn to solve tough 
problems of national importance.
    Sixth, we are doing stewardship now and doing it 
successfully. It has been 5 years since the last underground 
nuclear test. We are just completing our second annual 
certification. We have modified the B-61 bomb and have seen it 
enter the stockpile to replace the aged B-53 bomb. We have 
initiated a number of new experimental tools and our 
computation program has developed the world's fastest super 
computer by a factor of three. We have solved some problems by 
using stewardship tools that in the past would have likely 
required nuclear testing. We have literally done hundreds of 
experiments that increase our understanding of nuclear weapons. 
We have safely dismantled over 9,000 nuclear weapons since the 
end of the cold war and have produced numerous parts on time 
while continuing to downsize the complex. This is a system that 
works and not just at the labs but also at the plants--Oak 
Ridge Y-12, Pantex, Kansas City, Savannah River, and the Nevada 
test site.
    So let me finish by getting to the essential question: Do I 
have the confidence that the Stockpile Stewardship Program will 
work and can we maintain the nuclear weapons stockpile without 
testing 10, 20, or 30 years from now?
    My answer now is an almost unqualified yes.
    The source of my optimism lies not in the immortality of 
the current stockpile of weapons, though, in truth, they are 
truly technological marvels, but in my faith in the integrity, 
courage, and competence of the people in our weapons labs and 
production complex. They are the men and women that designed 
and produced the weapons that ended World War II and kept the 
cold war cold. They have put together a program that is 
comprehensive, coherent, and robust. They believe and I believe 
that they can do the job by first and foremost maintaining and 
supporting the institutions to do that job. I have confidence 
in them, their integrity, their competence, and their 
overriding dedication to their mission. If we give them the 
tools that they need and stick with it, we can manage the 
risks.

                           PREPARED STATEMENT

    In the end, this is not an issue of technology, but an 
issue of courage and will and persistence. If we have the 
courage and will and persistence, we will not fail.
    I thank you, Mr. Chairman, and I would be glad to answer 
any of your questions.
    [The statement follows:]

                  Prepared Statement of Victor H. Reis

    Thank you, Mr Chairman for the opportunity to testify before you 
today on the Stockpile Stewardship Program. This program is fundamental 
to our national security under a Comprehensive Test Ban Treaty. I'd 
like to begin with a brief history of stockpile stewardship, state what 
it is, give you its current status, and then answer your questions. In 
addition to my written testimony, I would like to provide the 
subcommittee with a recently published overview on the program, and if 
you wish, submit it for the record.
    The Stockpile Stewardship program began in July 1993 when President 
Clinton announced he would continue the moratorium on nuclear weapons 
testing and seek a comprehensive test ban treaty for nuclear weapons, a 
goal that has been sought since President Eisenhower. In August of 1995 
President Clinton announced his intention to seek a ``zero yield'' 
CTBT. He included as part of his announcement, six safeguards that 
would accompany the treaty. The first of these was that we will conduct 
a ``science based stockpile stewardship program.'' The Senate Start II 
ratification text in January 1996 also commits the U.S. to a ``robust 
Stockpile Stewardship Program.''
    President Clinton signed the CTBT in September of 1996, and on 
September 22 of this year he submitted it to the Senate for approval. 
As part of the submission, the Administration committed to fund 
stockpile stewardship at about $4.5 billion in fiscal year 1999 and to 
use fiscal year 1999 as a baseline for future funding. This does not 
include funding for construction of a new tritium production source. 
Thus, stockpile stewardship--which is essential to maintain our nuclear 
deterrent--also underpins the nation's nuclear arms control policy.
    As President Clinton stated in August of 1995: ``I am assured by 
the Secretary of Energy and the Directors of our nuclear weapons labs 
that we can meet the challenge of maintaining our nuclear deterrent 
under a Comprehensive Test Ban Treaty through a science based stockpile 
stewardship program without nuclear testing.''
    Thus, Mr. Chairman, within the U.S. national security framework, 
the specific task of stockpile stewardship is to maintain high 
confidence in the safety, reliability, and performance of the nuclear 
stockpile, indefinitely, without nuclear testing. And part of this task 
is to maintain the capability to return to testing and production of 
new weapons, if so directed by the President and the Congress.
    So, what is the program, what are the risks involved, and how do we 
plan to mitigate those risks?
    The stockpile stewardship concept is simple. Each year 
representative samples of each type of weapon are returned from the 
active forces to the plants and labs, disassembled, examined, tested 
and analyzed for defects, much as you would go for an annual physical 
or take your car into your local automobile mechanic. If any defects 
are found, their effect on performance, safety, and reliability is 
assessed, and if that effect is deemed significant, the defective part 
is remanufactured and replaced. Like the battery or spark plugs in your 
car, some parts we know will require replacement, and these are 
replaced at regular intervals. That's it. It sounds simple enough.
    Unfortunately, while a modern nuclear weapon has about as many 
parts as a modern automobile, it is much more complicated. Many of the 
parts of a nuclear weapon are made from very special materials--
plutonium, enriched uranium, tritium--which radioactively decay, and 
change both their properties and the properties of other materials 
within the weapon.
    Nuclear weapons are designed and manufactured to extraordinarily 
rigid standards, both to enable huge amounts of explosive energy to be 
packaged in relatively small containers, and to maintain phenomenal 
safety standards. A nuclear weapon, less than the size of a small desk, 
will have the explosive power to completely destroy a modern city, and 
yet it must be able to survive the worst kind of accident you can think 
of with less than a one in a million chance of exploding. This level of 
performance and safety must be maintained throughout the weapon's 
lifetime, even as it ages and changes.
    While we can expect that aging will cause the defect rate to rise--
just like it does in both humans and cars--we can't go out and buy a 
new warhead model--there is no new warhead production, and some of the 
old factories are out of business. Moreover, the weapons designers who 
have had experience with nuclear explosive testing are also aging, in 
about ten years most of them will have retired. This means that about 
the same time all of the weapons reach the end of their design life, we 
will no longer have anyone on the job with direct test experience!
    Despite these challenges, people from the weapons laboratories, the 
production plants, and the federal establishment involved in stockpile 
stewardship have testified, and will so testify, that we can do the 
stockpile stewardship job. We believe we can maintain the safety and 
reliability of the nuclear weapons in the stockpile indefinitely 
without underground testing and keep the risks to manageable levels.
    How do we expect to do this?
    First of all, we start from a solid position. The current stockpile 
has been well tested, is in very good shape and is well understood. We 
have an extensive data base on each of these weapons, and we have a 
cadre of experienced designers, engineers, scientists, and technicians 
that can, with confidence, certify the safety and reliability of the 
current stockpile.
    Now, since we cannot do a complete test of a nuclear explosion, we 
conceptually divide the explosion into each of its parts and test and 
analyze each of these separately, much as you would test the ignition 
system, the cooling system, and the brakes on your car. We then put the 
whole thing together into a computer calculation--a simulation--to see 
if the resulting performance is within its specification. Each part of 
the simulation must predict the results of each of the separate tests, 
and where they exist, be consistent with data from previous underground 
nuclear tests. Let me give you some very simplified examples of how 
this works.
    Some of processes are relatively straight forward to simulate. The 
first part of the nuclear explosion sequence is to send the right 
electrical signal to the right place at the right time. We can test 
this exactly by flight testing actual weapons with inert mockups of the 
nuclear components.
    We can do a good job of testing the first part of the nuclear 
explosion, the implosion of the plutonium pit, but we do not use actual 
plutonium--it would go off if we did--and we can measure a number of 
important features by taking x-ray pictures during critical parts of 
the experiment. We can then compare these pictures with calculations 
and with previous actual underground nuclear test results. But current 
radiographic systems will not be sufficient to measure the effects of 
potential defects in an aged pit, so we are building a new x-ray 
machine--the DARHT--which will look at the shape and size of an 
imploding pit model from two different directions and with much better 
resolution.
    Beyond obtaining x-ray pictures of imploding pit models, however, 
we will no longer experimentally simulate a nuclear explosion, but 
instead use experimental facilities to obtain conditions that occur 
during such an explosion and then use the results of these experiments 
to check computer calculations. For example, we are investigating the 
way old plutonium behaves when subjected to the high pressures of an 
implosion, through subcritical tests at the Nevada Test Site, and we 
expect to be able to generate the conditions of temperature and 
pressure of nuclear explosions with lasers at the National Ignition 
Facility. These, and other experimental facilities that are on line, 
under construction, or in the planning stage, will give us a set of 
tools sufficient to investigate and help understand anticipated 
problems in the stockpile.
    As I mentioned previously the experimental information is tied into 
the assessment process through computation, or more precisely, 
numerical simulation. But we know that the level of computation needed 
to effectively simulate effects of aging or a remanufactured part is 
much, much greater than that currently available, so we have begun a 
computation development program--the Accelerated Strategic Computing 
Initiative--in parallel with the experimental program. There is no 
point in doing elegant experiments if you can't interpret the results 
in terms of nuclear weapons safety and reliability, and there is no 
point in doing simulations if the computer codes cannot be grounded in 
reality. You need both, as well as returning to the archives to match 
the new techniques with the data from underground nuclear tests. It is 
this troika of computer simulation, experiments, and previous nuclear 
test data that provides the complete tool box for the assessment 
process. Building this assessment ``tool box'' in time to train the new 
cadre of scientists and engineers is critical to the stockpile 
stewardship program.
    This leaves remanufacture--we know now we will have to 
remanufacture and replace some parts, and are already doing so. We know 
that eventually we will have to replace just about every part in every 
weapon--that's the idea of stockpile life extension. But to create 
these new parts we cannot rely on the cold war production complex that 
produced some tens of thousands of nuclear weapons. We are establishing 
a production complex that is much smaller, more flexible, and much more 
environmentally sensitive than the production complex it replaces.
    We must use every applicable modern manufacturing technique; the 
best that U.S. industry can offer. We must understand the details of 
the manufacturing processes with sufficient precision, so as not to 
introduce new defects into a remanufactured system. The key here is 
model--based manufacturing--similar to that which created the Boeing 
777 and is being applied today by much of U.S. industry. Thus, around 
half of the stewardship program is devoted to producing current 
replacement parts, and to planning and modernizing our production 
complex to match the new job. We envision a complex of approximately 
one-fifth the size of the cold war complex, but one that can return to 
higher levels of production if the need ever arises.
    While we do not expect to need additional supplies of enriched 
uranium and plutonium, there is one nuclear material which we know we 
will have to produce: tritium--a radioactive isotope of hydrogen that 
is required for every modern nuclear weapon.
    Tritium decays fairly rapidly; approximately 5 percent is 
transformed to helium every year. The last tritium that was produced in 
the U.S. was in 1988, but with the end of the cold war and the 
reduction of numbers of nuclear weapons, we have had large amounts of 
excess tritium. This excess has been used to make up for the decayed 
tritium in the current stockpile, but eventually this will run out. 
Based upon current estimates we must produce tritium by 2005 to support 
a START I nuclear stockpile. After a number of years of analysis and 
changing requirements we are down to two approaches for making 
tritium--using an existing commercial light water reactor or using a 
newly developed accelerator. The DOE will select a primary source for 
tritium production as soon as possible in fiscal year 1998.
    So in a nut shell, that's stockpile stewardship--maintaining the 
stockpile without testing--surveillance, assessment, remanufacture--
tritium, labs, and plants,--a program that must develop a new 
generation of technical experts before the current generation retires.
    Why do we think we can meet this challenge, and what are we doing 
to manage the risks?
    First, let me reiterate that we start from a solid base. The 
current stockpile is well tested and well understood. The designers and 
engineers who built them are available and are active. Indeed they are 
the ones who are creating the stockpile stewardship program. They are 
the ones who are working on the stockpile now, and are helping to train 
their successors.
    Second, we have laid out a plan for the stockpile stewardship 
program--weapon by weapon, part by part, that projects the tasks that 
are required to maintain the stockpile over the next ten years, and 
beyond. We have concurrence on this program from the Department of 
Defense, and the Joint Chiefs, and the administration has committed to 
fund this program and all its parts.
    Third, as one of the conditions for ratification, Safeguard F, the 
President requires us to annually certify, to him directly, the safety, 
reliability and performance of each weapon type. This is done by the 
Secretary of Defense and the Secretary of Energy on the advice of the 
Nuclear Weapons Council, the Directors of the nuclear weapons 
laboratories and the Commander-in-Chief of the U.S. Strategic Command. 
(If a high level of confidence in the safety or reliability of a 
nuclear weapon type which the two Secretaries consider critical to our 
nuclear deterrent could no longer be certified, the President, in 
consultation with Congress, would be prepared to withdraw from the CTBT 
under the standard ``supreme national interest'' clause in order to 
conduct whatever testing might be required.)
    Fourth, we have a back up. Safeguard C, requires us to maintain the 
Nevada Test Site in a state of readiness, and the subcritical and other 
experiments conducted there help keep the people sharp and ready.
    Fifth, Safeguard B states that ratification is conditioned on 
maintaining the vitality of the nuclear weapons laboratories--Los 
Alamos, Lawrence Livermore and Sandia National Laboratories. Mr. 
Chairman, those labs are among the best in the world--in my opinion 
they are the best in the world--and they are better now than they were 
four years ago because of the enthusiasm and vigor with which they are 
attacking the stockpile stewardship effort. History tells us that great 
labs need great missions, and stewardship is just such a mission. Our 
DOE labs will get even better because they will attract the kind of 
people who are drawn to solve tough problems of national importance.
    Sixth, we are doing stewardship now, and doing it successfully. It 
has been five years since the last underground nuclear test. We are 
just completing our second annual certification. We have modified the 
B61 bomb and seen it enter the stockpile to replace the aged B53 bomb. 
We have initiated a number of new experimental tools, and our 
computation program has developed the world's fastest supercomputer--by 
a factor of three. And we have solved some problems by using 
stewardship tools that in the past would have likely required nuclear 
testing. We have literally done hundreds of experiments that increase 
our understanding of nuclear weapons. We have safely dismantled over 
nine thousand nuclear weapons since the end of the Cold War, have 
produced numerous parts, on time, while continuing to downsize the 
complex. This is a system that works, and not just at the labs but also 
at the plants: Oak Ridge Y-12, Pantex, Kansas City, Savannah River, and 
the Nevada Test Site.
    So let me finish by getting to the essential question: Do I have 
confidence that stockpile stewardship will work, can we maintain the 
nuclear weapon stockpile, without testing, ten, twenty, thirty years 
from now?
    My answer now is an (almost) unqualified yes.
    The source of my optimism lies not in the immortality of the 
current stockpile of weapons--though in truth they are truly 
technological marvels--but in my faith in the integrity, courage and 
competence of the people in our weapons labs and production complex. 
They are the men and women that designed and produced the weapons that 
ended World War II and kept the Cold War cold. They have put together a 
program that is comprehensive, coherent, and robust. They believe, and 
I believe, they can do the job, by first and foremost maintaining and 
supporting the institutions to do the job. I have confidence in them--
their integrity, their competence, and their overriding dedication to 
their mission. If we give them the tools that they need, and stick with 
it, we can manage the risk. In the end this is not an issue of 
technology but an issue of courage and will and persistence, and if we 
have the courage and will and persistence, we will not fail.
    Thank you, Mr. Chairman, and I would be glad to answer any of your 
questions.

    Senator Domenici. I think if you would add to your last 
three words or tell me that it includes them, there must be a 
sense of urgency lest we get lackadaisical.
    Dr. Reis. I would certainly include that. Yes.
    Senator Domenici. When we wrap up this session, we are 
going right across the hall for the closed session. It should 
not take very long. We will just lead the witnesses over there. 
We will go with whomever is cleared.
    Senator Reid, I am yielding to you as I did last time for 
your personal questions.

                   FUNDING FOR STOCKPILE STEWARDSHIP

    Senator Reid. You are very kind, Mr. Chairman.
    You heard the questions that I asked Secretary Pena about 
the $4.5 billion, that being a bottom and not a balloon figure, 
and he indicated that that was the bare minimum that was needed 
to maintain the safety and reliability of our stockpile.
    Would the three of you agree that that figure is 
appropriate?
    Senator Domenici. Mr. Miller, why don't you answer first as 
we started today with you.
    Mr. Miller. Senator, I am on the policy side and will defer 
to Dr. Reis and Dr. Smith in this case.
    Senator Domenici. All right.
    Dr. Smith.
    Dr. Smith. The numbers have been carefully scrubbed. There 
is no question about that. As to predicting what budgets are 
required many years into the future, of course, I would not do 
that. That is why I am so pleased with the way the Nuclear 
Weapons Council is constructed, so that we can, indeed, year-
by-year go into ever greater detail to make sure that the 
program is meeting what will be, one would think, changing 
requirements.
    So I would agree with Secretary Pena that there is no fat 
in the budget we are currently in the process of submitting to 
the Congress. But I cannot agree regarding the years beyond 
that without further study, which, of course, is going to take 
time.
    I can assure you, Senator Reid, that we are going to 
conduct the thorough studies that I just mentioned.

                          ANNUAL CERTIFICATION

    Senator Reid. The annual certification is not a political 
judgment, in your estimation, it is a scientific judgment? Is 
that true?
    Dr. Smith. That is certainly true.
    Secretary Pena did a fine job in going through this chart, 
and the expertise from the warfighter to the scientist, from 
the bureaucrat to the official is, I think, quite properly and 
thoroughly brought to bear.
    Senator Reid. Secretary Reis, would you agree with that?
    Dr. Reis. Yes; I would. And I would like to say, first, 
that I agree with Secretary Pena without qualification. I would 
like for that to get on the record, please.
    Mr. Miller. Senator Reid, if I might from a policy 
standpoint----
    Senator Reid. Please.
    Mr. Miller [continuing]. That is the only way we would 
accept the certification process. It has to be technical. It 
has to be based only on the science and what is observed in the 
stockpile.
    Dr. Reis. Senator Reid, I would like to get back to the 
certification. We really have done an extraordinarily thorough 
job at this stage of the game. I think we discussed that, as 
you will recall, with Senator Cochran's committee as well.
    I believe it was Senator Cochran or one of the people on 
your committee--perhaps it was Senator Levin--asked is there 
anybody else that we could think of, both myself and Dr. 
Barker, who could participate in that who is not participating, 
and neither of us could think of anybody. I think it has been 
an extraordinarily thorough process.
    Again, I would like to compliment Dr. Smith, because it is 
under the auspices of the Nuclear Weapons Council that that 
process is done.
    Senator Reid. I have a number of other questions, Mr. 
Chairman, that I would ask all the panel to respond to. I also 
have some questions for closed session. The problem is that I 
have a couple of conflicts and might not be there to be able to 
do that.
    Senator Domenici. Just give me your closed session 
questions.
    Senator Reid. That would be great.
    Thank you very much.
    Senator Domenici. Thank you.
    Senator Cochran.

                            CTBT SAFEGUARDS

    Senator Cochran. Thank you, Mr. Chairman.
    Mr. Miller, you mentioned the safeguards that are 
associated with the Comprehensive Test Ban Treaty. I know 
Secretary of Energy Pena also discussed those.
    In connection with safeguard F, which I understand the 
President has said he could use if he had been advised by the 
Secretaries of Energy and Defense that they were no longer 
confident that the nuclear weapons we had were safe and 
reliable, can you imagine a scenario where the secretaries 
would make that kind of advice available to the President?
    Mr. Miller. Yes, sir.
    I do not believe it will happen. I do not believe it will 
happen because of the Stockpile Stewardship Program. But if the 
Stockpile Stewardship Program were to determine that there was 
a significant flaw in a weapon which played a key role in the 
deterrent, and that flaw could not be corrected in any other 
way than through a process that needed to be certified by 
testing, then I believe the Secretaries of Defense and Energy 
would come forward and I believe the President--or a 
President--would do exactly what the President has said 
safeguard F is all about.
    Senator Cochran. It just strikes me that it is absolutely 
unthinkable that we would get ourselves into a position where 
we would announce to the world, in effect, that there were some 
serious flaw in our nuclear deterrent. The fact of that 
announcement would create such an invitation to potential 
enemies that it would just be unthinkable.
    Mr. Miller. If I could respond, Senator, I think the fact 
is that we have in this country always depended on a real 
deterrent and not an existential deterrent. It was not just the 
existence of the weapon but it was the fact that there was a 
weapon that had a credible means of delivery and a credible 
plan that backed it up, and a credible policy and a credible 
will that the weapons would have to be used, if necessary, that 
formed the entire basis of the deterrent.
    If we knew ourselves that there was some terrible flaw in 
the system, we would owe it to the American people to fix that 
flaw as long as nuclear weapons were part of our security 
posture. I believe that we would do that.
    I would say to you that, even in the circumstances that you 
postulate--and, again, I do not believe they are likely, but 
even in those circumstances--a potential enemy would not know 
whether that flaw would disable one of our weapons, or 12, or 
100, or 500. So, if I were a potential aggressor, that would 
not be a sign to me that the United States was in a position of 
weakness. But for our own internal responsibilities, we clearly 
would have to come forward to the President, and the President 
to the Congress and to take the steps necessary as commander in 
chief to insure the deterrent.
    Senator Cochran. If you had the choice of proceeding with a 
Stockpile Stewardship Program and testing, would you elect to 
do both?
    Senator Reid. Senator, would you repeat your question, 
please?
    Senator Cochran. If you had the choice to engage in a 
Stockpile Stewardship Program and to test, would you do both?
    Mr. Miller. I will take the easy route and defer to my 
colleagues, because what we have to do here, what we have to do 
on the policy side is defer to the judgment of our technical 
experts as to the best way to maintain that stockpile. So I 
cannot tell you from the policy side and as a nontechnical 
person what the best way to maintain the stockpile is.
    But Dr. Smith and Dr. Reis are more qualified to do so.
    Senator Cochran. Dr. Smith, would you like to respond to 
that?
    Dr. Smith. With all deference, Senator, I do what the 
President tells me to do and I don't do what the President 
tells me not to do. He has said do not test. I do not intend to 
test.
    Senator Cochran. Would withdrawal from the CTBT in your 
judgment be an announcement to the world that the United States 
has a significant problem in its nuclear stockpile?
    Mr. Miller. Sure.
    Senator Cochran. I am going to Dr. Smith now.
    Dr. Smith. I'm afraid that would be the logical conclusion. 
Yes, sir.

                    SUPREME NATIONAL INTEREST CLAUSE

    Senator Cochran. Dr. Smith, President Clinton has referred 
to the supreme national interest clause as an important feature 
of the CTBT. Does it make you more willing to accept the risks 
inherent in becoming a party to the treaty before the Stockpile 
Stewardship Program has proven to be a sufficient alternative 
to testing?
    Dr. Smith. Yes, sir.
    As a scientist, I am very pleased that in extremis, which I 
think is very unlikely, I feel better having that escape 
clause, safeguard F.

       CTBT SAFEGUARD C--CAPABILITY TO RESUME UNDERGROUND TESTING

    Senator Cochran. Presidential safeguard C has also been 
mentioned. It says that the U.S. entry into the treaty is 
conditioned on the maintenance of the basic capability to 
resume nuclear test activities prohibited by the treaty should 
the United States cease to be bound to adhere to this treaty. 
Would it be difficult to maintain an ability to test without 
testing?
    Dr. Smith. I will answer briefly and then, if I may, I 
should defer to Dr. Reis.
    I think the answer is we will be ready to test and there is 
good, solid evidence. We have had two truly splendid scientific 
experiments in the Nevada site which I think keeps the people, 
the equipment, and the goals up to the needs implied by further 
testing.
    So I think yes, we are in a continual state of being able 
to test. Again, though, I should defer to Dr. Reis there.

                          DETECTION CAPABILITY

    Senator Cochran. Let me ask you another question before Dr. 
Reis is given another opportunity to respond.
    I understand from some technical experts that the United 
States has no technical means to detect tests conducted at a 
level of 10 kilotons or less, certainly not at the level of 1 
or 2 kilotons.
    Would nations like Russia and China be able to conduct 
testing at those levels without our being able to detect them?
    Dr. Smith. If I may, Senator, I would rather defer that 
answer to the closed session.
    Senator Cochran. Secretary Reis, what is your reaction to 
that question that I had about safeguard C? Would it be 
difficult to maintain an ability to test without testing?
    Dr. Reis. Senator, that is an integral part of our 
Stockpile Stewardship Program. The whole purpose of stewardship 
and the backups is also to maintain the ability to test and the 
ability to do production, if so desired. The examples that Dr. 
Smith gave I think are just right. The subcritical experiments 
really, I think, put everybody--pardon the expression--really 
to the test; you know, could they develop that type of 
experiment, could it be done at a particular period of time?
    We also have a sufficient inventory of already drilled 
holes in case we have to do that. We have an inventory to get 
started of a number of the types of equipment we need to do 
that. Much of the diagnostics that we are developing now are 
being used on things like other type of laboratory 
experiments--pulsed power experiments and so forth.
    So I feel that that is not something like oh, by the way. I 
think that is an integral part of the Stockpile Stewardship 
Program.

                       NATIONAL IGNITION FACILITY

    Senator Cochran. Mr. Chairman, my last question is about 
the national ignition facility, which we discussed in our 
hearings in the Governmental Affairs Committee. It is one of 
the key elements of the Stockpile Stewardship Program. There 
was a predecessor program or one similar to it called NOVA, 
which took several years to build, and it was not until that 
was completely built and the switch turned on, in effect, that 
you found NOVA was not working. It took an additional 2 years 
to get it to work right.
    With that experience in mind, how do you know when the 
Stockpile Stewardship Program will work or not?
    Dr. Reis. First of all, of course, NOVA is working now and 
is an integral part of our Stockpile Stewardship Program from 
the laser perspective. We are also using the Omega laser, which 
builds another part, again, from the laser perspective, in 
terms of that. Yes; the national ignition facility is a 
critical part and, while we have every expectation and 
confidence that it will be built on schedule, as you point out, 
things do happen and I certainly cannot guarantee that.
    But there are other parts of the program that we build up 
in time. We are doing it now. We will continue to do it. So the 
problems that show up now we will solve now. As the stockpile 
ages, we will expect more problems to show up, but we expect to 
have more capability in time.
    What we are talking about now is, if you will, a race 
against mother nature, and we think we have laid out as best we 
can what the problems are that we expect to have. We understand 
a lot about these weapons. We don't expect to understand 
everything about them. But, again, we have laid out a program 
that we believe now is sufficient to answer all those 
questions.
    Ultimately, we also have to have built in the safeguards 
for the stewardship program. That is a part of the program 
itself.
    Senator Reid. Senator Cochran, would you yield for just a 
moment?
    Senator Cochran. Certainly.
    Senator Reid. Dr. Reis, in answer to his question, at least 
as I understand it, he said do you believe the Stockpile 
Stewardship Program will work, but I did not hear your answer.
    Dr. Reis. The answer to that is yes, I do.
    Senator Reid. Thank you, Senator.
    Senator Domenici. Senator Cochran, are you finished?
    Senator Cochran. Yes; I am.
    Senator Domenici. Thank you very much for attending today. 
You are on the subcommittee and we thank you for the 
participation that you are committing to us today. I understand 
you have a broader based jurisdiction than we do. We are 
looking at the budget implications and it is obvious that this 
is not as simple a proposition as some would make it.
    Is that not correct from what you know so far?
    Senator Cochran. Well, I am not a witness, but I would be 
glad to testify if you wish. [Laughter.]
    Senator Domenici. No; you don't have to do that. 
[Laughter.]
    On page 7 of the document you asked that we might put into 
the record--and we have made the whole document attached. Why 
don't we attach that whole document rather than have it 
printed. We can just attach it to the record.
    [The information follows:]

                 CAPABILITIES NEEDED TO ENSURE HIGH CONFIDENCE IN WARHEAD SAFETY AND RELIABILITY                
----------------------------------------------------------------------------------------------------------------
                                              Computer              Subcritical               Pulsed            
              Weapons physics                simulation    DARHT    experiments     NIF       power      LANSCE 
----------------------------------------------------------------------------------------------------------------
Improved physical modes....................           X          X           X           X          X          X
Early implosion............................           X          X           X   .........  .........          X
Preboost...................................           X          X           X           X          X          X
Boost......................................           X  .........  ...........          X  .........  .........
Primary-secondary coupling.................           X  .........  ...........          X          X  .........
Secondary implosion........................           X  .........  ...........          X          X  .........
Weapon performance.........................           X  .........  ...........  .........  .........  .........
----------------------------------------------------------------------------------------------------------------

    Senator Domenici. On page 7, I note that you have listed 
computer simulation, DARHT, subcritical experiments, NIF, 
pulsed power, and LANSCE.
    Dr. Reis. Yes, sir.
    Senator Domenici. Now in response to Senator Cochran's 
question regarding NIF, it is the biggest of the projects in 
terms of a structure and expenditure, is it not--of the 
program?
    Dr. Reis. That's correct.
    Senator Domenici. Pulsed power, if it proves out, could do 
some of the things that NIF does. Is that not correct?
    Dr. Reis. It is complementary. I think the pulsed power 
could do some of the things that NIF does. It can do other 
things that NIF cannot do. NIF can do some things that pulsed 
power cannot do.

                   LOS ALAMOS NEUTRON SCIENCE CENTER

    Senator Domenici. How does LANSCE fit into this?
    Dr. Reis. LANSCE is the Los Alamos Neutron Scattering 
Center, and that is where we use neutrons to really understand 
the details of using neutron scattering to really get in and 
look at the details of both the nuclear and nonnuclear parts, 
the explosion itself.
    One of the keys, Senator, is this ability to do 
surveillance properly. What you would like to be able to do and 
what we are pushing for, as far as what we call enhanced 
surveillance, is you would rather not wait until there is a 
defect and then fix the stockpile. What you really want to do 
is determine ahead of time: Are there indications that, for 
example, the high explosive is beginning to change its 
properties so that we would have to change it out before there 
is any problem?
    To do that, we have to really understand in much greater 
detail than we do now the material properties. That is where a 
device, a system like the LANSCE, is particularly effective.
    Senator Domenici. Dr. Reis, while I have you here, let me 
just go back to something for 1 minute. It does somewhat 
involve this but not totally.
    Dr. Reis. I think we made a copy of that.
    Senator Domenici. Fine.

                      CONFIDENCE IN THE STOCKPILE

    In listening to Secretary Schlesinger in the Governmental 
Affairs hearing, which Senator Cochran chairs, Dr. Schlesinger 
expressed some grave reservations about the Comprehensive Test 
Ban Treaty being in our Nation's interest. He argued that 
continuation of the underground testing program is the only 
assurance that we can have of the integrity of the stockpile. 
He also noted that several previous defense chiefs, as well as 
laboratory directors, several previous ones of both types, have 
consistently noted the importance of underground testing.
    In that same hearing, Dr. Barker, who is a Livermore 
expert, expressed concern that it will be many years before we 
will know if the Stockpile Stewardship Program can succeed and 
in that regard succeed in maintaining the level of confidence 
we require in our stockpile.
    He questioned if national security is well served by 
entering into a CTBT before we know how the stewardship program 
will work.
    How do you address their concerns that a nation needs an 
underground testing program to maintain the integrity? If you 
would like, I will add just a second point to this.
    How would you address Dr. Barker that stockpile stewardship 
cannot be demonstrated to succeed for many years and during 
that time we will have low capabilities, will have lost our 
capabilities, under the treaty?
    Dr. Reis. Well, I would have to respectfully disagree with 
both Dr. Barker and at some trepidation with Dr. Schlesinger.
    But I would suggest that the reason I feel much more 
comfortable about it than perhaps they do is I have been 
working at it for 5 years while previous chiefs have said some 
time ago that they were concerned about it.
    This is a different program. We are now not trying to 
develop new weapons. We are trying to maintain a stockpile of 
very well tested and very well understood weapons.
    Second, while it may be some years before the full program 
is in place--I think the program is in place now and it is 
working now. It has been 5 years since the last weapon was 
tested. And, as Secretary Pena just said, we have just gone 
through an extraordinarily detailed second annual 
certification. While he has not yet signed off, as you said, he 
expects to be able to sign off on that, as well as Secretary 
Cohen to sign off fairly soon.
    The last reason is one that I think I alluded to in my 
testimony. I think our laboratories and our plants are now very 
different places than they were 4 or 5 years ago. Through the 
Stockpile Stewardship Program we have really been 
reinvigorated--and I should say with help from you, Senator 
Domenici, and Senator Reid, and the Congress as well, who have 
been very supportive in terms of that program.
    We have gone through some risks and it has taken quite a 
bit of courage and resources to do this. So I think if you ask 
the current laboratory directors, and I'm sure you will, and if 
you ask the current senior military, and you have some examples 
here from the civilian leadership as well, you will find that 
they feel that yes, while there clearly is risk, that risk is 
well worthwhile in terms of our broad national security 
interests and that we will be able to maintain those nuclear 
weapons and the system that supports those nuclear weapons 
indefinitely. And we have a high probability of being able to 
do that without testing.

                    SIGNATORY COUNTRIES TO THE CTBT

    Senator Domenici. By the way, which countries are 
signatories to the treaty now?
    Mr. Miller. We can get you the full list. There are 41 
countries now.
    Dr. Reis. That have ratified at this stage of the game?
    Mr. Miller. No; they are signatories.
    I believe 145 have signed. I will get you the full list for 
your record.
    [The information follows:]

    As of 31 October 1997, 148 countries have signed the Comprehensive 
Nuclear Test Ban Treaty (CTBT), and seven have ratified it. The seven 
are: Czech Republic, Fiji, Japan, Federated States of Micronesia, 
Mongolia, Qatar, and Uzbekistan. Of the 44 countries named in the 
Treaty, whose ratification is required for entry into force, all but 
three--India, Pakistan, and North Korea--have signed the treaty.

    Senator Domenici. And from those that are commonly known as 
having nuclear capacity, nuclear weapon capacity, are they all 
on board?
    Mr. Miller. India and Pakistan are not.
    If I could say something about that, I think that if we got 
to a point where the treaty entered into force even without 
India and Pakistan--and that would require an extraordinary 
conference in 3 years time and it would require coming back to 
the Senate for ratification of a provision that changes the 
basic treaty, that says the treaty does not enter into force 
until all the nuclear States and threshold States have 
ratified--it creates an international norm which even a State 
like India would break at some significant risk.
    And so, if the treaty is in effect, I think it constrains 
the weapons programs of even those acknowledged States that are 
not party to the treaty. There is value there.
    Senator Domenici. That's understandable.
    Thank you.
    Let me talk about another issue with the two scientists for 
1 minute.

                           DUAL REVALIDATION

    In matters such as this, it is very likely that there would 
be differences of opinion among experts on the health of the 
stockpile and the weapons that are principally of long-time 
stockpile nature, and that may require some change in 
manufacturing or some change in the stockpile weapon. How will 
differences of opinion be resolved without the ultimate 
authority of a nuclear test to settle an issue?
    Dr. Smith. I'll take the first stab and will then turn to 
Victor.
    First of all, the process that had been up on the previous 
chart brings together all the expertise that we have and the 
debates that have taken place now with 2 years experience in 
certification are very intense.
    I think, in fact, I am positive that every possible expert 
opinion is heard. It is not a case of taking a vote. It is a 
case of working through the details. We have found so far that 
when we work through those details, in fact, we are satisfied 
that the weapons are safe, secure, and reliable.
    But that is not enough. We have also instituted between the 
two departments what we call dual revalidation, which 
purposefully and deliberately sets up independent review teams 
between the two weapons design laboratories--Los Alamos and 
Livermore. If Los Alamos designed the weapon then Livermore has 
to create its own independent team to go over the designs, the 
tests, to recommend new tests, to do new calculations on old 
data, to do everything they can to form their own independent 
review.
    So this is peer review such as the world has never seen.
    I find it hard to believe that between those two processes 
every opinion that is technically based, that is a true expert 
opinion, will not be presented. It will be heard, will be 
discussed, and a consensus I am rather certain will be formed.
    Dr. Reis. Let me add two things to that.
    First, as you notice, the process has not just a central 
chain but two chains along the side. So what we have tried to 
do is insure ourselves--and that reports are sent separately to 
the Secretary of Defense and to the Secretary of Energy. So we 
have been very sensitive to insure ourselves the independence 
of those two groups.
    They all work with the same data in terms of their 
judgments, in terms of their questions. Not only does it work 
through the process through the Nuclear Weapons Council, but 
they are also required to give their own separate judgments to 
the Secretary of Energy and the Secretary of Defense.
    So we have been very sensitive to minority opinion.
    Let me also add one more thing to this dual revalidation 
process. Senator Cochran, I think that gets back to the point 
you were making: How do we know this thing is working?
    In addition, one of my main concerns is how do I train the 
new people. How do we get the new people to understand what 
went on in the heads and the understanding of the people who 
actually had the experience in testing and had to do the 
designing. That is where this dual revalidation comes in.
    So not only, if you will, does it insure us literally from 
going back to the basic information and the basic blueprints 
and so forth that both these labs are working on with each 
other, but this is the opportunity for the new people to come 
along and work with the mentors, work with the people who have 
actually done the designing over that time. Why did you make 
this decision? Why did you make that decision? Let's look at 
the new tools and see if we can predict some of the same 
results we got from the old data, basically.
    This is really the essence of what we are trying to do, 
bring the new people on so that when the time comes that the 
old people are gone, you will have had their judgment and 
expertise. So, again, as you point out, I think correctly, the 
issue is not now but 10, 15, or 20 years from now. That is when 
the essence of the idea of the perpetuity of the treaty really 
comes into force.
    Mr. Miller. Mr. Chairman, if I might just give you an 
example of how the policy--technical interface works in this 
area, this dual revalidation is relatively new. Within the past 
5 years it came about in part because of the prompting from us 
in policy.
    Previously, Los Alamos looked at its designs and Livermore 
looked at its designs, but you didn't look at the other guy's 
designs. Now we broke that wall down because we were concerned 
about two things: One, getting a new pair of trained, 
sophisticated scientific eyes on the other person's designs so 
that potentially new flaws or flaws could be examined; and, 
second, given the shrinking pool of expertise, we wanted to 
take advantage, full advantage, of those capabilities that we 
have, these national resources, these people who have done the 
testing.
    So there was a bit of a push from policy and the technical 
walls came down, so that people from Los Alamos and Livermore 
could now get involved in each other's work.
    This is an example of the kind of crosscutting work that 
occurs between all of us.

                 CTBT SAFEGUARD B--NUCLEAR LABORATORIES

    Dr. Reis. Let me pick up if I could on that as well. That 
is what safeguard B is all about. That is why the specific 
safeguard B is there, which says you will maintain three 
nuclear laboratories and you will insure yourself. It 
specifically talks about the people and the vitality of those 
laboratories. That is, if you will, the response to the concern 
that we had from a technical perspective and the concern that 
policy has. That is put right back into the policy.
    As you recall, Senator, there were a number of discussions 
2 or 3 years ago where people looking at this asked why do I 
need all of these laboratories and couldn't I do it with one. 
The answer is you cannot do it with one because what you really 
need is that scientific competition to be continually 
questioning each other with the people from Sandia, Livermore 
and Los Alamos all working it out. That is just the nature of 
the scientific method.
    They cannot help themselves in competing from a scientific 
perspective. They are always questioning, always probing each 
other. It is basically built into their bones. That is just an 
integral part of the whole stewardship program.

                          ANNUAL CERTIFICATION

    Senator Domenici. I note in the previous chart that over on 
the right hand side you have the three lab directors. I would 
assume, Dr. Reis and Dr. Smith, that from a technical 
standpoint, probably their conclusions and their observations 
would be as important, if not more important, than almost 
anybody else on that chart.
    Is that correct?
    Dr. Reis. I would suggest that the institutions that they 
represent, because the laboratory directors are not necessarily 
weapons designers, it is their job because they are the ones 
who have to put their names on it to insure themselves that 
their institution's integrity is intact. That integrity is just 
all important to them.
    That is why, frankly, I think it is so important to get, if 
you will, their signature specifically on this and not just as 
part of a bureaucratic process; that they have to stand up 
every year and say look, representing my institution, those 
weapons are safe and reliable--or not. Ultimately, you are 
dependent upon the integrity and the competence, if you will, 
of those people.
    Senator Domenici. What I meant was not the individual 
person signing it, but if you put up a chart over there with 
those three people, representing 7,000 to 8,000 of the greatest 
scientists in the world in each of three laboratories, I assume 
they go through an exercise whereby their director concludes 
from the input of that laboratory what he is going to say about 
certification.
    Dr. Reis. Yes.
    Senator Domenici. That is a very powerful part, I would 
assume, of this.
    Dr. Reis. That is an extraordinarily powerful part.
    Senator Domenici. Would you agree with that, Dr. Smith?
    Dr. Smith. It is a simple answer that I would like to give.
    I would not agree that the laboratory directors or, more 
appropriately, the institutions they represent are the first 
among equals. They are equals, though. They are certainly not 
inferiors.
    But we do want the opinions of STRATCOM, we do want the 
opinions of the Nuclear Weapons Council with all the components 
that it represents. But the laboratory directors and their 
institutions are of equal and important input.
    Senator Domenici. I have just two quick questions.
    Do you have some more questions, Senator?
    Senator Cochran. I just thought of one, if you would let me 
ask it now.
    Senator Domenici. Go ahead.

        FUTURE FUNDING FOR STOCKPILE STEWARDSHIP VERSUS TESTING

    Senator Cochran. If you could compare, for example, a 
nuclear testing program in terms of cost with the stewardship 
program over the next 20 years, how much money would we save if 
we did low yield testing instead of the stewardship program?
    Dr. Reis. I don't think you could, but you just did low 
yield testing, you would certainly save money. But if I did not 
do the stewardship program, I would not be able to maintain the 
safety, reliability, and performance of the stockpile. I think 
both Dr. Schlesinger and Dr. Barker so testified. They said 
fundamental to their discussion is you would still do the 
stewardship program.
    So if once you are doing the stewardship program----
    Senator Cochran. Would it have to be as expensive as the 
one we are undertaking?
    Dr. Reis. I have looked at that because, indeed, we had to 
worry about that. I think we have the right, essentially the 
right program the way it is now. If we have to go back and test 
or something like that, that is essentially built into the 
program already.
    So I don't think it is a cost issue, Senator. If people 
looked at the program as, for example, what if we just 
manufacture and test--I mean, there are other potential 
solutions to the idea of basically maintaining the stockpile. 
You know, different countries might do it basically based on 
their systems.
    Based on our system, based on how we are doing it, I think 
we are doing it the right way. I don't think there are any cost 
savings to be made. I think we have indicated that we don't 
think there is any fat, basically any fat in the program. It is 
hard to project 5, 10, 15, 20 years into the future. But I 
don't believe one could come up with a program that will do 
this job for any less money than that.
    Senator Cochran. Thank you.
    Senator Domenici. We have 13 minutes left on a vote and I 
think we need a little time to move you over to the next room 
to do our closed hearing.
    I have a number of other questions that I am going to 
submit. If you have any, Senator Cochran, you can submit them. 
Senator Reid also had some.

                  ONSITE INSPECTION MECHANISM OF CTBT

    But I want to just ask you one question about the onsite 
inspection mechanism provided for in this treaty.
    As this treaty unfolds, people are going to go through all 
parts of it. You all have alluded to a few things that have not 
been talked about much in public. But there are two ways, 
obviously, to try to detect the explosion.
    One is we were successful in maintaining in this treaty 
that we could have our own system of detection. Whatever we 
have by way of satellites or whatever we have, we can keep, and 
so can other countries. Then there is a system of international 
ones. Obviously, the question then comes is not an onsite 
inspection almost always necessary to establish the situs.
    I assume, for the most part, you want to actually locate 
the situs of the explosion if it occurred.
    I note in the treaty that 30 of the 51 nation executive 
councils must agree before an onsite inspection can occur.
    Now, I think this is going to be a bone of contention 
around here and that there are going to be a lot of questions 
about this aspect. Why such a large number and do you really 
believe it is going to be easy to get 30 out of that Executive 
Committee of 51 nations to agree to permit onsite inspections?
    Let's start with you, Mr. Miller.
    Mr. Miller. I don't think we know the answer to that, 
Senator. But on the face of it, given that the vast majority of 
the members are not nuclear weapons states, I don't see that 
there is a built in reason why it would be difficult to get 30. 
They are not protecting anything if they are not testing, and 
if one of the states is testing, then it is a minority of one.
    There will undoubtedly be controversy. This is a mechanism 
that is going to have to be worked out, just like any other 
treaty mechanism is going to have to be worked out. But on the 
face of it, I do not believe that that is going to be a 
problem. I could be proven wrong, but I don't believe so.
    Senator Domenici. Do you have a comment on that, Dr. Smith?
    Dr. Smith. If the evidence is close to incontrovertible and 
the abilities we will have will strongly suggest that an 
explosion of some magnitude takes place, then it would be very 
hard, I would think, to resist the chance of a nation that 
feels it has been unjustly treated to insist on an inspection. 
And, as Mr. Miller has pointed out, there will be plenty of 
nations in the 50 that would welcome the chance.
    But as to the difficulty, I rather imagine it will be hard. 
But you, far more than Mr. Miller and I, are well aware of how 
ones tries to get 31 votes out of 50.
    Senator Domenici. Yes; I try to get 51 out of 100.
    Senator Cochran. We have to get 60.
    Senator Domenici. Yes; sometimes 60. It can be very 
difficult.
    I do have an observation. I was told, and by people that I 
am sure do know, that the reason for 30 is because that was 
part of the bargaining to maintain in the treaty the national 
technical means aspect of this treaty. And the swap-out was OK, 
if you insist on keeping your own national means, then we are 
going to go more than a simple majority or more than a big 
minority allowing the onsite inspections.
    Frankly, I don't know why we needed the tradeoff. If we 
need to go to a country, at least we know from our standpoint 
we are not going out there to look for something to learn, to 
take away from them. We are trying to find out whether or not 
this happened.
    So I am not so sure about the statement that we have 
equipment and technology to discern whether or not an explosion 
has occurred. I would remind all of you of the situation in 
Russia in Novaya Zemlya. We are still arguing about whether 
there was an explosion there or not. We are not absolutely 
certain there wasn't.
    Dr. Smith. Mr. Chairman, we are not arguing about where 
that event took place.
    Senator Domenici. That's right. But all they would have to 
say to this council of 51 is we don't think it happened and 
here is our evidence. Why do we want to let this team come in 
and inspect?
    That is the reason I raised the point. It would take a long 
time to agree on that.

                         CONCLUSION OF HEARING

    Our open meeting stands in recess. We will resume in close 
session across the hall in about 10 minutes.
    Thank you.
    [Whereupon, at 4:40 p.m., Wednesday, October 29, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 
</pre></body></html>
